<html>
<title> - BEYOND THE CLASSROOM: INFORMAL STEM EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         BEYOND THE CLASSROOM:
                        INFORMAL STEM EDUCATION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2009

                               __________

                            Serial No. 111-5

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
47-611                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BRIAN P. BILBRAY, California
PAUL D. TONKO, New York              ADRIAN SMITH, Nebraska
PARKER GRIFFITH, Alabama                 
RUSS CARNAHAN, Missouri                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
            MARCY GALLO Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                    BESS CAUGHRAN Research Assistant


                            C O N T E N T S

                           February 26, 2009

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     6
    Written Statement............................................     7

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     9

Statement by Representative Russ Carnahan, Member, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     9

                               Witnesses:

Dr. Joan Ferrini-Mundy, Director, Division of Research on 
  Learning in Formal and Informal Settings, Directorate for 
  Education and Human Resources, National Science Foundation
    Oral Statement...............................................    10
    Written Statement............................................    12
    Biography....................................................    17

Dr. Philip Bell, The Geda and Phil Condit Professor of Science 
  and Math Education, Associate Professor of the Learning 
  Sciences; Director, Institute for Science and Mathematics 
  Education, University of Washington, Seattle; Co-Chair, 
  Committee on Learning Science in Informal Environments, Board 
  on Science Education, National Academy of Sciences, The 
  National Academies
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    25

Ms. Andrea J. Ingram, Vice President, Education and Guest 
  Services, Museum of Science and Industry, Chicago
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    33

Mr. Robert M. Lippincott, Senior Vice President for Education, 
  The Public Broadcasting Service (PBS)
    Oral Statement...............................................    34
    Written Statement............................................    35
    Biography....................................................    52

Dr. Alejandro Grajal, Senior Vice President for Conservation, 
  Education, and Training, The Chicago Zoological Society
    Oral Statement...............................................    52
    Written Statement............................................    54
    Biography....................................................    59

Discussion.......................................................    59

             Appendix 1: Answers to Post-Hearing Questions

Dr. Joan Ferrini-Mundy, Director, Division of Research on 
  Learning in Formal and Informal Settings, Directorate for 
  Education and Human Resources, National Science Foundation.....    76

Dr. Philip Bell, The Geda and Phil Condit Professor of Science 
  and Math Education, Associate Professor of the Learning 
  Sciences; Director, Institute for Science and Mathematics 
  Education, University of Washington, Seattle; Co-Chair, 
  Committee on Learning Science in Informal Environments, Board 
  on Science Education, National Academy of Sciences, The 
  National Academies.............................................    80

Ms. Andrea J. Ingram, Vice President, Education and Guest 
  Services, Museum of Science and Industry, Chicago..............    82

Mr. Robert M. Lippincott, Senior Vice President for Education, 
  The Public Broadcasting Service (PBS)..........................    84

Dr. Alejandro Grajal, Senior Vice President for Conservation, 
  Education, and Training, The Chicago Zoological Society........    97

             Appendix 2: Additional Material for the Record

Statement of Ioannis Miaoulis, President and Director, Museum of 
  Science, Boston; Founding Director, National Center for 
  Technological Literacy.........................................   100

Statement of the Girl Scouts of the USA..........................   107



             BEYOND THE CLASSROOM: INFORMAL STEM EDUCATION

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2009

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chair of the Subcommittee] presiding.
                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                         Beyond the Classroom:

                        Informal STEM Education

                      thursday, february 26, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    The purpose of the hearing is to examine the role of informal 
environments in promoting science learning. The Subcommittee will 
explore the potential for informal science learning to engage students 
in math and science in ways that traditional formal learning 
environments cannot, as well as the ways in which informal science 
education can complement and enhance classroom science studies. 
Furthermore, we will receive testimony on the National Academies 
report, ``Learning Science in Informal Environments: People, Places, 
and Pursuits.''

2. Witnesses:

<bullet>  Dr. Joan Ferrini-Mundy, Division Director, Division of 
Research on Learning in Formal and Informal Settings, Education and 
Human Resources Directorate, National Science Foundation.

<bullet>  Dr. Phillip Bell, Co-Chair, National Academies report 
``Learning Science in Informal Environments: People, Places, and 
Pursuits,'' and Professor, College of Education, the University of 
Washington, Seattle.

<bullet>  Ms. Andrea Ingram, Vice President of Education and Guest 
Experiences, Museum of Science and Industry-Chicago.

<bullet>  Mr. Robert Lippincott, Senior Vice President for Education, 
the Public Broadcasting Service (PBS).

<bullet>  Dr. Alejandro Grajal, Senior Vice President of Conservation, 
Education, and Training, the Chicago Zoological Society.

3. Overarching Questions:

<bullet>  What is the role of informal environments in educating 
students and the public about Science, Technology, Engineering and 
Mathematics (STEM)? In what ways can informal education contribute to 
and enhance classroom learning? Are there areas that informal 
environments are uniquely positioned to address? What role can informal 
education play in broadening participation and promoting diversity in 
STEM fields?

<bullet>  What are the key factors in successful partnerships between 
informal science organizations and formal education institutions, 
including both K-12 and higher education? What opportunities for 
partnerships exist with the private sector? How have both museums and 
educational media providers had to adapt to meet the needs of schools 
and states? How can K-12 schools and institutions of higher education 
take advantage of informal learning environments to meet their needs?

<bullet>  What kind of research is being done on informal science 
education to assess its evolving role and effectiveness? What metrics 
exist to assess and evaluate informal learning environments, and what 
are the barriers to developing better metrics?

<bullet>  What are some of the major challenges and opportunities that 
lie ahead in the field of informal science learning? What support could 
federal research agencies provide to most effectively contribute to the 
development and implementation of informal STEM education activities?

4. Background

    There is now a consensus that improving science, technology, 
engineering, and mathematics education is critical to the Nation's 
economic strength and global competitiveness in the 21st century. 
Reports have emphasized the need to attract and educate the next 
generation of American scientists and innovators. For example, the 
National Academies' 2005 report, Rising Above the Gathering Storm, 
recommends that the Nation increase its talent pool by vastly improving 
K-12 science and mathematics education. This recommendation was 
embraced by the America COMPETES Act which was developed by the Science 
& Technology Committee in the last Congress and was signed into law in 
August of 2007. Many in the STEM educator community have argued that in 
order to improve STEM education, we must draw on a full range of 
learning opportunities and experiences, including those in informal, 
non-school settings. Reports by both the National Science Board\1\ and 
the Academic Competitiveness Council\2\ cited informal education as an 
integral component of our nation's education system.
---------------------------------------------------------------------------
    \1\ National Science Board (2007). Science, technology, 
engineering, and mathematics (STEM) education issues and legislative 
options. In R. Nata (Ed.), Progress in Education (Vol. 14, pp. 161-
189).
    \2\ U.S. Department of Education (2007). Report of the Academic 
Competitiveness Council. Washington, DC: Author.

Informal Education
    Informal science education can take place in a variety of places 
and through a wide variety of media such as science centers and 
museums, film and broadcast media, aquariums, zoos, nature centers, 
botanical gardens, online games, and after-school programs. It is 
widely held that informal learning can happen in everyday environments 
and through everyday activities as well. While it can be difficult to 
define informal education, the term tends to broadly refer to any 
opportunities for learning that take place in non-traditional, non-
school settings.

National Academies Report on Informal Science Learning
    The Committee on Learning Science in Informal Environments was 
established by the National Research Council (NRC) of the National 
Academies to undertake a study to examine the status of, and potential 
for science learning in informal environments. The National Science 
Foundation (NSF), a principle sponsor of research in informal science 
education, provided support for the study. In January 2009 the National 
Academies Committee released a report entitled ``Learning Science in 
Informal Environments: People Places, and Pursuits,'' summarizing the 
key conclusions of the study and providing recommendations for future 
research and practice. The Committee found, among other things, that 
there is ample evidence to suggest that science learning takes place 
throughout the life span and across venues in non-school settings. The 
Committee outlined and examined four categories where informal learning 
often takes place: everyday experiences, designed spaces (such as 
museums, science centers and zoos), non-school educational programs, 
and science media. The report summarizes the conclusions drawn from the 
research reviewed by the Committee, and offers recommendations for 
practice and research to exhibit and program designers, front-line 
educators, researchers and evaluators.
    A key issue addressed in the report is the need to effectively 
evaluate and assess informal STEM education. Assessing learning in non-
school settings can prove difficult since informal settings for STEM 
learning typically do not use tests or grades. Yet, there tends to be a 
general agreement that it is important to evaluate learning outcomes in 
order to improve informal STEM programs and activities. Another key 
issue highlighted in the report is the role of informal STEM education 
in promoting diversity and broadening participation. The Committee 
found that informal environments can have a significant impact on STEM 
learning outcomes in historically under-represented groups, and 
informal learning environments may be uniquely positioned to make STEM 
education accessible to all.

5. Federal Support for Informal STEM Education

Informal STEM Education Support at NSF
    STEM education research and development activities are funded out 
of a number of federal agencies, with NSF being the primary source of 
support for STEM education research. Historically, NSF's mission has 
included supporting and strengthening the Nation's STEM research and 
education activities at all levels. NSF carries out this mission by 
funding STEM activities ranging from teacher training and curriculum 
development to informal education and research on learning.
    Many of the Foundation's STEM education and research activities are 
housed in the Directorate for Education and Human Resources (EHR). EHR 
support for research on learning and STEM education is largely funded 
through its Division on Research Learning in Formal and Informal 
Settings (DRL). The FY08 budget for DRL was approximately $209 million. 
One of the chief informal STEM education programs funded through DRL is 
the Informal Science Education (ISE) program. ISE invests in projects 
that are designed to increase interest and understanding of STEM 
through informal learning experiences, with a particular emphasis on 
projects that seek to inform and strengthen informal STEM education 
nationally, and have the potential to make a strategic impact on the 
field as a whole. The FY08 budget for ISE was approximately $66.0 
million.
    While the majority of the Foundation's STEM education support comes 
out of EHR, there are a variety of STEM activities being funded across 
the research directorates. One such example, the Centers for Ocean 
Sciences Education Excellence (COSEE) program, housed in the 
Geosciences Directorate in the Division of Ocean Sciences (GEO/OCE) has 
a strong informal education component. The COSEE program invests in 
projects that connect scientists with educators in formal settings as 
well informal settings such as museums and aquariums. Another example 
is the International Polar Year awards in NSF's Office of Polar 
Programs (OPP). Such awards fund formal and informal interdisciplinary 
projects aimed at educating the public about the polar regions. IPY 
projects have ranged from museum support and teacher development 
programs to film projects documenting polar marine ecosystems in 
Antarctica.

Support for Informal STEM Education at Other Agencies
    The other mission agencies within the jurisdiction of the House 
Science & Technology Committee also support STEM education, including 
informal STEM education, through a variety of mechanisms. While it is 
not possible to provide budget information regarding all the informal 
science education initiatives at the agencies at present, there are a 
few notable programs that serve as examples of agency support of 
informal STEM education. The National Aeronautics and Space 
Administration (NASA) Informal Education Division has recently 
initiated its NASA Explorer Institute (NEI) program, designed to bring 
together members of the informal education community and NASA staff to 
facilitate discussions on how to best utilize NASA missions to educate 
students and the public about STEM. NEI supports the informal science 
education community by providing NASA-related professional development 
opportunities, STEM teaching tools and other development projects for 
informal STEM educators at NASA field centers. Another NASA activity, 
the NASA e-Education programs develop research-based products and 
services specifically designed to enhance both formal and informal 
education. At the National Oceanic and Atmospheric Administration 
(NOAA), the new NOAA Education competitive grant program funds projects 
that bring together formal and informal education institutions to 
create projects that promote environmental literacy and build public 
understanding of our global system and the interconnectivity of oceanic 
and atmospheric processes.
    It is difficult to identify all the informal education programs 
since a comprehensive database of STEM education programs within the 
federal agencies does not exist at present. Many STEM education 
initiatives are clearly identified within their respective education 
offices and budget lines, but the important STEM activities embedded 
within the other agency mission directorates or program offices are 
much harder to identify. For that reason, Committee staff has 
undertaken the task of creating a comprehensive database of STEM 
education programs and activities within the six mission agencies.

6. Questions for Witnesses

Dr. Ferrini-Mundy

        <bullet>  What is the current level of support and the scope of 
        NSF-funded research on informal STEM education? How much of 
        NSF's research support in this area is directed to academic 
        researchers and how much to providers of informal science 
        education, or consortia thereof?

        <bullet>  What metrics and methodologies exist for evaluation 
        and assessment of informal education environments? What are the 
        barriers to developing better metrics? What is or should be 
        NSF's role in developing those metrics?

        <bullet>  How can informal STEM education environments help NSF 
        achieve its mission to broaden participation in STEM? To what 
        extent are informal learning environments incorporated into 
        programs to broaden participation managed elsewhere in the 
        Education and Human Resources Directorate or throughout the 
        Foundation? How do you communicate relevant new findings 
        supported by your division to colleagues who manage those 
        programs?

Dr. Bell

        <bullet>  Please summarize the findings and recommendations of 
        the National Academy of Sciences report, ``Learning Science in 
        Informal Environments: People, Places and Pursuits.''

        <bullet>  What do we know about how students and the general 
        public learn in informal environments? What don't we know? How 
        can we effectively evaluate informal learning environments? Is 
        the current level of support for research in these areas 
        adequate?

        <bullet>  Please provide an overview of your own groups' 
        research on informal education at the NSF-funded Learning in 
        Informal and Formal Environments (LIFE) Center at the 
        University of Washington.

Ms. Ingram and Dr. Grajal

        <bullet>  What is the role of informal learning environments, 
        such as [museums/zoos], in educating students and the public 
        about Science, Technology, Engineering and Mathematics (STEM)? 
        In what ways can institutions such as [museums/zoos] contribute 
        to and enhance classroom learning? In what ways can and have 
        informal STEM education institutions, such as [museums/zoos], 
        provided professional development for teachers?

        <bullet>  What role can informal education play in broadening 
        participation and promoting diversity in STEM fields? What are 
        informal education institutions, such as the [museum/zoo], 
        doing to engage and educate diverse populations?

        <bullet>  Please describe any partnerships the [museum/zoo] may 
        have with formal education institutions, including both K-12 
        and higher education. What have been the key factors to the 
        success of such partnerships? How have informal STEM education 
        institutions such as [museums/zoos] had to adapt to meet the 
        needs of schools and States?

Mr. Lippincott

        <bullet>  What role can digital and electronic media play in 
        educating students and the public about Science, Technology, 
        Engineering and Mathematics (STEM) in the 21st century? In what 
        ways can media be used as a teaching tool in the classroom? In 
        what ways can and have educational media providers, such as 
        PBS, provided professional development for teachers?

        <bullet>  What role can informal education play in broadening 
        participation and promoting diversity in STEM fields? What are 
        media providers, such as PBS, doing to engage and educate 
        diverse populations?

        <bullet>  Please describe any partnerships PBS may have with 
        formal education institutions, including both K-12 and higher 
        education. What have been the key factors to the success of 
        such partnerships? How have media providers had to adapt to 
        meet the needs of schools and States?
    Chair Lipinski. This hearing will now come to order.
    Good morning. This is the first hearing of the Research and 
Science Education Subcommittee for the 111th Congress, and as 
such, it is my first hearing as Chair. I am very happy to have 
Dr. Ehlers here as the Ranking Member on the Committee. We have 
a great interest in STEM education. It is very fitting--I have 
a degree in engineering, Dr. Ehlers, of course, is a physicist, 
and we are Co-Chairs of the STEM education caucus, so I am very 
happy that we are holding this as our first hearing here this 
morning.
    While we often examine and discuss ways to improve STEM 
education in the classroom, we rarely look at the many 
opportunities for learning elsewhere. A great deal of learning 
happens throughout our lives in everyday activities, from 
having a conversation at the family dinner table or watching a 
show on television, to attending a summer camp at a zoo or 
taking a trip to a museum. Not just students but the general 
public are exposed to opportunities for science learning 
through informal education every day. Today we will explore the 
ways in which informal learning institutions are uniquely 
positioned to attract and educate the public about STEM issues, 
as well as the role of informal institutions in contributing to 
and enhancing formal education in the classroom.
    Today, we will hear from witnesses who are engaged in 
informal STEM education in a range of settings and capacities. 
I look forward to hearing the witnesses provide insights 
regarding the benefits and challenges of informal STEM 
education and the state of research on how students learn STEM 
in informal settings, as well as recommendations for moving 
forward.
    The Science and Technology Committee, and our subcommittee 
in particular, has made STEM education a top priority. We have 
heard time and again that we need more STEM educated graduates 
and teachers if we want to compete in the global economy of the 
21st century. A 2005 National Academies report, ``Rising Above 
the Gathering Storm,'' recommended that the Nation increase its 
talent pool by vastly improving K-12 science and mathematics 
education. For that reason, in the last Congress, the Committee 
developed and the President signed into law the America 
COMPETES Act, which included many provisions specifically aimed 
at improving STEM education in our country.
    Educating more highly qualified STEM teachers and enhancing 
the teaching skills and content knowledge of existing STEM 
teachers was the top recommendation of the Gathering Storm 
report, which became the basis for the teacher education and 
professional development provisions in the COMPETES Act. I hope 
to hear today from our witnesses about the ways in which 
informal education institutions, such as museums, zoos, and 
educational media providers, can and do offer teacher training 
and professional development tools for our nation's STEM 
teachers.
    I am also interested in the role of informal education in 
producing a more diverse pool of scientists and engineers 
through programs and policies that attract individuals from 
groups under-represented in STEM fields. I know some of our 
witnesses have been engaged in programs that address this 
issue, and I look forward to learning more about ways in which 
informal STEM environments may be uniquely positioned to make 
STEM learning accessible and exciting to a broader demographic.
    I believe that if we hope to promote a more scientifically 
literate citizenry and to attract and educate the Nation's 
future scientists and engineers, we cannot depend upon schools 
alone. Instead, we should be tapping all our resources and 
looking at the potential for learning that happens every day, 
outside the classroom door.
    I want to thank all of the witnesses for taking the time to 
appear before the Committee this morning and I look forward to 
your testimony.
    [The prepared statement of Chair Lipinski follows:]

              Prepared Statement of Chair Daniel Lipinski

    Good morning and welcome to this Research and Science Education 
Subcommittee hearing on informal Science, technology, engineering, and 
math (or STEM) education.
    While we often examine and discuss ways to improve STEM education 
in the classroom, we rarely look at the many opportunities for learning 
elsewhere. A great deal of learning happens throughout our lives in 
everyday activities--from having a conversation at the family dinner 
table or watching a show on television, to attending a summer camp at a 
zoo or taking a trip to a museum. Not just students but the general 
public are exposed to opportunities for science learning through 
informal education every day. Today we will explore the ways in which 
informal learning institutions are uniquely positioned to attract and 
educate the public about STEM issues, as well as the role of informal 
institutions in contributing to and enhancing formal classroom 
learning.
    Today, we will hear from witnesses who are engaged in informal STEM 
education in a range of settings and capacities. I look forward to 
hearing the witnesses provide insights regarding the benefits and 
challenges of informal STEM education and the state of research on how 
students learn STEM in informal settings, as well as recommendations 
for moving forward.
    The Science and Technology Committee, and our subcommittee in 
particular, has made STEM education a top priority. We have heard time 
and again that we need more STEM educated graduates and teachers if we 
want to compete in the global economy of the 21st century. A 2005 
National Academies report, Rising Above the Gathering Storm, 
recommended that the Nation increase its talent pool by vastly 
improving K-12 science and mathematics education. For that reason, in 
the last Congress the Committee developed and the President signed into 
law the America COMPETES Act, which included many provisions 
specifically aimed at improving STEM education in our country.
    Educating more highly qualified STEM teachers and enhancing the 
teaching skills and content knowledge of existing STEM teachers was the 
top recommendation of the Gathering Storm report, which became the 
basis for the teacher education and professional development provisions 
in the COMPETES Act. I hope to hear today from our witnesses about the 
ways in which informal education institutions, such as museums, zoos, 
and educational media providers, can and do offer teacher training and 
professional development tools for our nation's STEM teachers.
    I am also interested in the role of informal education in producing 
a more diverse pool of scientists and engineers through programs and 
policies that attract individuals from groups under-represented in STEM 
fields. I know some of our witnesses have been engaged in programs that 
address this issue, and I look forward to learning more about ways in 
which informal STEM environments may be uniquely positioned to make 
STEM learning accessible and exciting to a broader demographic.
    I believe that if we hope to promote a more scientifically literate 
citizenry, and to attract and educate the Nation's future scientists 
and engineers, we cannot depend upon schools alone. Instead, we should 
be tapping all our resources and looking at the potential for learning 
that happens every day outside the classroom door. I want to thank all 
of the witnesses for taking the time to appear before the Committee 
this morning and I look forward to your testimony.

    Chair Lipinski. The Chair now recognizes Mr. Ehlers for an 
opening statement.
    Mr. Ehlers. Thank you, Mr. Chair, and I am sure we will 
have a lot of good opportunities to work together, and we share 
a great number of common interests, not just including science 
but also many aspects of teaching science. So we are going to 
have a good year here.
    I am intrigued about this hearing on informal science 
education. I never knew the term, even though that is how I 
learned science for my first 12 years of school. As a child, I 
was both unfortunate and fortunate. I was unfortunate to have a 
serious enough disease I couldn't go to school but fortunate 
enough that I was well enough to study at home where actually I 
learned more than I would have at school. Don't tell that to my 
former teachers. But I would get the assignments every week, 
and I would plough through them. But no experiments in science. 
My sister, fortunately, was in a high school where they gave--
she was taking a science class, I think chemistry, where they 
gave free copies of Popular Science, and she brought those home 
and I devoured those. And I still remember one of my first 
striking home experiments which was informal science education. 
I lit a candle, took some bicarbonate of soda, mixed it in a 
glass, formed a little trough of paper, and held it near the 
candle and proceeded to pour. Nothing that you could see, and 
the carbon dioxide went down the trough and extinguished the 
candle. That was just amazing to me, that something I couldn't 
see, touch, feel, smell, could actually exist, could move, and 
could put out a fire. That is the sort of thing that you never 
forget, particularly if you develop them yourself, and I did 
the same thing with some of my high school work.
    The informal science education takes place almost 
everywhere but in the classroom, and I was fortunate that I had 
parents who could answer my questions quite often or would help 
me find the answer, to be a more proper way of saying it. But 
the question is, how do we measure the results of it? How do we 
know whether it is good informal education or not? How does it 
fit into the whole of educating the child about the wonders of 
science? And above all, how does it get them interested in 
science?
    Informal science education then can take place almost 
anywhere but in the classroom. A recent report from the 
National Academies on this topic highlights the difficulty in 
assessing the impacts of non-classroom learning on science 
knowledge, attitudes, and actions. And maybe you have to wait 
40 years to see whether the students learn enough science to 
get a Ph.D. in physics and become a Member of Congress. I don't 
know if I am one of the data points on their charts or not. 
Clearly, formalized science, technology, engineering, and math, 
which we call STEM education can only go so far. Informal 
experiences shape how people view science and can help people 
get comfortable enough with science to spend their free time in 
places like parks, museums, and after-school activities. And 
also, a real advantage of the informal education is getting 
kids really excited about it because they are part of the 
discovery process which they often are not in a traditional 
classroom. Informal science education has a unique platform to 
engage the public in science in ways that show it is not only 
fun but also fundamental to the competitiveness of our country. 
These opportunities also reach many students and families who 
may not have received a high-quality STEM education through 
traditional classroom experiences or who may have been turned 
off to science by earlier negative experiences.
    One challenge faced by the informal science education 
community, and policy-makers, is that inherently minimally-
structured environments do not lend themselves to evaluation. I 
am particularly interested in how the federal agencies can 
support the necessary research and provide resources to 
informal practitioners about how to develop and manage 
successful programs.
    I look forward to hearing from our witnesses today. I 
certainly appreciate your attendance here and look forward to 
this being another informal learning experience. Thank you very 
much.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Today's hearing is an opportunity to learn about the blossoming 
field of informal science education and research.
    Informal science education takes place almost everywhere but in the 
classroom. The recent report from the National Academies on this topic 
highlights the difficulty in assessing the impacts of non-classroom 
learning on science knowledge, attitudes and actions. Clearly, 
formalized science, technology, engineering and math (STEM) education 
can only go so far. Informal experiences shape how people view science 
and can help people get comfortable enough with science to want to 
spend their free time in places like parks, museums, and after-school 
activities. Informal science education has a unique platform to engage 
the public in science in ways that show it is not only fun, but also 
fundamental to the competitiveness of our country. These opportunities 
also reach many students and families who may not have received a high-
quality STEM education through traditional classroom experiences or who 
have been turned off to science by earlier negative experiences.
    One challenge faced by the informal science education community--
and policy-makers--is that inherently minimally-structured environments 
do not lend themselves to evaluation. I am particularly interested in 
how the federal agencies can support the necessary research and provide 
resources to informal practitioners about how to develop and manage 
successful programs.
    I look forward to hearing from our witnesses today. Thank you for 
your attendance.

    Chair Lipinski. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting this hearing to examine the 
role of informal environments in STEM education.
    As we have all mentioned time and again, the Rising Above the 
Gathering Storm report provided us with both the knowledge that our 
nation's standing as the global leader in the STEM field is at risk as 
well as solid tools for policy-makers to counteract this worrisome 
trend. We must address this issue with all available resources, both 
formal and informal.
    The National Academies Committee report showed that there is ample 
evidence to suggest that science learning takes place throughout the 
life span and across venues in non-school settings. In my home district 
of St. Louis, the Missouri Botanical Garden offers a great example of 
one such informal science learning environment. In their Power of 
Plants Contest, students pick a plant that does great things for people 
and tell its story through a two- or three-dimensional work of art.
    Programs like this provide opportunities to reach into schools or 
formal environments and allow students to connect in an informal basis. 
These informal experiences can provide opportunities to form personal 
connections which can be much stronger compared to those in a formal 
classroom setting. It is these experiences that can lead to self-
directed learning which leave a strong and lasting impression on 
students.
    I am pleased that today's hearing again focuses on the important 
task of ensuring that our STEM programs are working not only in the 
classroom, but beyond as well.
    To all the witnesses before us today--thank you for taking time out 
of your busy schedules to appear before us today. I look forward to 
hearing your testimony.

    Chair Lipinski. I would like to also welcome Mr. Griffith 
here as a freshman. It is good to have you here on this 
subcommittee.
    Mr. Griffith. Thank you, Mr. Chair.
    Chair Lipinski. I look forward to what you add to our 
subcommittee, and I just want everyone to know that these are 
very important issues that we are working on here in the 
Subcommittee, very important for the future of our country. And 
we are open to any ideas that anyone has on this subcommittee 
about what we might want to talk about, what we might want to 
work on during this Congress.
    At this time I want to introduce our witnesses. We will 
start with Dr. Joan Ferrini-Mundy, the Director of the Division 
of Research on Learning in Formal and Informal Settings in the 
Education and Human Resources Directorate, of the National 
Science Foundation. Dr. Phillip Bell is the Co-Chair of the 
National Academies report, ``Learning Science in Informal 
Environments: People, Places, and Pursuits'' and a professor at 
the College of Education at the University of Washington, 
Seattle. Ms. Andrea Ingram is the Vice President of Education 
and Guest Experiences at the Museum of Science and Industry, 
Chicago. And later on I may have the opportunity to regale 
everyone with my memories of being a kid and going to the 
museum. Mr. Robert Lippincott is the Senior Vice President for 
Education at The Public Broadcasting Service. I am not sure I 
am going to talk about watching the TV when I was a kid, but I 
certainly watched a lot of PBS. Finally, I am pleased to 
introduce Dr. Alejandro Grajal from my district, just west of 
Chicago. He is the Senior Vice President of Conservation, 
Education, and Training at the Chicago Zoological Society which 
is the organization that operates the Brookfield Zoo.
    Now, as our witnesses should know, spoken testimony is 
limited to five minutes each, after which the Members of the 
Committee will have five minutes each to ask questions. And we 
will have time, I am sure certainly during the questions, if 
there is anything that you want to add onto your five minutes. 
And you know, time permitting, we may have time for a little 
bit of wrap-up at the end. So if you could limit yourselves to 
the five minutes in any opening statements.
    So we will start with Dr. Ferrini-Mundy.

  STATEMENT OF DR. JOAN FERRINI-MUNDY, DIRECTOR, DIVISION OF 
     RESEARCH ON LEARNING IN FORMAL AND INFORMAL SETTINGS, 
DIRECTORATE FOR EDUCATION AND HUMAN RESOURCES, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Ferrini-Mundy. Chairman Lipinski, Ranking Member 
Ehlers, and distinguished members of the Subcommittee, I am 
Joan Ferrini-Mundy, Director of the Division of Research on 
Learning in Formal and Informal Settings at the National 
Science Foundation in the Directorate for Education and Human 
Resources. Thank you for the opportunity to testify about 
informal education in science, technology, engineering and 
mathematics, the STEM disciplines. Mr. Chairman, I ask that my 
written statements be made a part of the record, and I would 
like to summarize my remarks.
    Today I would like to address three main areas: the level 
and scope of NSF-funded research and development in informal 
science education; emerging research directions and challenges 
in assessment; and the significance of informal learning 
environments for broadening participation in STEM disciplines.
    Our signature catalyst program for investment in this area 
is the Informal Science Education (ISE) program, whose primary 
goals are to promote lifelong learning of science, technology, 
engineering, and mathematics by the public and to advance the 
knowledge base and human capacity for improving informal STEM 
education.
    There currently are about 200 funded projects in the ISE 
portfolio. Roughly 35 percent of the awards are to institutions 
of higher education, and the remaining 65 percent are disbursed 
among museums, science centers, youth and community programs, 
and radio, television, multi-media and web producers. The 
average ISE budget over the past five years has been about 
$62.9 million. As hosts of new scientific findings and STEM 
issues of importance to the public emerge daily, it is 
essential to have a robust body of research and evaluation that 
maximizes the potential impact of our investments in informal 
science education.
    We need to know much more about how to motivate and 
interest learners in STEM topics, about what science topics 
lend themselves best to learning in informal settings, about 
how learning in informal settings can broaden participation in 
STEM careers, and about how to engage citizens with the science 
that affects public policy as well as their daily lives.
    The recent study, Learning Science in Informal 
Environments, the report of the National Research Council of 
the National Academies, was funded by the ISE program. It 
provides a synthesis of the research literature on learning in 
informal environments, and the report confirms that everyday 
experiences can support science learning for virtually all 
people.
    Informal learning environments are voluntary learning 
settings. The learner can walk away from the exhibit, change 
the television channel, or click to a new website. Thus, in 
addition to measuring what is being learned about science in 
such settings and what science is being learned, it is 
important to determine what will engage the learners and hold 
their attention, and that is a crucial topic for researchers.
    There are major challenges in this research domain. What 
outcomes should be expected in informal learning environments 
and what assessments are best for measuring them? Museum-goers 
don't expect to take a formal test after a casual visit. The 
experiences are often brief and fragmented, so it may not be 
reasonable to expect depth of content learning from a single 
exposure.
    Researchers are studying such outcomes as attitude, 
awareness, interest, and behavior. Their methods include self-
report, recording visitors' conversations, interviews, and the 
timing and tracking studies of behaviors. There is a continued 
need for valid and reliable instruments and measures to assess 
the appropriate outcomes of learning in informal settings. NSF-
funded researchers are addressing these challenges through the 
ISE program and others.
    I find that there is enthusiasm across NSF about sharing 
exciting science with diverse audiences through informal 
learning opportunities. We recognize the great potential of 
these venues for engaging youth who may not thrive in the 
formal education system. Some ISE projects focus specifically 
on learners from groups traditionally under-represented in 
STEM, and most projects include outreach to these groups. The 
focus on broadening participation extends well beyond EHR. In 
the Directorate for Geosciences, for example, there is a 
project that prepares teachers in urban settings to integrate 
the resources of their city into their STEM teaching. In the 
Directorate for Computer and Information Science and 
Engineering, a project with the Boys and Girls Clubs of America 
uses culturally responsive approaches to attract and retain 
high school students in computer science.
    The NSF has been able to build a diverse and dynamic 
portfolio of research, development, and model building to 
promote the learning of all people at all ages through informal 
science education environments. The portfolio is increasingly 
robust in the area of research about learning in informal 
settings. Through programs in the Division of Research on 
Learning, we plan to continue encouraging and supporting 
scientific discovery in informal science education.
    I would like to thank the Subcommittee for this opportunity 
to share with you information about investments made by the NSF 
in this area. Mr. Chair, this concludes my remarks. I would be 
happy to answer any questions.
    The prepared statement of Dr. Ferrini-Mundy follows:]

                Prepared Statement of Joan Ferrini-Mundy

    Chairman Lipinski, Ranking Member Ehlers, and distinguished Members 
of the Subcommittee, I am Joan Ferrini-Mundy, Director for the Division 
of Research on Learning in Formal and Informal Settings within the 
Directorate for Education and Human Resources at the National Science 
Foundation (NSF). Thank you for the opportunity to testify about 
informal education in science, technology, engineering and 
mathematics--what we at the NSF call the STEM disciplines. In an era 
where we are all lifelong learners, the boundaries between formal 
settings for learning--such as schools and universities--and informal 
learning settings--such as museums, cyberspace, and the media--are 
increasingly blurred and porous. Against this backdrop, the NSF 
continues to provide leadership and scholarship for the ongoing 
transformation of STEM learning opportunities, for learners of all 
ages, backgrounds, cultures, and ethnicities, and in all settings.
    Today I would like to address three main areas: the level and scope 
of NSF-funded research and development in informal science education; 
emerging research directions and challenges, including a focus on 
assessment; and the significance of informal learning environments in 
broadening participation in STEM.
    Research on STEM learning in informal settings is not a new 
enterprise at NSF. The NSF's recognition of the importance of research 
about the STEM lifelong learning opportunities through out-of-school 
settings dates back five decades, to the formation of the Public 
Understanding of Science program in 1959 and the funding of studies of 
public knowledge of science. This emphasis has continued, most recently 
in the production of Learning Science in Informal Environments (2009), 
a report of the National Research Council of the National Academies.\1\ 
This effort, funded by the NSF's Informal Science Education program, 
provides a synthesis of the research literature on learning in informal 
environments. It is generally acknowledged that the percentage of time 
that a person spends in formal education over a lifespan is relatively 
small compared to the time available for learning outside of school. 
And, the Learning Science in Informal Environments report confirms on 
the basis of research that: ``Everyday experiences can support science 
learning for virtually all people.'' (p. ES-2).
---------------------------------------------------------------------------
    \1\ National Research Council (2009). Learning Science in Informal 
Environments: People, Places, and Pursuits. Committee on Learning 
Science in Informal Environments. Philip Bell, Bruce Lewenstein, Andrew 
W. Shouse, and Michael A. Feder, editors. Board on Science Education, 
Center for Education, Division of Behavioral and Social Sciences and 
Education. Washington, DC: The National Academies Press.

NSF-Funded Research and Development in Informal Science Education

    Our signature catalyst for investment in this area is the Informal 
Science Education (ISE) program, which received its first appropriation 
in FY 1984. This was in response to recommendations that the Federal 
Government provide support for a wide range of informal learning 
experiences made in the 1983 report of the National Science Board 
Commission on Precollege Education in Mathematics, Science, and 
Technology.\2\ The report noted: ``A great deal of education takes 
place outside the classroom. The most fortunate students receive 
experiences in museums, clubs, and independent activities . . .. The 
child who has regularly visited zoos, planetaria, and science museums, 
hiked along nature trails and built model airplanes and telescopes is 
infinitely better prepared for, and more receptive to, the mathematics 
and science of the classroom.''
---------------------------------------------------------------------------
    \2\ National Science Board Commission on Precollege Education in 
Mathematics, Science and Technology, Educating Americans for the 21st 
Century (Washington, DC: National Science Foundation, 1983, CPCE-NSF-
04).
---------------------------------------------------------------------------
    The ISE program's primary goal is to promote lifelong learning of 
science, technology, engineering, and mathematics by the public and to 
advance the knowledge base, practice, human capacity and communities of 
professionals engaged in informal STEM education. Indeed, the 
infrastructure for free-choice learning provided by NSF's ISE program 
has been noted as being important in the development of the ``informal 
science education'' field.\3\ Over the years, it has established 
television, radio, and giant-screen film as media for STEM education; 
funded major traveling and permanent exhibitions; catalyzed citizen 
science projects enabling the public to participate in actual research; 
and expanded community and youth programming, including after-school 
science. At the same time, it has supported ongoing professionalization 
and increased capacity of the field, as well as knowledge building 
through required evaluation, and research about learning in informal 
settings. Awardees over the past decade have included museums (28.2 
percent), academic institutions (24.1 percent), media producers and 
television stations (20.8 percent), and many other types of developers 
and providers of informal science education. The involvement of 
academic institutions is increasing; in the current portfolio, roughly 
35 percent of the awards are to institutions of higher education.
---------------------------------------------------------------------------
    \3\ Lewenstein, B. (2001). Who produces science information for the 
public? In John H. Falk (Ed.), Free-choice Science Education. New York: 
Teachers College Press.
---------------------------------------------------------------------------
    Today, this field is a diverse, creative, and interdisciplinary 
community of institutions, such as science centers, zoos, aquariums, 
and museums of many types, and professionals, including exhibit 
designers, film and television producers, media experts, after-school 
program developers, information technologists, scientists, and learning 
researchers. They share a passion and expertise for providing STEM 
learning opportunities to all people of all ages. To harness the talent 
and energy of these groups, the ISE program has dual commitments: 
building new knowledge about STEM learning in informal environments 
through research and development of models, and reaching large numbers 
of children, youth, and adults with STEM learning and engagement 
opportunities. Keeping these dual commitments in appropriate balance 
and synergy is an important challenge in the management of the program.
    The budget in the ISE program for the past five years has been as 
follows (in millions):

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There currently are about 200 funded projects in the ISE portfolio, 
ranging from design and implementation of innovative museum exhibits, 
to the production of large-format films and television and radio 
series, to research studies to examine how informal learning 
opportunities promote science learning, to ``citizen-science'' efforts, 
to public engagement in science in the spirit of science cafes, to the 
development of virtual learning communities and serious games. In the 
past two years, ISE-funded projects have won major awards, including 
Emmys, the Peabody Award, the Webby, and the American Association of 
Museums Award of Excellence in Exhibition, as well as recognitions such 
as premiering at the Sundance Film Festival. This is a highly 
competitive program with a funding success rate of about 15 percent.
    Based on the questions I received from the Subcommittee and the 
focus of the recent Learning Science in Informal Environments, my 
emphasis in this testimony is on research related to informal learning. 
The Informal Science Education (ISE) program, NSF's primary source of 
investment in this area, funds both research and development.
    The ISE program is part of a broader effort at NSF to understand 
STEM learning and how to best engage people of all ages in it. The 
Division of Research on Learning in Formal and Informal Settings has a 
growing portfolio of funded research that is building knowledge about 
the processes of STEM learning and that examines the impacts of 
learning interventions such as school curricula or museum exhibits, and 
the reasons for those impacts. DRL-funded research is ongoing at 
various points in a cycle of research and development.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Projects range from those that generate hypotheses and describe 
STEM learning phenomena and constructs, to those that design highly 
innovative and potentially powerful learning interventions built on 
basic learning research, to those that test, implement, and refine 
these interventions and learning materials in specialized settings, to 
those that operate larger scale implementation and effectiveness 
studies for the most promising interventions, to--finally--synthesis 
and theory-building that informs continued work in the cycle. DRL and 
its predecessor divisions and units have provided funding for research 
on STEM learning and education since the 1950s.
    Across the Directorate for Education and Human Resources and NSF 
more broadly, there are several programs that also invest in efforts to 
engage learners in STEM outside of school settings, as part of the NSF 
commitment to the integration of research and education. For instance, 
in the Integrative Graduate Education and Research Traineeship Program 
(IGERT), scientists are engaged in communicating their work to public 
audiences.

Emerging Research Directions and Challenges

    As hosts of new scientific findings and STEM issues of national 
interest to the public emerge daily, and in today's rapidly changing 
context for communication and information-sharing, it is essential to 
have a robust body of research and evaluation that maximizes the 
potential impact of investments in informal science education. We need 
to know much more about how to motivate and interest learners in STEM 
topics. We need to understand what areas of science lend themselves 
best to learning in informal settings. We need to study how learning in 
informal settings can be most powerful as an impetus for broadening 
participation in STEM careers. And, we need to conduct research about 
the public's attitudes, interests, and knowledge as a basis for their 
informed engagement with the science that affects public policy as well 
as their daily lives.\4\ The National Science Board's Science and 
Engineering Indicators volumes report on the levels of public attitudes 
and understanding of science and technology, recognizing that this is 
one barometer of the Nation's readiness to engage in solutions to the 
scientific problems of the day and for its citizenry to have the 
scientific literacy necessary to sustain their own personal science-
related decision-making. Research in all of these areas, and others, is 
essential to ongoing strategic investments in the models and resources 
that are produced for learning in informal settings.
---------------------------------------------------------------------------
    \4\ See Office of Science and Technology and the Wellcome Trust 
(2000). Science and the Public: A Review of Science Communication and 
Public Attitudes to Science in Britain. (p. 4)
---------------------------------------------------------------------------
    The Learning Science in Informal Environments report makes 
recommendations about needed research on: tools and practices that 
contribute to learning, learning strands, cumulative effects, and 
learning by groups, organizations, and communities. Through such 
syntheses, together with published research studies, web databases of 
evaluation reports, professional meetings and NSF-sponsored principal 
investigator meetings, the growing body of research about informal 
learning is communicated to practitioners to help inform their work. 
This research is also shared internally through seminars and workshops 
to help NSF staff remain abreast of developments in the field.
    As the informal science education field matures, part of the needed 
capacity-building is to expand expertise and interest in research and 
evaluation, and to build the research base. NSF's investments in this 
area of capacity-building and knowledge-building are increasing. One 
strategy in this area was the establishment of the Center for 
Advancement of Informal Science Education (CAISE), a resource center 
funded by the ISE program. In a review of the 548 ISE projects funded 
over the period 1998 through 2008, CAISE found that 60 projects had 
research about informal learning as a primary objective, and 37 as a 
secondary objective. These 97 research-oriented projects represent an 
investment over ten years of about $128 M. This indicates that 
approximately 15 percent of the overall ISE investment over this 
period, which includes development and implementation of a wide range 
of informal learning resources, is directed toward improving 
understanding of the use and impacts of such resources through 
research.
    In addition to the ISE program, NSF's Research and Evaluation on 
Education in Science and Engineering (REESE) and Innovative Technology 
Experiences for Students and Teachers (ITEST) programs support research 
on learning in informal environments. For example, in its most recent 
solicitation the ITEST program calls for research to address such 
questions as: ``What does it take to effectively interest and prepare 
students to participate in the science, technology, engineering, and 
mathematics (STEM) workforce of the future? What are the knowledge, 
skills, and dispositions that students need in order to participate 
productively in the changing STEM workforce and be innovators, 
particularly in STEM-related networked computing and information and 
communication technology (ICT) areas? How do they acquire them? How can 
the Nation's burgeoning cyberinfrastructure be harnessed as a tool for 
STEM learning in classrooms and informal learning environments? How can 
we assess and predict inclination to participate in the STEM fields and 
how can we measure and study the impact of various models to encourage 
that participation?'' \5\
---------------------------------------------------------------------------
    \5\ See http://www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=5467
---------------------------------------------------------------------------
    The Center for Informal Learning and Schools, funded by NSF's 
Centers for Learning and Teaching Program in 2002, has as its primary 
objective to create a program of research, scholarship, and leadership 
in the arena of informal learning and the relationship of informal 
science institutions and schools. This partnership among the 
Exploratorium, King's College London, and the University of California-
Santa Cruz, is undertaking research about such topics as explanation 
and communication, structures that support informal learning, and the 
design of learning environments. Within the REESE portfolio, there are 
11 projects currently underway, representing a total investment of 
about $7M, that are specifically examining issues relevant to informal 
learning. These range from a project that is studying how fundamental 
biological concepts are understood in different learning contexts and 
by different cultural groups (Bardeen, Fermilab), to a study of 
indigenous-heritage communities' ways of learning about scientific 
ideas (Rogoff, University of California-Santa Cruz), to a study of how 
to improve connections between formal and informal learning settings 
(Schwartz at Stanford University, and Biswas at Vanderbilt University.)
    Informal learning environments are voluntary learning settings; the 
learner can walk away from the exhibit, change the television channel, 
or click to a new website. Thus in addition to measuring what is 
actually being learned in such settings, the matter of determining what 
will engage learners and hold their attention is a crucial topic for 
researchers in this domain. This includes aspects such as understanding 
which scientific topics will engage learners, what kinds of features of 
an exhibit or program will hold attention, and what sorts of activities 
will encourage continued participation. The ISE program has funded 
efforts in all of these areas, although this clearly needs to be seen 
as an emerging, interdisciplinary area of research. Cognitive 
scientists traditionally have been more interested in learning as it 
occurs in school settings, although we are noticing increased proposal 
pressure in ISE-relevant research over recent years.
    The professional wisdom and craft knowledge resident in the 
informal science education community, when tested and strengthened 
through research and evaluation, stands to inform some of today's most 
pressing educational challenges. In particular, because of the porous 
boundaries between the formal and informal learning communities, a 
focus on the connections between informal and formal learning 
environments is important. For example, the need to provide the 
Nation's K-12 STEM teachers with mechanisms for keeping their science 
knowledge current in a cyber era can be informed by what is already 
known from the informal science learning community's accumulated wisdom 
about voluntary learning. By their very nature, informal learning 
organizations are positioned to be innovators in the type of hands-on, 
direct contact with the world of science that is seen by many as 
crucial in student learning, and research to illuminate such learning 
environments stands to inform K-12 formal education.
    There are major challenges in this research domain, as well as some 
promising tools and resources. Challenges are most prevalent in 
determining what outcomes should be expected in informal learning 
environments, and what metrics are best for measuring them. There are 
theoretical issues of ``ecological validity''--museum-goers don't 
expect to take a formal test after a casual visit. Frank Oppenheimer 
once said ``no-one ever flunks a museum.'' And, because of the self-
directed nature of this learning, diverse learners (ranging from young 
children to older adults) will be interested in, and will learn, 
different things. The experiences are often brief and fragmented, and 
so it may not be reasonable to expect depth of content learning from a 
single exposure, although they may be particularly memorable and 
stimulate further engagement. In dynamic, open, voluntary learning 
environments it is hard to establish control groups and to deal 
adequately with human subjects issues. Promising approaches to 
addressing these challenges include interdisciplinary efforts that 
bring together informal science educators, educational researchers, 
psychologists, sociologists, and assessment experts; capacity building 
among evaluators to understand both the constraints and affordances of 
evaluation in informal learning settings; strategic use of common 
instruments when efforts have overlapping goals; and design of 
innovative instruments and approaches. This might involve, for 
instance, using physiological measures to track learning-related 
emotions, or building stronger theories about culturally responsive 
evaluation, or constructing new and appropriate outcome goals for 
learning. One resource that has been well received is the ISE-funded 
Framework for Evaluating Impacts of Informal Science Education Projects 
(NSF, 2008). This is a guide for ISE projects which includes such 
material as ``Tools, Tips, and Common Issues in Evaluation Experimental 
Design Choices.'' The NSF, through the Division of Research on Learning 
in Formal and Informal Settings, is committed to playing a leading role 
in advancing research and development in the area of informal science 
education.

Informal Learning Environments in Broadening Participation in STEM

    Building a STEM workforce that draws on the best talents of all in 
the society, reaching out to groups that have been under-represented in 
STEM, and promoting a STEM-literate public all are central to NSF's 
mission. NSF's Strategic Plan, 2006-2011, includes as a strategic goal 
``Cultivate a world-class, broadly inclusive science and engineering 
workforce, and expand the scientific literacy of all citizens.'' In 
particular, the plan notes: ``NSF will improve STEM literacy by 
developing new strategies that explicitly encompass both formal and 
informal education, with a focus on strategies that have an impact on 
the Nation's critical need for a citizenry literate in science and 
technology, a skilled workforce, and a vibrant research community.'' 
(p. 8).
    A number of ISE projects are specifically concerned with engaging 
learners from groups traditionally under-represented in STEM. For 
example, the ``Urban Bird Gardens: Assessing the Interest of Latino 
Communities in Citizen Science'' project (Dickinson, Cornell 
University), and the ``Native Science Field Centers'' (Satchatello-
Sawyer, Hopa Mountain) are funded with ISE support. And although the 
ISE program is the Foundation's flagship program in this area, there 
are a number of efforts across NSF that recognize the particular 
potential of informal learning opportunities as a resource for 
broadening participating in STEM fields and make investments to advance 
this potential.
    I have already mentioned the Innovative Technology Education 
Experiences for Students and Teachers (ITEST) program, which provides 
funding for research and development projects for K-12 students in out-
of-school settings to encourage STEM workforce participation, 
especially by students from groups traditionally under-represented in 
STEM. Also managed in the Division of Research on Learning in Formal 
and Informal Settings is the Communicating Research to Public Audiences 
(CRPA) program With CRPA, researchers funded through NSF's Research and 
Related Activities directorates can receive new awards to help them 
communicate their scientific results to the public. Other divisions in 
the Education and Human Resources directorate also fund projects to 
broaden participation in science using informal science learning 
materials as a basis--notably a number of efforts in the Division of 
Human Resource Development that work to engage women, people with 
disabilities, and under-represented minorities in STEM learning. The 
``Adolescents' Identification with Televised Portrayals of Male and 
Female Scientists'' study (Steinke, Western Michigan University), 
through the Gender Studies in Education Program, is one such example.
    I find that there is enthusiasm across NSF about informal learning 
opportunities as means of sharing the exciting and motivating aspects 
of science with diverse audiences, and recognition of the great 
potential of these informal learning venues for engaging youth who may 
not thrive in the formal education system. For example, several studies 
of museum-based and after-school programs have shown evidence of 
supporting statistically significant academic gains for youth, 
particularly when they draw on local issues and the children's prior 
interests.\6\
---------------------------------------------------------------------------
    \6\ See Chapter 7, Diversity and Equity, in Learning Science in 
Informal Environments, NRC, 2009.
---------------------------------------------------------------------------
    Across the Foundation there are efforts to broaden participation 
through informal science education. The NISE Net initiative, a 
collaborative effort across seven NSF directorates, is building public 
awareness and engagement about nanoscale science and engineering at 
more than 100 sites nationally. Led by researchers at three science 
museums, the project's goals include helping museum visitors understand 
the properties of new materials, along with the possibilities they 
present in areas such as medicine, security, and energy, as well as 
their potential societal implications. In another example, the 
International Polar Year provided opportunities for cross-NSF 
collaborations, particularly between the Office of Polar Programs and 
the ISE program, for major investments in innovative and exciting 
informal STEM learning. Among them was PolarPalooza, bringing polar 
scientists and their gear to sites around the country, as well as 
films, websites and science blogs bringing polar science to Americans 
of all ages and from all communities. In the Directorate for 
Geosciences, the ``Science and the City: Fusion of Formal and Informal 
Learning Experiences into an Innovative Geoscience MA-Teacher Program'' 
prepares program teacher graduates to integrate the resources of their 
city into their teaching. And, the project ``Incorporating Cultural 
Tools for Math and Computing Concepts into the Boys and Girls Clubs of 
America,'' funded through the Broadening Participation in Computing 
Program in the Directorate for Computer Information Science and 
Engineering, uses culturally responsive approaches to attract and 
retain high school students to computer science.
    In summary, the NSF has been able to build a diverse and dynamic 
portfolio of research, development and model-building to promote the 
learning of all people, at all ages, through a range of informal 
science environments, and including the cyber world. This portfolio is 
increasingly robust in the area of research about learning in informal 
settings and the knowledge base that is so essential in this area is 
growing in significant and useful ways. In closing, I want to thank the 
Subcommittee for this opportunity to share with you this information 
about the investments made by NSF in research and development to 
advance and foster increased public scientific literacy and development 
of the STEM workforce through informal science education.
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions.

                    Biography for Joan Ferrini-Mundy

    Dr. Joan Ferrini-Mundy is the Director of the National Science 
Foundation's (NSF) Division of Research on Learning in Formal and 
Informal Settings (DRL), in the Directorate for Education and Human 
Resources (EHR). DRL programs invest in research and development 
efforts to support the learning of science, technology, engineering and 
mathematics at all levels and in all settings. She has recently been 
appointed Executive Officer (Acting) of the Directorate for Education 
and Human Resources. She serves as an NSF representative on the 
Education Subcommittee of the National Science and Technology Council, 
and represents EHR on NSF's Facilitating Transformative and 
Interdisciplinary Research Working Group. While at NSF Dr. Ferrini-
Mundy holds a faculty position at Michigan State University where she 
is a University Distinguished Professor in Mathematics Education and 
Assistant Vice President for STEM Education and Policy. Her research 
interests include calculus teaching and learning, the development and 
assessment of teachers' mathematical knowledge for teaching, and the 
improvement of student learning in K-12 mathematics and science. Dr. 
Ferrini-Mundy has served on the National Council of Teachers of 
Mathematics' Board of Directors, The Board of Governors of the 
Mathematical Association of America, and as Director of the National 
Research Council's Mathematical Sciences Education Board. She also 
participated as an Ex Officio Member of the National Mathematics 
Advisory Panel in 2007-2008, and serving as Co-Chair of the 
Instructional Practices Task Group.

    Chair Lipinski. Thank you very much for your testimony. Dr. 
Bell.

    STATEMENT OF DR. PHILIP BELL, THE GEDA AND PHIL CONDIT 
PROFESSOR OF SCIENCE AND MATH EDUCATION, ASSOCIATE PROFESSOR OF 
  THE LEARNING SCIENCES; DIRECTOR, INSTITUTE FOR SCIENCE AND 
 MATHEMATICS EDUCATION, UNIVERSITY OF WASHINGTON, SEATTLE; CO-
CHAIR, COMMITTEE ON LEARNING SCIENCE IN INFORMAL ENVIRONMENTS, 
 BOARD ON SCIENCE EDUCATION, NATIONAL ACADEMY OF SCIENCES, THE 
                       NATIONAL ACADEMIES

    Dr. Bell. Good morning, Mr. Chairman, and Members of the 
Subcommittee. Thank you for the opportunity to appear before 
you today. I am Philip Bell from the University of Washington. 
I served as Co-Chair of the Committee on Learning Science in 
Informal Environments of the National Research Council, and I 
ask that my written remarks be made part of the record of the 
hearing.
    I was asked to describe the work in my research group and 
summarize the conclusions and recommendations of the recent NRC 
consensus study. I participate in a large-scale 
interdisciplinary research effort called the Learning in 
Informal and Formal Environments Center, or LIFE Center, a 
collaboration of the University of Washington, Stanford 
University, SRI International. It is funded through NSF's 
Science of Learning Center program within the SBE Directorate.
    In LIFE we study the social foundation of how people learn 
across a broad range of learning environments from the 
classrooms, science centers, aquaria, and zoos to after-school 
programs, Internet sites, video game environments and in the 
midst of family life. My research group investigates how youth 
and families from multi-cultural urban communities develop 
science and technology-related expertise across different 
settings. In our research, we found a surprising and troubling 
pattern where children pursue and engage in sophisticated STEM 
learning outside of school, but those interests and early 
competencies are not recognized or built upon in the classroom.
    Just one example, we followed an elementary school-aged boy 
for several years documenting his learning across settings who 
developed significant expertise related to mechanical 
engineering, from building robotic kits at home to engaging in 
complex puzzle activity on the science center floor, but in the 
classroom, he is not perceived as being interested in academic 
subjects at all. Such disconnects in learning between home and 
school are putting these particular children at higher risk of 
academic failure in STEM.
    Our research further indicates that STEM academic 
achievement, although crucial, is only part of what is needed 
to cultivate expertise in STEM, and people's activities in 
informal environments are an equally crucial platform for 
learning, as we are hearing from Congressman Ehlers.
    Efforts to enhance the scientific capacity of society 
typically focuses on formal schooling. LIFE Center researchers 
developed the diagram shown over on the easel there to my left, 
to your right, to characterize roughly the amount of time 
individuals spend in formal and informal environments, with 
lifelong learning along the horizontal and life-wide learning 
as people go across settings along the vertical.
    What is often overlooked or underestimated is the potential 
of STEM learning in non-school settings. Each year tens of 
millions of Americans young and old explore and learn about 
science by visiting informal learning institutions, 
participating in programs, and countless more use media to 
pursue their science-related interests. From a lifelong, life-
wide perspective, it is imperative that we leverage informal 
learning environments to support workforce development, civic 
participation, and STEM-related policy issues, and to promote 
scientific literacy among the citizenry.
    The Informal Science Education program, as we already 
heard, funded a consensus study with the Board on Science 
Education at the NRC with the goal of synthesizing the existing 
research about how people learn in informal environments. The 
interdisciplinary committee that was convened organized its 
analysis by looking at the various places where science 
learning occurs. These included everyday experiences like 
hiking at a national park with your family, pursuing a hobby or 
learning on the farm, as well as designed settings, such as 
visiting a science center, zoo, aquarium, or botanical garden 
or participating in educational programming, such as summer 
science programs for youth, environmental monitoring 
experiences for citizens, or Elderhostel programs that are 
related to science. The committee found abundant evidence that 
informal learning environments routinely support significant 
science learning for individuals from all ages, from a broad 
variety of backgrounds and ways that uniquely serve their 
personal and professional interest and that relate to the 
broader STEM interest of society.
    However, the field is lacking a clear statement of goals 
that are appropriate for these settings, learning goals, which 
can be measured. The committee developed and used the strands 
of science learning framework that articulates science specific 
capabilities supported by informal learning environments. The 
six interrelated strands reflect the field's commitment to 
getting learners to participate and connect to science in 
stimulating, interactive, contemporary, and personally relevant 
ways.
    In closing, I want to mention some high priority policy 
issues that are described in the report. First, in terms of 
broadening participation in STEM, studies do suggest that 
informal learning environments may be particularly effective 
for youth from historically non-dominant communities. However, 
there is variability in the success of these environments in 
attracting and engaging diverse audiences. We believe that a 
better understanding of the naturally occurring science 
learning in a diverse range of communities is needed to inform 
basic theory about how people learn as well as to design 
informal learning experiences that actually are tailored to 
these communities.
    Secondly, we believe that there should be sustained support 
for high-quality informal programs and experiences that focus 
on STEM. Informal learning environments represent a crucial 
part of society's infrastructure for STEM education.
    Thirdly, although it is important to understand the impact 
of informal environments, a more important question may be how 
science learning occurs across a range of formal and informal 
environments. The science learning literatures and fields are 
segmented in ways that are at odds with how people routinely 
traverse settings and can engage in learning across those 
settings day to day.
    Thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Dr. Bell follows:]

                   Prepared Statement of Philip Bell

    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to appear before you today to discuss informal STEM 
education in science. I am Philip Bell, Associate Professor of Learning 
Sciences in the College of Education at the University of Washington. I 
served as a Co-Chair of the Committee on Learning Science in Informal 
Environments of the National Research Council (NRC), the operating arm 
of the National Academy of Sciences, National Academy of Engineering, 
and the Institute of Medicine of the National Academies.
    In the following statement I will briefly describe what research 
tells us about how and why people learn science in informal 
environments, what role informal environments can play in broadening 
participation in STEM fields, and what priorities exist for research 
and evaluation related to informal science education. Let me start by 
stating that a synthesis of the research clearly indicates that 
informal learning environments represent a crucial part of our 
society's educational infrastructure for STEM education. Informal 
learning environments routinely support significant science learning 
for individuals of all ages from a broad variety of backgrounds in ways 
that uniquely serve their personal and professional interests--and the 
broader STEM-related interests of society as well. At the same time, 
additional research is needed to better understand the cumulative 
effects of how people learn across formal and informal learning 
environments, to better understand the influence of contemporary media 
on science learning, and to document how people from groups that are 
under-represented in STEM fields learn science, which we take to be 
both a basic and applied area of research. These inquiries can provide 
critical information for developing better programs and experiences for 
learners.
    I was asked to describe the work of my research group at the 
University of Washington and to summarize the conclusions and 
recommendations of the recent NRC consensus study on Learning Science 
in Informal Environments. Let me start with the research of my group as 
I think it sets the stage for summarizing the report. Over the past 
five years the National Science Foundation has been supporting six 
large-scale, long-term research centers around the country through the 
Science of Learning Center program focused on advancing the frontiers 
of the sciences of learning through integrated, interdisciplinary 
research. I participate on the faculty leadership team of one such 
center called the Learning in Informal and Formal Environments Center--
or the LIFE Center--which is a collaboration primarily among 
researchers at the University of Washington, Stanford University, and 
SRI International. The scientific mission of the LIFE Center (http://
life-slc.org/) is to document the social foundations of how people 
learn across formal and informal learning environments using cognitive, 
social and cultural, neurobiological, and developmental perspectives on 
learning.
    LIFE has a portfolio of research studies that investigate STEM 
learning--including how families engage in math learning in everyday 
activities like personal finance and health decisions, how youth 
develop expertise about technology, and how young girls and boys 
develop stereotypes about academic subjects like math and reading. We 
do that work across a broad range of venues for learning--from 
classrooms, science centers, aquaria, and zoos to after-school 
programs, Internet sites, virtual spaces, hobby groups, and in the 
midst of family life. My research group investigates how youth and 
their families develop science and technology related expertise across 
a broad range of formal and informal environments, groups, and 
activities in their lives. We construct finely detailed cultural and 
ecological accounts of where, how, why, what, and with whom children 
learn over years with special attention to knowledge and expertise that 
has real consequences for the youth and families in our studies. We 
also conduct extended multi-week curriculum design studies in 
elementary science classrooms in collaboration with teachers to test 
theoretical questions about how we can bridge what the children learn 
and do at home with what they are learning at school. The fieldwork 
generates principles of learning that inform educational design 
principles that are tested in the context of classroom instruction.
    Our research takes place within multicultural, urban communities, 
and we are strongly focused on understanding how to broaden 
participation in STEM learning and activities. As we document how 
children learn across different settings, we have found a surprising 
and troubling pattern where children pursue and engage in sophisticated 
STEM learning outside of school but where those interests and early 
competencies are not recognized or built upon in the classroom. Just as 
one example: we followed an elementary school-aged boy with significant 
expertise with mechanical systems--from building robotic kits at home 
and designing solutions to complex puzzles at a science center--who, at 
school, was perceived as not being interested in academic subjects. 
Such disconnects in learning between home and school are putting these 
particular children at a higher risk of academic failure in STEM. At 
the same time, many of the cases document how interest, personal 
identification with STEM endeavors, and practice with the tools of STEM 
disciplines are sustained in important activities happening outside of 
school--while in summer programs at science centers and in 
collaborative activities with peers and parents. That is, STEM academic 
achievement in school, although crucial, is only part of what is needed 
to cultivate personal expertise in STEM--and the activities with which 
people engage in informal learning environments are an equally crucial 
platform for STEM learning. This point highlights the truly 
complementary role of schooling and informal learning environments in 
STEM learning.
    Researchers in the LIFE center developed the following diagram to 
roughly characterize the amount of time individuals spend in formal and 
informal learning environments. The diagram highlights changes in this 
split between formal and informal learning environments over the life 
course of the individual--what we call life-long learning---and it 
gives a sense of the breadth of different social settings in which 
people spend time in daily life--what we refer to as life-wide 
learning. As it indicates, the majority of our time is spent within the 
range of informal learning environments in which we participate--in the 
``sea of blue'' as we call it.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The knowledge and practices of science shape people's lives in 
fundamental ways. It is increasingly understood that the science and 
technology enterprise plays a crucial role in our economy as well as in 
our communities and in our personal lives. This makes it imperative 
that we leverage informal learning to support workforce development, 
civic participation in STEM issues and policy, and to promote 
scientific literacy among all citizens.
    Efforts to enhance the scientific capacity of society typically 
target schools and focus on such strategies as improving science 
curriculum and teacher quality and strengthening the STEM pipeline. 
What is often overlooked or underestimated is the potential for science 
learning in non-school settings, where people actually spend the 
majority of their time.
    Beyond the schoolhouse door, opportunities for science learning 
abound. Each year, tens of millions of Americans, young and old, 
explore and learn about science by visiting informal learning 
institutions, participating in programs, and using media to pursue 
their interests. Thousands of organizations dedicate themselves to 
developing, documenting, and improving science learning in informal 
environments for learners of all ages and backgrounds. Countless others 
choose to learn about science topics in ways that serve their interests 
or needs and engage in science-related hobbies with others who share 
their interests. So, if we ask the crucial question: Where do people 
learn science? The answer is everywhere--in ways that we only partially 
understand.
    The National Science Foundation funded a consensus study through 
their Informal Science Education program with the Board on Science 
Education at the National Research Council with the goal of 
synthesizing the existing research about how people learn science in 
informal environments. The Board on Science Education at the NRC is an 
advisor to the Nation on all issues of science education and oversaw 
the project. In response, the Committee on Science Learning in Informal 
Environments was established to examine the potential of non-school 
settings for science learning. The committee, comprised of 14 experts 
in science, education, psychology, media, and informal education, 
conducted a broad review of the literatures that inform learning 
science in informal environments. The charge we were given specifically 
included assessing the evidence of science learning across settings, 
for different age groups, and over different time frames. We were asked 
to identify the qualities of learning experiences that are unique to 
informal environments and to explore the relationship between the 
science learning that happens in informal environments and the learning 
that goes on within school. And we were also asked to develop an agenda 
for research and development related to how and why people learn 
science in informal environments.
    The committee organized its analysis by looking at the places where 
science learning occurs as well as cross-cutting features of informal 
learning environments. The ``places'' that we considered included: 
everyday experiences--like hiking, pursuing a hobby, or farming; 
designed settings--such as visiting a science center, zoo, aquarium, 
botanical garden, planetarium; and educational programs--such as after-
school or summer science programs for youth, environmental monitoring 
experiences for citizens, or Elderhostel and senior center programs for 
elders. We also examined cross-cutting features that shape informal 
environments including: the role of media as a context and tool for 
learning and the opportunities these environments provide for 
broadening participation in STEM for individuals from diverse 
communities that are historically under-represented in STEM fields.
    A critical missing piece in this area of research and development 
is a clear statement of goals that are appropriate for these settings 
and which can be measured. The committee developed and used a ``strands 
of science learning'' framework that articulates science-specific 
capabilities supported by informal environments. It builds on the 
framework developed for K-8 science learning in the NRC Taking Science 
to School report from 2007. The six strands illustrate how schools and 
informal environments can support complementary educational goals, and 
serve as a tool for organizing and assessing science learning. The six 
interrelated aspects of science learning covered by the strands reflect 
the field's commitment to getting learners to participate and connect 
to science as a stimulating, creative, and personally relevant 
endeavor.
    Our efforts to improve STEM education frequently focus on the 
importance of the disciplinary content of science and how people come 
to understand scientific concepts, principles, and established facts. 
The committee agreed that the knowledge of science is an important 
outcome of science learning, but there is more to the learning of 
science than understanding content. The other five strands help bring a 
more complete image of learning into view. These broader dimensions of 
science learning are necessary for developing interest in young 
learners. For example, early interest in science is clearly associated 
with entry into STEM fields. In this vein, it is also crucial for 
people to develop science-related interests and to experience 
enjoyment, to come to identify with science, to know how to develop and 
evaluate scientific arguments and explanations of natural phenomena, to 
know how scientists actually inquire and build new knowledge using 
specialized tools and equipment, and to understand the multifaceted 
role of the institution of science in society.
    The six science learning strands help us understand how learners in 
informal environments:

         Strand 1: Experience excitement, interest, and motivation to 
        learn about phenomena in the natural and physical world.

         Strand 2: Come to generate, understand, remember, and use 
        concepts, explanations, arguments, models and facts related to 
        science.

         Strand 3: Manipulate, test, explore, predict, question, 
        observe, and make sense of the natural and physical world.

         Strand 4: Reflect on science as a way of knowing; on 
        processes, concepts, and institutions of science; and on their 
        own process of learning about phenomena.

         Strand 5: Participate in scientific activities and learning 
        practices with others, using scientific language and tools.

         Strand 6: Think about themselves as science learners and 
        develop an identity as someone who knows about, uses, and 
        sometimes contributes to science.

    With this multi-dimensional definition of science learning, we then 
explored the question: What is the contribution of informal 
environments towards these outcomes? The report describes the state of 
our knowledge about how the strands of science learning are supported 
across the different informal learning environments. For example, 
educational television and museum experiences can support conceptual 
learning. Family conversations can help children learn to produce 
scientific conversations. After-school programs can give learners 
access to learning to use the specialized tools of science and support 
the learning of science content. Prior knowledge, interest, and 
identity--long understood as integral to the learning process--are 
especially important in informal learning environments, where 
opportunities to learn can be fleeting, episodic, and strongly learner-
driven. At any point in the life span, learners have knowledge and 
interests, which--given opportunities and support--they can develop 
into for further science learning. This includes their comfort and 
familiarity with science. Although learners' knowledge may remain tacit 
and may not always be scientifically accurate, it can serve as the 
basis for more sophisticated learning over time. Educators can support 
learners of all ages by intentionally querying, drawing on, and 
extending their interests, ideas about self, and knowledge.
    So, do people learn science in non-school settings? This is a 
critical question for policy makers, practitioners, and researchers 
alike--and the answer is yes. The committee found abundant evidence 
that across all venues--everyday experiences, designed settings, and 
educational programs--individuals of all ages learn science in 
significant ways. We know from vast literatures in the science of 
learning field on cognition and development that sophisticated learning 
only results from concerted effort and sustained practice. It is 
crucial for us to recognize and understand how such learning and 
expertise gets supported and cultivated across the settings and 
pursuits in a person's life. Understanding the cumulative effects of 
STEM learning as it occurs across formal and informal learning 
environments is a high-priority area for future research.
    Virtually all people of all ages and backgrounds engage in informal 
science learning in the course of daily life. Informal environments can 
stimulate science interest, build learners' scientific knowledge and 
skill, and--perhaps most importantly--help people learn to be more 
comfortable and confident in their relationship with science. 
Researchers and educators interested in informal settings are typically 
committed to open participation in science: building and understanding 
science learning experiences that render science accessible to a broad 
range of learners and in ways that serve their interests.
    Everyday experiences can support science learning for virtually all 
people in response to the interests and needs that matter most to 
them--including environmental risks, health decisions, and appreciation 
of the natural world. If educators can attend more deeply to the ways 
in which people already intersect with science and technology in their 
lives then our educational efforts will be more powerful and 
meaningful.
    Designed spaces--including museums, science centers, zoos, 
aquariums, botanical gardens, and environmental centers--can also 
support science learning. Rich with real-world phenomena and unique 
learning experiences, these are places where people can pursue and 
develop science interests, engage in science inquiry, and reflect on 
their experiences through sense-making conversations.
    Educational programs focused on science learning take place in 
schools and community-based and science-rich organizations and include 
sustained, self-organized activities of science enthusiasts. Such 
programs are growing in number, with the support of significant federal 
funding, and there is mounting evidence that structured, non-school 
science programs can feed or stimulate the science-specific interests 
of adults and children, may positively influence academic achievement 
for students, and may expand participants' sense of future science 
career options.
    Science media, in the form of radio, television, the Internet, and 
hand-held devices, are increasingly pervasive and make science 
information increasingly available to people across venues for science 
learning. Science media, especially interactive forms that are web-
based, are fundamentally changing people's engagement with science and 
offer new ways to support science learning. Although the evidence is 
strong for the impact of educational television on science learning, 
substantially less empirical evidence exists on the impact of other 
media--digital media, gaming, radio--on science learning specifically. 
There is good reason to believe that such media are increasingly 
supporting science learning, but we need more research focused on how 
and why people learn science specifically through interactive and 
social media.
    What role can informal learning environments play in broadening 
participation and promoting diversity in STEM fields? A report on 
diversity and learning recently edited Professor James Banks from the 
University of Washington states: ``Being born into a racial majority 
group with high levels of economic and social resources--or into a 
group that has historically been marginalized with low levels of 
economic and social resources--results in very different lived 
experiences that include unequal learning opportunities, challenges, 
and potential risks for learning and development.''
    The committee recognized that there is increasing interest in the 
informal learning research and practitioner fields for understanding 
cultural variability among learners and its implications: how learners 
participate in science in relation to the values, attitudes, histories, 
and practices of their communities and those of science.
    Studies suggest that informal environments for science learning may 
be particularly effective for youth from historically non-dominant 
groups--groups with limited social and political status in society who 
are often marginalized in educational experiences. For example, 
evaluations of museum-based and after-school programs suggest that 
these experiences can support academic gains for children and youth 
from historically non-dominant groups. These successes often draw on 
local issues and the prior interests of participants--for instance, by 
integrating science learning and service to the community. Similarly, 
case studies of community science programs targeting participation of 
youth from historically non-dominant groups--such as children in Native 
American or recent immigrant communities--document participants' 
sustained, sophisticated engagement with science and sustained 
influence on school science course selection and career choices. In 
these programs, children and youth play an active role in shaping the 
subject and process of inquiry, which may include local health or 
environmental issues about which they subsequently educate the 
community. Equally interesting in these contexts is the cross-
generational learning--the ways in which informal learning 
opportunities help connect children, parents, grandparents, and other 
community elders.
    Many designers in informal science learning are making efforts to 
address inequity and wish to partner with members of diverse 
communities. Effective strategies for organizing partnerships include 
identifying shared goals; designing experiences around issues of local 
relevance; taking the everyday patterns of participation of learners 
into account; and designing experiences that satisfy the values and 
norms and reflect the practices of all partners. These efforts merit 
replication and further study, including analysis of how science-rich 
institutions can collaborate with and serve community-based 
organizations and how these programs support and sustain participants' 
engagement.
    To understand whether, how, or when learning occurs, good outcome 
measures are necessary, yet efforts to define outcomes for science 
learning in informal settings have often been controversial. At times, 
researchers and practitioners have adopted the same tools and measures 
of achievement used in school settings. In some instances, public and 
private funding for informal education has even required such academic 
achievement measures. Yet traditional academic achievement outcomes are 
limited. Although they may facilitate coordination between informal 
environments and schools, they fail to reflect the defining 
characteristics of informal environments in three ways. Many academic 
achievement outcomes (1) do not encompass the range of capabilities 
that informal settings can promote; (2) violate critical assumptions 
about these settings, such as their focus on leisure-based or voluntary 
experiences and non-standardized curriculum; and (3) are not designed 
for the breadth of participants, many of whom are not K-12 students.
    The challenge of developing clear and reasonable goals for learning 
science in informal environments is compounded by the real or perceived 
encroachment of a school agenda on such settings. This has led some to 
eschew formalized outcomes altogether and to embrace learner-defined 
outcomes instead. The committee's view is that it is unproductive to 
blindly adopt either purely academic goals or purely subjective 
learning goals. Instead, the committee prefers a third course that 
combines a variety of specialized science learning goals used in 
research and practice--for example, the six strands of science learning 
developed in the report.
    In closing, the following are some high-priority policy 
considerations related to research on the role of informal learning 
environments in STEM education:

        <bullet>  There should be sustained support for high-quality 
        informal programs and experiences that focus on STEM, whether 
        they occur in museums, aquaria, zoos, science and technology 
        centers, botanical gardens, in out-of-school program settings 
        or other informal efforts. Significant and unique science 
        learning occur in these venues--in ways that can be leveraged 
        to support school-based academic outcomes and in ways that 
        represent important experiences with STEM disciplinary fields 
        as an end in and of themselves. The report offers guidance for 
        how these activities should be evaluated and studied so that we 
        can gain a better understanding of how and when they succeed.

        <bullet>  Although it is important to understand the impact of 
        informal environments, a more important question may be how 
        science learning occurs across the range of formal and informal 
        environments. The science learning literatures and fields are 
        segmented (e.g., into school learning, informal education) in 
        ways that are at odds with how people routinely traverse 
        settings and can engage in learning activities across settings. 
        Thus, research should attempt to explore learners' longer-term, 
        cross-cutting (or ``life-wide'') learning experiences. Further 
        work should increase understanding of the connections or 
        barriers in learning between more formal and more informal 
        science learning environments. These inquiries can provide 
        critical information for developing better programs and 
        experiences for learners.

        <bullet>  Media, in particular television and Internet 
        resources, are the most sought-out tool for learning about 
        science. Through various forms of digital media--blogs, virtual 
        spaces, wikis, serious games, RSS feeds, etc.--access to 
        scientific ideas and information and knowledgeable others has 
        become, if not pervasive, at least widespread. Arguments about 
        the transformative power of media for informal science learning 
        are based on very modest evidence and warrant further 
        investigation. Research on the impact of media is needed to 
        understand how the unique features of media can support 
        different aspects of science learning (e.g., the six strands).

        <bullet>  The committee concluded that informal learning 
        environments may be particularly important for science learning 
        for diverse groups. Research exists on how specific groups can 
        come to participate in specific venues, but questions remain 
        about how to best empower science learning for diverse groups 
        through informal learning environments. There is variability in 
        the success of these environments in attracting and engaging 
        diverse audiences. We believe that a better understanding of 
        the naturally occurring science learning in historically non-
        dominant and dominant cultures is needed to inform basic theory 
        about learning and to inform the design of learning experiences 
        that meaningfully attend to the cultural practices of diverse 
        communities.

    Thank you for the opportunity to present to the Subcommittee on 
this important set of topics. I look forward to your questions and 
comments.

                       Biography for Philip Bell

    Philip Bell pursues a cognitive and cultural program of research 
across diverse environments focused on how people learn in ways that 
are personally consequential to them. He is an associate professor of 
the Learning Sciences at the University of Washington and the Geda and 
Phil Condit Professor of Science and Mathematics Education, and he 
directs the ethnographic and design-based research of the Everyday 
Science and Technology Group (http://everydaycognition.org). He also 
directs the University of Washington Institute for Science and 
Mathematics Education focused on coordinating P-20 education efforts 
across the University. Bell has studied everyday expertise and 
cognition in science and health, the design and use of novel learning 
technologies in science classrooms, children's argumentation, 
culturally responsive science instruction, the use of emerging digital 
technologies within youth culture, and new approaches to inquiry 
instruction in science. He is a Co-Lead of the Learning in Informal and 
Formal Environments (LIFE) Center (http://life-slc.org/) and is a Co-PI 
of COSEE-Ocean Learning Communities (http://cosee-olc.org/). Bell 
serves as a member of the Board on Science Education with the National 
Academy of Sciences and co-chairs the National Research Council 
Consensus Committee on Learning Science in Informal Environments. He 
has a background in human cognition and development, science education, 
computer science, and electrical engineering.

    Chair Lipinski. Thank you, Dr. Bell, and Ms. Ingram.

 STATEMENT OF MS. ANDREA J. INGRAM, VICE PRESIDENT, EDUCATION 
  AND GUEST SERVICES, MUSEUM OF SCIENCE AND INDUSTRY, CHICAGO

    Ms. Ingram. Thank you, Chairman, and Members of the 
Subcommittee, and thank you for inviting us here today to speak 
with you. I would also like to thank NSF and Dr. Bell and his 
co-authors for investing their time and thoughtfulness in 
producing this report that is so important. It informs our 
efforts.
    As you know, which is why we are here, science and 
technology are critically important to human well-being, 
economic growth and a sustainable environment. America's social 
and economic future depends on new generations of scientists 
who can help sustain our legacy of innovation and science 
leadership.
    Our schools cannot do this alone. Wonderful, inspirational 
and important resources exist outside of the classroom in our 
national laboratories and our universities and our museums, in 
our zoos, and in our libraries.
    If we share the objective of supporting science achievement 
to create our next generation of innovators, then we must 
ensure that these resources are well-aligned to support the 
engagement and excellence of our youth in science. When we 
adopt this shared objective, the lines distinguishing between 
formal and informal education become blurred and lose 
relevance. What we have are a variety of learning strategies 
and a variety of tools all targeted to ensure broad access, 
opportunity and success in the sciences.
    At the Museum of Science and Industry in Chicago, we have 
embraced this shared objective and have designed our historic 
transformation to reflect this new direction. We are unified in 
our commitment as an institution to become an esteemed 
educational institution that will play a critical role in the 
advancement of science education. And with that recognition, we 
have adopted the vision to inspire and motivate children to 
achieve their full potential in the fields of science, 
technology, medicine, and engineering. And in doing so, we have 
recognized that in order to overcome this quiet crisis in our 
scientists and engineers in the United States, we must 
diversify and broaden those who are engaged and inspired into 
careers in the sciences.
    So in adopting that vision and taking this new direction, 
that means that we have changed our practices in the designs of 
our exhibits and how we extend the reach of those exhibitions 
through programming, and in our view, of our collaborative 
leadership role. In our exhibitions, we have intentionally 
adopted an integrated approach in which our education teams 
participate in our exhibit design process to ensure that the 
content embedded in the exhibitions is aligned with national, 
international, and local learning standards and objectives so 
that they can be broadly used as tools to enhance science 
achievement in the classroom. We have reflected on and embedded 
the Atlas of Science Literacy created by the American 
Association for the Advancement of Science, Project 2061, and 
in doing so, our tools will become world-class instruments to 
advance science education.
    Through our Center for the Advancement of Science 
Education, which we have newly formed as part of this 
transformation, we extend the content of our exhibitions to 
where our guests and youth are. That means that within our 
museum, we have now poised our staff to engage in fun, 
inspirational ways with our guests around the content to give 
them an opportunity for contextual learning, to have fun, to 
provide the inspiration for which we are known, but to provide 
them with minds-on, hands-on experiences. These opportunities 
are now available for our 1.5 million visitors a year almost 
and to the nearly 300,000 students that visit us on field 
trips.
    Our vision tells us to do more, though, with a series of 
community initiatives. We work with 57 community organizations 
throughout Chicago. We have developed the Institute for Quality 
Science Teaching in which we support the capacity and 
competency of our science teachers in our local school 
districts, and we have accepted a collaborative leadership role 
because none of this happens without partners. So in our 
Institute for Quality Teaching, that means we work with our 
universities to ensure the ability of our teachers to receive 
credit hours and endorsements through Science Chicago, a 
collaborative effort with 140 partners throughout the Chicago 
area. We have built awareness of the scientific resources in 
the region and built connections to them. With this work, we 
have the capacity to share with others how to really propel 
science education through informal settings.
    Thank you.
    [The prepared statement of Ms. Ingram follows:]

                 Prepared Statement of Andrea J. Ingram

Introduction

    Science and technology are critically important to human well-
being, economic growth and a sustainable environment. In a technology-
driven world, America's social and economic future depends on new 
generations of scientists who can help sustain our legacy of innovation 
and science leadership. However, increasing evidence indicates that 
education and engagement in science is on the decline. The statistics 
are dismal at national, State and local levels. By eighth grade, 
American students have fallen behind the leading ten nations in 
science. By age 15, these youth are behind 27 other nations in math 
skills. In Chicago, nearly two-thirds of fourth graders failed to 
display even the most basic level of science knowledge and skills on 
the National Assessment of Educational Progress (NAEP) in 2005.
    Americans recognize the importance of this issue. ``The State of 
Science in America'' \1\ national survey conducted by Harris 
Interactive on behalf of the Museum of Science and industry found:
---------------------------------------------------------------------------
    \1\ Museum of Science and Industry. (2008). The State of Science in 
America. Conducted by Harris Interactive. www.stateofscience.org

        <bullet>  70 percent believe America has lost its edge in 
        science, and only 35 percent think the U.S. will be the world 
---------------------------------------------------------------------------
        leader in science in the next 20 years.

        <bullet>  87 percent agree that science is important and that 
        they personally benefit from it every day.

        <bullet>  79 percent believe science is not receiving the level 
        of attention it deserves in our nation's schools.

        <bullet>  87 percent agree that, as a nation, we must begin to 
        devote more funding toward science education.

    At a time when schools face shrinking resources and growing 
demands, reversing this trend depends on leadership from civic 
institutions that partner with families, communities and schools.
    Informal learning institutions such as the Museum of Science and 
Industry are ideally positioned for this leadership role. Our strategic 
vision, robust education programming, and inspirational exhibits linked 
to classroom curriculum make our Museum and others like us natural 
partners in improving science education. Museums are visited by 
millions of schoolchildren every year; at the Museum of Science and 
Industry, over 260,000 students came on field trips in 2008, and tens 
of thousands more visit with their parents.
    Several years ago, the Museum of Science and Industry convened a 
group of civic leaders, scientists, educators and national experts from 
many disciplines to brainstorm new ways to teach and inspire children, 
spark innovation and explore new scientific frontiers. We developed a 
bold plan to help us realize our vision, which is to inspire and 
motivate our children to reach their full potential in the fields of 
science, technology, medicine and engineering. This plan includes three 
strategies:

        <bullet>  Place educational programming at the heart of the 
        Museum of Science and Industry experience by developing and 
        expanding the Museum's Center for the Advancement of Science 
        Education.

        <bullet>  Provide spectacular, transformative exhibitions that 
        grab attention and lead to learning.

        <bullet>  Enhance the experience of Museum guests by presenting 
        a unique, dynamic visit that engages people in interactive 
        science experiences that make learning fun.

    As a result, the Museum is revolutionizing the way we reach out to 
students, teachers, the community and school systems. Our Center for 
the Advancement of Science Education works with our local school 
systems--especially the Chicago Public Schools--and collaborates with 
some of the best minds and institutions focused on science and 
education, making the Museum of Science and Industry a laboratory for 
the development of science learning and teacher professional 
development programs.
    The Center's programming aims to shape the attitudes about and 
participation in science by minority youth during their middle- and 
high-school years. The short-term goal is to increase awareness, 
interest, and participation in science, and longer-term goals include 
influencing youth to choose STEM careers, sustaining a supportive 
climate at the community level for science engagement and 
participation, and facilitating high-quality science teaching and 
learning in schools. The Museum's approach is multifaceted and targets 
students, teachers, community organizations, and families at a 
community-wide level. We are also a proving ground, thoroughly 
analyzing and evaluating our programs and implementing the best ideas.
    Research indicates it's critical to align educational programs for 
students and professional development opportunities for teachers to 
classroom curriculum to ensure that programs directly impact 
learning.\2\ An inquiry-based science curriculum helps bridge school 
science and real-world experiences.\3\ Studies show that when this 
approach is incorporated in science teaching, students (and 
particularly historically under-served minority students) score higher 
on science achievement tests, have improved science process skills, and 
have more positive attitudes toward science than students taught using 
only a traditional approach.\4\<SUP>,</SUP>\5\ The Museum of Science 
and Industry makes sure the content of our workshops for students and 
teachers meets state and national learning standards in science. Using 
Illinois Learning Standards in science and the Atlas of Science 
Literacy created by the American Association for the Advancement of 
Science's Project 2061, we match program content to what students need 
to learn as they move from kindergarten through 12th grade. Our efforts 
have been recognized by AAAS Project 2061, which enlisted our help to 
develop and host an upcoming workshop for science museum staff called 
``Using Atlas of Science Literacy in Informal Science Learning 
Settings.''
---------------------------------------------------------------------------
    \2\ ``Teaching Teachers: Professional Development to Improve 
Student Achievement,'' Research Points, American Education Research 
Association, Summer 2005, Vol. 3 Issue 1.
    \3\ National Research Council. (1996). National Science Education 
Standards. National Committee on Science Education Standards and 
Assessment. Washington, D.C.: National Academy Press.
    \4\ Basu, S., and Calabrese-Barton, A. (2007). Developing a 
sustained interest in science among urban minority youth. Journal of 
Research in Science Teaching, 44(3), 466-489.
    \5\ Gibson, H., and Chase, C. (2002). Longitudinal impact of an 
inquiry-based science program on middle school students' attitudes 
towards science. Science Education, 86(5), 693-705.

Educational Programming Inspires and Informs

    The Museum of Science and Industry has placed education at the 
center of what we do. We are no longer a museum with an ``education 
department''; we are an educational institution. As cross-disciplinary 
teams, we develop and implement a variety of strategies to engage and 
inspire our audiences through our exhibitions and programming.
    We currently have three new permanent exhibitions under design and 
development. We have taken a materially different approach by 
integrating education experts onto the design teams to ensure the 
content is developmentally appropriate for our youth audiences, 
includes content that corresponds to classroom learning standards, and 
reflects evidence-based practices on learning. For example, Science 
Storms, a new exhibition under construction, will use seven iconic 
natural phenomena--avalanches, tornadoes, sunlight, tsunamis, atoms in 
motion, lightning and fire--to teach principles of physics and 
chemistry. One-of-a-kind science experiences--such as measuring wind 
speed, humidity and temperature while standing inside a 40-foot tornado 
or creating lightning indoors with a 23-foot Tesla coil--will make the 
exhibition a living laboratory for students on field trips. The 
experiences and exhibitions being created will not only make the Museum 
a premier global destination, but will become imperative learning tools 
for advancing science education.
    The Museum recognizes that teachers, mentors, parents, other 
caregivers, and peers all play critical roles in supporting a young 
person's access to and enthusiasm for science learning. By taking a 
comprehensive approach to science education, we aim to connect the 
Museum and the community in a sustainable partnership where learning 
takes place in many different locations. To this end, programs offered 
by the Museum's Center for the Advancement of Science Education are 
designed to extend the content of our exhibitions through strategies 
that empower teachers, engage the community, and excite students. 
Initiatives reach beyond the Museum walls into schools and community 
organizations across the Chicago area. Programs are designed to provide 
much-needed support to teachers, reach children in a variety of 
settings, and make it easy to participate.

Teacher Professional Development Programs

    Effective classroom teaching is critical to helping children 
develop the essential thinking skills they need to weigh evidence, 
solve problems, balance risks and rewards, and make sense of their 
environment. In the Museum's new Institute for Quality Science Teaching 
(IQST), middle-school science teachers dive into professional 
development workshops where they explore science topics relevant to 
their classroom science curriculum and return to the classroom with new 
ideas, greater confidence and the resources they need to make science 
engaging for their students. Our focus is on enabling teachers who are 
in the classroom today and creating a pipeline of quality teachers with 
the skills to inspire passion and excitement of about science. More 
than 1,000 teachers attend IQST programs each year, ultimately 
impacting science education for an estimated 30,000 students 
annually.\6\
---------------------------------------------------------------------------
    \6\ In the 2007-2008 academic year a total of over 300 teachers 
participated in IQST programs certified for one to three credit hours 
with an additional 450 participating in more targeted half-day to full-
day workshops. Over 250 additional teachers participate in events 
designed to inform and deepen the relationship amongst science 
teachers.
---------------------------------------------------------------------------
    Our goal is to provide quality professional development while 
working with the Chicago Public Schools (CPS) towards placing a 
content-qualified teacher in every middle grades science classroom. CPS 
recently adopted a policy that will require that all middle-school 
teachers who teach science must have a science endorsement. We work in 
partnership with CPS to reach that goal and do it in a way that ensures 
the endorsement is of a quality that will have an impact on classroom 
achievement. For three years the IQST at the Museum's Center for the 
Advancement of Science Education has tested and learned from 
partnerships with institutions of higher learning to determine what 
model works most effectively for the teachers and the achievement of 
their students.

        a)  National Louis University: The College of Education at 
        National Louis University offers course credit ranging from one 
        to three credit hours for IQST programs. Participants in summer 
        institutes offered in partnership with Golden Apple Foundation 
        can earn one hour while teachers in one of our year-long 
        workshop series can earn three hours. Credits are widely 
        transferable. Teachers must register with National Louis and 
        pay tuition. Even when this was the only option offered in the 
        2007-2008 academic year, few teachers participated as the 
        tuition is viewed as prohibitive.

        b)  Illinois Institute of Technology (IIT): Through this 
        collaboration, three hours of graduate course credit is offered 
        at a reduced tuition rate of $100 per credit hour. Nearly one-
        third of the teachers in our core teacher professional 
        development series in 2008-2009 elected to enroll with IIT. 
        Teacher participants selecting this option are responsible for 
        paying all tuition costs. IQST and IIT are working towards a 
        joint endorsement program. The program will enable teachers to 
        enroll in a combination of IQST programs and IIT courses that 
        would lead to a science endorsement with an option to add a 
        middle grades endorsement. The planning for this project will 
        continue through 2009, with the potential to launch the new 
        endorsement program during 2010. Upon evaluating the success of 
        the endorsement program, an option for a joint Master's may be 
        considered.

        c)  Loyola University: The Museum is a partner with the Center 
        for Math and Science Education at Loyola University Chicago in 
        a planning grant received from the Illinois Board of Higher 
        Education. Through this partnership, IQST will offer its 
        professional development programs and other approved courses as 
        part of new degree programs leading to a Master's in either 
        Chemistry Education or Earth and Space Science Education. 
        Loyola will be the first in the area to offer content-specific 
        science education degrees including content and grade level 
        endorsements. The Museum's component of the course work is 
        anticipated to begin in 2010.

        d)  Other partnerships: In addition, IQST is approved to grant 
        Continuing Professional Development Units (CPDUs) through the 
        Illinois State Board of Education and approved to offer CPS 
        Lane Placement Credits to teachers participating in its 
        programs.

    Credentials themselves are not enough. With our partners we work to 
ensure that our instruction will have an impact on student science 
achievement.
    The Museum's professional development workshops are designed to 
increase teachers' knowledge of science content, improve their teaching 
skills and demonstrate how to use museum programs and exhibits to 
enhance science curriculum. We offer a year-long workshop series 
targeting 4th through 8th grade educators with limited experience 
teaching science. Currently we run two concurrent series:

        <bullet>  Get Energized! explores concepts related to energy, 
        such as energy transformation and conversion, electricity, 
        sound, light, heat and more. Activities include a ball drop 
        from a three-story balcony to demonstrate potential and kinetic 
        energy, dissecting flashlights, creating circuit boards from 
        everyday materials and more.

        <bullet>  City Science focuses on topics such as city ecology, 
        the science behind structures, developing cities of the future 
        and more. Activities include exploring the school yard 
        ecosystem, studying types of pollution, constructing buildings 
        and more.

    The menu of topics is being expanded and soon will include five 
distinct courses.
    Success depends not just on the right content but evidence-based 
delivery practices. We focus on building whole school engagement and 
teacher communities. Principals must be on board and benefits are 
conferred that can extend beyond the individual teachers who are 
enrolled. Teachers are recruited in pairs to ensure shared resources 
and continuity within schools, and most are from Chicago Public 
Schools. The program targets schools most in need of resources--42 of 
the 50 schools participating in the 2008-2009 school year largely serve 
low-income children.
    Teachers attend five day-long sessions a year, where Museum 
educators present topic-focused, inquiry-based, hands-on science 
activities. To improve accessibility, the Museum has identified and 
removed barriers to participation. Workshops are offered at no cost, 
content is aligned with Illinois Learning Standards in science, 
teachers receive continuing education credit, and the Museum funds the 
cost of a substitute teacher for sessions held on school days. Teachers 
receive lesson plans, all the materials they need to replicate the 
activities in their classrooms, and a class field trip that includes 
funding for buses and an educational program for school groups. The 
Museum's collaboration with IIT also offers teachers in the workshop 
series three hours of graduate course credit at a reduced tuition rate.
    Teachers credit the workshops with showing them how to make science 
fun and exciting for their students. They say the comprehensive lesson 
plans, materials and interactive training sessions provide exactly what 
they need to help their students learn science. Here's just some of the 
feedback we've received:

         ``I came into teaching not wanting to touch science with a 10-
        foot pole, and not having the know-how to do so anyway. I 
        really credit your professional development programs with 
        completely changing that. The training, the materials, the 
        lesson plans, everything has been exactly what a teacher needs. 
        I for one have learned to love science (and know a lot more 
        about teaching inquiry and assessment) and have decided to make 
        science education my full focus. So again, thank you for 
        helping inspire and prepare me for this challenge. The museum 
        is a great resource to the kids in Chicago and I have not seen 
        any other institution do so much to make its offerings so 
        available and accessible to the community.''

         --Eric Santos, Fulton Elementary School, Chicago

         ``This is my first year teaching and I'm doing so in areas 
        that are outside of my original certification. Although I now 
        see myself as a science teacher, I still lack many tools of the 
        trade, since I never took a science methods class or student 
        taught under a science mentor. Because I'm teaching 8th grade 
        physical science this year, the Get Energized workshops have 
        been exceedingly valuable in making up for those deficiencies. 
        The lessons are really approachable and easy to implement, and 
        the focus on inquiry fits my teaching philosophy . . .. The 
        supplemental resources have been great as well. I cannot get 
        over the lab materials we receive after each session. It's 
        amazing to be able to bring those bins back to school and know 
        that I can dig into my new lessons starting Monday. It 
        demonstrates how complete the program is, given that you give 
        us curricula, guide us during the workshops in how we may teach 
        many of the lessons, and give us everything we need to put them 
        to use in the classroom.''

         --Melissa Resh, Young Women's Leadership Charter School, 
        Chicago

Community Initiatives

    The Museum of Science and Industry is creating programs that expand 
our role in a community. New partnerships with schools and community 
organizations are extending science engagement beyond the classroom and 
Museum walls into places where students already spend their time after 
school. As a result, children and teens from diverse backgrounds get an 
opportunity to discover new interests, develop new skills, prepare for 
college, and learn about careers in science and engineering. The focus 
of the Science Minors series of programs is on children and teens in 
the community who are in need of new opportunities. The series includes 
three levels of engagement which reach over 5,000 students each year.
    The Museum partners with schools and community-based organizations 
to offer pre-teen students early, hands-on exposure to science through 
after-school Science Minors Clubs. The program aims to increase science 
literacy and interest in science in under-served neighborhoods. 
Currently, there are 57 sites throughout the Chicago region and 
Northwest Indiana that serve about 4,700 students. Participating 
organizations receive science curriculum modules, training and on-site 
support, materials for hands-on activities, and a field trip and Family 
Day at the Museum. The clubs emphasize informal learning that builds 
curiosity and encourages teamwork. Out-of-school time science programs 
are associated with more positive attitudes toward science and 
increased interest in science careers.\7\
---------------------------------------------------------------------------
    \7\ National Research Council. (2009). Learning Science in Informal 
Environments: People, Places, and Pursuits. Committee on Learning 
Science in Informal Environments. Philip Bell, Bruce Lewenstein, Andrew 
W. Shouse, and Michael A. Feder, editors. Board on Science Education, 
Center for Education, Division of Behavioral and Social Sciences and 
Education. Washington, DC: The National Academies Press.
---------------------------------------------------------------------------
    In the second level, teens in the Science Minors youth development 
program attend 10 weeks of science education and training by Museum 
staff and outside scientists and volunteer to demonstrate science 
experiments for Museum guests. Throughout their work, Science Minors 
gain a better understanding of science, a first-hand look at science 
career opportunities, and public speaking skills. Since the program's 
debut in 2003, about 400 teens have participated.
    In the third and most engaging level, Science Achievers deepen 
their work with the Museum by pursuing more rigorous science topics and 
preparing for college and careers. These teens participate in 
internships, mentor new classes of Science Minors and even facilitate 
Science Minors Clubs themselves. They have access to more advanced 
science experiences and receive additional college and career 
readiness. This program is based on research that indicates programs 
that incorporate role models, internships, and college-preparation 
activities have been shown to increase self-confidence and interest in 
STEM courses and careers, as well as improving science knowledge and 
skills and graduation rates.\8\<SUP>,</SUP>\9\<SUP>,</SUP>\10\
---------------------------------------------------------------------------
    \8\ Darke, K., Clewell, B., & Sevo, R. (2002). Meeting the 
challenge: The impact of the National Science Foundation's Program for 
Women and Girls. Journal of Women and Minorities in Science and 
Engineering, 8(3/4), 285-303.
    \9\ Degenhart, S.H., Wingenbach, G.J., Dooley, K.E., Lindner, J.R., 
Mowen, D.L., & Johnson, L. (2007). Middle school students' attitudes 
toward pursuing careers in science, technology, engineering and math. 
NACTA Journal, 51(1), 52-60.
    \10\ Building Engineering and Science Talent. (2004). What it 
takes: Pre-K-12 design principles to broaden participation in science, 
technology, engineering, and mathematics. Available at 
www.bestworkforce.org/publications.htm
---------------------------------------------------------------------------
    The Museum's community programs are designed as a pipeline that 
feed each other. Students in science clubs can join Science Minors as 
teens and go on to become Science Achievers, where they have the chance 
to go back and facilitate a science club, creating a cycle that 
connects to the community. Students credit these programs with showing 
them the range of science careers that exist, teaching them to be 
effective public speakers and demonstrating the benefits of teamwork. 
After-school program providers credit the program with exposing younger 
children to new ideas and opportunities. Here's some of the feedback 
we've received:

         ``Science is a challenge for our students, but the moment they 
        get into it, because it's so fun and hands-on and interactive, 
        they look forward to it. After school, they expect to have fun, 
        but this program lets them learn, too. When they love what they 
        do here, that feeling transfers over to what they're doing in 
        school.''

         --Jose Sanchez, Senior Program Director, Miracle Center, 
        Chicago

School Group Programs

    Children are drawn to engaging, hands-on learning opportunities 
that allow them to explore new ideas at their own pace. School groups 
visiting the Museum of Science and Industry participate in inquiry-
based Learning Labs, which use the Museum's captivating spaces to 
investigate the science behind everyday life.
    Learning Labs provide facilitated, focused, engaging learning 
experiences for school groups. Over 16,000 students each year in grades 
3 through 12 participate in hands-on sessions led by Museum educators 
that are aligned with Illinois Learning Standards in science. Learning 
Labs have pre- and post-visit activities along with additional 
resources to enhance what students learn once they return to their 
classroom. Topics include renewable energy (where students build 
hydrogen fuel cell cars to discover how some of the latest renewable 
energy resources work) and advanced forensics (where students use 
techniques such as DNA analysis, forensic anthropology and trace 
evidence analysis to solve a crime).
    The Museum's popular videoconference program connects an on-site 
classroom of students with three other remote locations anywhere in the 
world. This technology is a unique way to provide students on field 
trips with access to real science professionals. Live . . . from the 
Heart, the Museum's premiere videoconferencing program, offers students 
in grades 8 through 12 a dramatic exploration of the human heart. 
Students watch live open-heart surgery being done at a Chicago-area 
hospital and talk to the surgical team, ask questions about the 
procedure, get tips on keeping their heart healthy and find out about 
exciting careers in medicine. Since the program debuted in 2003, more 
than 17,000 students have participated. Demand for the program is high; 
all sessions are booked before the school year begins, and more than 40 
schools are on the waiting list.

Civic Leadership in Advancing Science Education

    Building on its robust set of programs, the Museum of Science and 
Industry is leading a collaborative effort to broadly impact science 
education. Science Chicago is a collaboration of more than 140 public 
and private institutions that have come together to present the world's 
largest science celebration. Designed to awaken the inner scientist in 
each and every one of us, thousands of dynamic and interactive 
activities provide hands-on learning; spur thoughtful debate; enhance 
classroom learning; and build enthusiasm for the pursuit of cutting-
edge science while establishing the critical value of science and math 
education.
    Our vision is to awaken Chicagoans to the wonders of our region's 
scientific resources and the importance of science to our future. We 
have worked to create a strategic framework connecting people, 
organizations, and opportunities to Chicago's wealth of science and 
technology resources. Our goal is to accomplish this vision by creating 
an organizational and programmatic framework to achieve five 
overarching goals:

        <bullet>  Engage young people in the fun, excitement and awe of 
        science and inspire them to consider careers in science and 
        technology fields.

        <bullet>  Raise awareness of the importance of science in 
        everyday life in the minds of students, their parents and 
        teachers--and thereby, the public at large.

        <bullet>  Enlighten Chicagoans to the region's vast science and 
        technology assets.

        <bullet>  Encourage partnership and collaboration between and 
        among the science and technology community and our target 
        audience.

        <bullet>  Raise Chicago's profile as a national leader in 
        science and technology, and promote the message that our city 
        and region can and will continue to prosper because we are 
        committed to supporting science and technology.

    With the network built by the Museum of Science and Industry and 
the over 140 partner institutions that are part of Science Chicago, we 
have propelled the richness of our region's scientific resources to the 
forefront of public awareness and tapped the advantages of connecting 
students and teachers to resources in the real and virtual world 
through the web. We share an understanding of the critical importance 
of content-prepared teachers in science classrooms and strategies to 
improve the prevalence of such teachers in the Chicago Public Schools.
    Our opportunity now is to leverage the strength of the Science 
Chicago partnerships and resources to enhance the quality of science 
instruction in the Chicago Public Schools while continuing to serve as 
an important bridge between students, families and communities and the 
rich scientific resources of the region. Fundamentally, our goal is to 
provide broad opportunity to exceptional science achievement by 
ensuring that CPS science curriculum is aligned with national and 
international science achievement benchmarks and assessment, supporting 
CPS curriculum with quality and well-aligned professional development 
programs, and aligning and building access pathways to external 
resources.

Assessing Museums' Impact and Role

    The Museum of Science and Industry is committed to evaluating the 
success of our educational programs. We have partnered with the Chapin 
Hall Center for Children at the University of Chicago to assess the 
real impact our programs are having on student achievement, and Chapin 
Hall has submitted a grant to the National Science Foundation to help 
fund this effort.
    Educational programs provide a platform for museums to provide 
credible leadership in addressing the larger issues facing the 
advancement of science education. With other museums, educators, 
universities and civic leaders, the Museum of Science and industry is 
committed to addressing this challenge in a meaningful, sustained 
manner. This means that we have committed people and resources to the 
policy evaluation and collaboration that will be required to move this 
issue of advancing science education from talk to action.

                     Biography for Andrea J. Ingram

    Andrea Ingram, appointed in 2006, serves as Vice President for 
Education and Guest Services at the Museum of Science and Industry. Ms. 
Ingram is responsible for providing strategic vision and organizational 
management of division's four departments: Center for the Advancement 
of Science Education, Science Chicago, Guest Experiences and Guest 
Operations. All staff, contractors and volunteers responsible for 
engaging with guests report to this division. In addition to all 
revenue and retail based operations, the division's work includes 
developing and delivering experiences grounded in museum content 
through professional development of middle school science teachers; 
community based initiatives serving 4000 youth throughout Chicago; 
Learning Lab experiences targeting nearly 300,000 annual student 
guests, and facilitated exhibit and venue based experiences for 
Museum's nearly 1.5 million annual guests. The division's programming 
also provides a platform for the Museum's leadership role in advancing 
science education through public awareness and engagement initiatives 
such as Science Chicago as well as partnerships with local school 
districts to improve student access and opportunity to science 
achievement and careers.
    Prior to joining the Museum, Ms. Ingram received an appointment to 
the executive management team of the Illinois Department of Children 
and Family Services where she played a critical role in major strategic 
decisions and was instrumental in the development and implementation of 
system wide initiatives. Prior to her appointment at the State, Ingram 
worked at Voices for Illinois Children as the Director of the Budget & 
Tax Policy Initiative. Ingram joined Voices after a decade of 
practicing law in a business law firm in San Francisco in which she 
became a partner. She has litigated cases in state and federal court 
involving contracts, real estate transactions, intellectual property, 
financial fraud, employment law, and bankruptcy and has significant 
trial experience.
    Ingram holds a J.D. from the University of California, Davis and a 
B.A. in Justice from The American University in Washington, D.C. She is 
licensed to practice law in both Illinois and California.

    Chair Lipinski. Thank you. Ready for Mr. Lippincott.

 STATEMENT OF MR. ROBERT M. LIPPINCOTT, SENIOR VICE PRESIDENT 
      FOR EDUCATION, THE PUBLIC BROADCASTING SERVICE (PBS)

    Mr. Lippincott. Good morning, Chairman Lipinski, Ranking 
Member Ehlers, and esteemed Members of the Subcommittee. My 
name is Rob Lippincott, and I am Senior Vice President for 
Education at PBS. As a former teacher, I greatly appreciate the 
opportunity to address the most effective role of informal 
environments in STEM education.
    Public Broadcasting was founded to lead in informal 
education on the air, online, on the ground, guided by 
research, and actively supporting educators. On the air, Public 
Broadcasting has been a leader in educational television for 
more than 50 years. Available free of charge to 99 percent of 
Americans' television households, PBS reaches more than 65 
million people, 14 million of them kids, each week, inviting 
them to experience the worlds of science, history, and public 
affairs.
    Informal science education begins with our award-winning 
science television programs, some of which you may recognize: 
NOVA, Nature, Design Squad, Curious George, and most recently, 
Sid the Science Kid. We even have Neil deGrasse Tyson, named 
the sexiest astrophysicist alive by People magazine, hosting 
our NOVA scienceNow magazine.
    However, TV is only a small part of the informal education 
story. Broadband access is dramatically changing the 
opportunities for the Nation's educators to improve STEM 
education. I want to share two examples of how PBS is trying to 
use the web to support informal education, PBS Kids GO!, what 
we call a broadband channel, and a project we call EDCAR, the 
Educational Digital Content Asset Repository.
    PBS Kids GO! is an online media portal which includes full-
length TV episodes, clips and games. I believe that this is the 
first glimpse of what television may look like for all ages 
very soon.
    [Video]
    As you can see, kids are not just watching TV but playing 
with the characters, learning through games, and exploring 
ideas. This set of tools is a powerful first step in building 
STEM-savvy citizens. We need to give students at every age and 
their teachers increased resources to this kind of multi-modal 
learning.
    EDCAR is a database of video and digital resources created 
by public media producers and our partners in museum, 
university, and research communities. By collecting and 
organizing the resources and then aligning them to learning 
standards, we create the best STEM learning tools for use at 
home, at school, and in every learning setting.
    The first offering that we are creating is based on STEM 
for the middle school. A teacher might use this kind of a 
lesson structured with an introduction and objectives to select 
a learning chunk of video, a small clip that has been cut to 
introduce--in this case a lesson on the hydrosphere, a video 
called ``Where is the water?'' or the teacher might select a 
very different kind of video asset or digital asset, this one 
based on two different images, one of the Muir glacier in 
August of 1941, the other in August of 2004, which in fact 
might lead students to want to look up this map of Arctic ice.
    To truly make a difference in informal education efforts, 
we have developed a 360-degree approach to children, literally 
trying to surround them at home, school, and at play with 
learning opportunities in media. We are working to duplicate 
this success across STEM disciplines. Recent findings from 
rigorous studies on SuperWhy! and Between the Lions show clear 
and measurable gains in every area targeted. This shows that 
PBS is able to use media to move the needle and improve 
abilities of kids to learn. Again, we will be working to 
duplicate this success that we have had with literacy across 
STEM disciplines. Of course, if we really want to change 
learning, both informal and formal in a lasting way, we need to 
prepare our teachers and caregivers so they are equipped and 
excited about sharing science. Through PBS TeacherLine, an 
online professional development program, we are building a how-
to course for caregivers and early preschool and after-school 
teachers.
    [Video]
    The reception of this course has been exceptional. For 
example, North Dakota has approved this course for its 
childcare providers, and this is working also in Arizona, 
Illinois, Louisiana, Minnesota, Tennessee and Texas. This kind 
of anywhere, anytime, pajama-compatible professional 
development is critical, and the consistent theme across all of 
what we are doing is partnership, and I would be happy to 
explain more.
    Thank you very much.
    [The prepared statement of Mr. Lippincott follows:]

               Prepared Statement of Robert M. Lippincott

    Good morning, Chairman Lipinski, Ranking Member Ehlers and esteemed 
Members of the Subcommittee. My name is Rob Lippincott, and I am Senior 
Vice President--Education for PBS--the Public Broadcasting Service. As 
a former teacher, I greatly appreciate the opportunity to answer some 
of what I consider to be one of the most important questions in 
education today--what is the most effective role of informal 
environments in STEM Education?
    There has never been a more critical time for both formal and 
informal science education and the continuing need to improve the 
quality of math and science education we provide our young people. 
Public broadcasting was founded to lead in the development of 
educational media, particularly informal education.
    I will use my time today to give you a few digital glimpses of some 
of the important work PBS and the public media community is doing with 
respect to:

        <bullet>  The role of digital and electronic media in educating 
        students

                  ``on the air'' with our traditional television 
                programming;

                  ``online'' with some very exciting new media 
                programming.

        <bullet>  The role informal education plays in broadening 
        participation and promoting diversity in STEM fields

                  ``on the ground'' with a ``360 degree'' approach to 
                community engagement;

                  Impact of research to build, deliver and assess 
                programs;

                  The importance of teacher professional development 
                to raise teacher effectiveness.

        <bullet>  The role of partnerships with formal and informal 
        education institutions.

The Role Digital and Electronic Media in STEM Education--On the Air

    PBS' best known role in informal education is an open, universally 
available broadcast invitation, designed to do exactly what the newest 
of the 6 Strands of Science Learning recommends in the recent National 
Academies of Science study--Learning Science in Informal Environments: 
People, Places, and Pursuits: to ``experience excitement, interest, and 
motivation to learn about phenomena in the natural and physical 
world.''
    We like to say that ``we educate with everything that we do'' and 
as a system-wide survey shows, more than 97 percent of the 174 Public 
Broadcasting Service licensees use technology to deliver education 
services. For instance, Alabama Public television offers every teacher 
in the state access to an array of media resources and professional 
development in a web service called ``APTPlus.''
    There are many more examples as public broadcasting has been a 
leader in educational television for more than 50 years. With its 356 
member stations and our partnerships with community organizations and 
institutions of higher education in virtually every state in the 
Nation, PBS offers all Americans the opportunity to explore new ideas 
and new worlds through television and online content. Available free of 
charge to 99 percent of America's television households, PBS reaches 
more than 65 million people each week--14 million of them children--and 
invites them to experience the worlds of science, history, nature and 
public affairs.
    Among the many award winning science television programs you may 
recognize--NOVA, Nature, Design Squad, Curious George, and, most 
recently, Sid the Science Kid--are leaders and models. We even have 
Neil deGrasse Tyson, named the ``sexiest astrophysicist alive'' by 
People magazine, hosting NOVA scienceNow.

The Role of Digital and Electronic Media in STEM Education--Online

    Television and on-air programs, however, are a small part of the 
entire informal education story. Online broadband access and digital 
media is dramatically changing the opportunities and challenges the 
Nation's educators have to improve STEM education.
    PBS has two new online initiatives which I find compelling: the PBS 
Kids GO! Broadband ``channel'' and a project we call EDCAR, the 
Educational Digital Content Asset Repository.
    The online sites which collectively comprise www.pbskids.org draw a 
growing audience--now over nine million two- to eight-year-olds every 
month. The latest experiment with the six- to eight-year-olds in this 
audience is called PBS Kids GO!, which presents an online media portal 
including full length TV episodes, clips and games. I believe that this 
is the first glimpse of what ``television'' will look like for all ages 
soon. Let me show you a short sample: (PBS Kids GO! Clip).
    As you can see, kids are not just watching TV, but playing with the 
characters, learning through games and exploring ideas--this set of 
tools is a powerful first step in building STEM savvy citizens!
    I believe that we need to give students at every age and their 
teachers increased access to this kind of learning resource. EDCAR is 
the project to build a comprehensive public media database of the video 
and related digital resources that public media producers and our 
partners in the museum, university, media and research communities are 
creating across the Nation. By collecting, organizing and aligning 
these resources to learning standards, we can create the best STEM 
learning tools for use in school, at home and in every learning 
setting. This project is underway with several dozen PBS stations and 
their partners. Let me give a very brief example of some work we are 
testing with teachers: (EDCAR clip).
    Research has shown the promise of systems like this and PBS is 
pursuing a first offering focused on STEM skills for middle school 
learners. PBS and stations need a core of national standards--in the 
words of the Council of Chief State School Offers--``fewer, higher, 
clearer'' academic standards to focus upon. And we need the help of the 
educational research community to reveal the most critical goals and 
best practices for us to target.
    EDCAR will provide a unified reservoir of online content and 
services, accessible and relevant to all of America's. These materials 
are produced by producers, member stations and partners across the 
public media community. The individual media assets and the array of 
related media which comprises their educational context, offers every 
teacher and student a comprehensive curricular supplement in every 
subject from pre-school, to elementary school and through secondary 
school. The service is presented locally. It is designed to assist 
educators achieve measurable improvements in student achievement and be 
consistent and supportive of the standards set by State and local 
educators.
    With each member station working with the corresponding State 
education agency, all of the content will be directed to the most 
critical targets of each community's instructional core--with 
particular focus on those students at risk in our urban and rural 
areas. The State education agencies will provide the standards which 
the media addresses and will lead the implementation of the media 
services in its schools and classrooms. The learning goals identified 
by the State education agencies will specify the digital media produced 
by public media providers to fill out the repository, allowing teachers 
in every part of the country to find and effectively use the content 
that meets their students' learning needs.

Role of Informal Education in Broadening Participation and Promoting 
                    Diversity--On the Ground

    But in order to truly make a difference in informal educational 
efforts, we also need to go well beyond the ``push'' technologies of 
television and online program delivery. Our best example is PBS Kids 
Raising Readers which targets early childhood literacy where our best 
evidence of learning gains come from what we have called a ``360 
degree'' approach to children--literally surrounding them at home, 
school and at play with learning opportunities and media. We hope to 
duplicate this success across STEM disciplines.
    PBS KIDS Raising Readers literacy initiative, generously supported 
by the U.S. Department of Education in a partnership with the 
Corporation for Public Broadcasting targeted specifically at under-
served populations and minority groups. Appendix A reveals a full 
discussion of how PBS stations partner with schools, colleges and 
community organizations nationwide (Public Television Stations: A 
Trusted Source for Educating America, Jan. 2008).
    The long-term goal is to achieve measurable results in improving 
literacy skills of children in low-income families. We are working in 
20 low socioeconomic strata markets in order to build successful models 
that can be replicated across the country. PBS is also eager to spread 
this success to STEM--to use these proven best practices in programming 
and engagement to broaden participation and promote diversity in every 
STEM discipline and field of activity.

The Role of Research

    Educational media providers have learned to base all of their 
programming on learning research, rigorously testing every part of 
broadcast and online offerings. They must also now work with states to 
align media with recognized curricula and State standards to ensure 
that these materials are suited for use in formal as well as informal 
settings.
    PBS measures the impact of its children's series to ensure that 
they are accomplishing their goals. Very recent findings from key 
studies on two children's series designed to teach early literacy 
skills--SuperWhy! and Between the Lions--show clear, measurable gains 
in every area targeted. The test results show that PBS is able to move 
the needle and improve the abilities of kids to learn. Again, we will 
be working to duplicate this success with literacy in targeted STEM 
disciplines.

The Role of Teacher Professional Development

    But if we want to change learning--both formal and informal--in a 
lasting way, we need to prepare our teachers and care givers so that 
they are equipped and excited about sharing science. We need to invite 
them to become guides and coaches for learners and teachers of every 
STEM field.
    We have some history in teacher professional development, but our 
most recent work is what I find the most promising. Most recently, we 
are building ``how to'' courses for pre-school and after-school 
teachers--caregivers, parents and early educators--to help them make 
every environment a learning environment. Let me show you just a moment 
of what teachers see: (PBS TeacherLine ``setting up your room'' clip).
    PBS TeacherLine, an online professional development program funded 
through a U.S. Department of Education Ready to Teach grant, has the 
goal of making professional development accessible, affordable and 
engaging for teachers and care givers. I believe that this kind of 
``anytime/anywhere'' professional development--we have called it 
``pajama-compatible'' can help inspire and guide formal and informal 
STEM learning at every age and in every discipline.
    We offer more than 135 courses--35 in Science disciplines and 35 in 
Math. We work with 23 colleges and universities in all 50 states, 
through 66 PBS stations. (See Appendix B for a selected list of PBS 
TeacherLine partner universities and community organizations). More 
than 42,000 educators have taken a course since 2004. Graduate credit-
bearing courses help teachers remain certified. A growing set of tools 
support teacher leaders in their professional learning communities. 
Recently published research (in the Journal of Computing in Teacher 
Education, Fall 2008) attests to the effectiveness of this medium to 
build teachers' ``competence and confidence in instructional technology 
integration.''

The Role of Partnerships

    A consistent theme I hope you have heard is ``partnership.'' PBS 
and its member stations are only part of any collective effort to build 
a scientifically literate community. The federal partnership is crucial 
in this process. PBS has received generous support from the Department 
of Education for our Ready to Learn and Ready to Teach initiatives. 
Last year the Ready to Compete Act which reauthorizes both of these 
programs, was introduced by Congressman John Yarmuth from Kentucky. We 
hope it will be introduced again in this new Congress and receive the 
strong support we believe it deserves.
    The kind of research, truly a scientific discipline and a 
burdensome cost to producers, is critical to establishing the 
techniques and practices public media producers need to serve 
educational goals. We continue to need academic and research partners 
in universities and key government agencies, including the National 
Science Foundation, the National Institutes for Health, NASA, and NOAA. 
We have good working relationships with each of these agencies and 
strongly support their programs.

Conclusion

    I hope I have helped to make a case today for the importance of the 
role informal environments play as well as the urgency of the effort to 
target science, technology, engineering and mathematics learning. I see 
this as one of the most vital roles the public media community has to 
play: on the air, online, on the ground, guided by research, and 
actively supporting educators.
    There is very promising evidence that media is a powerful way to 
facilitate learning in and out of the classroom. We need to apply the 
lessons we have learning producing appealing television programs, 
effective educational media resources and ``360 degree'' community 
engagement for topics like literacy to the urgent problems of STEM 
education.
    I want to close by once again expressing my appreciation to the 
Subcommittee for the opportunity to appear today to discuss the role of 
informal science education. The Academies' new report suggests that 
there is strong evidence that we are on the right track. But I think we 
would all agree that we still have a long way to go to ensure all of 
our students have the scientific and technical literacy and know-how 
needed to compete in today's highly competitive marketplace. PBS and 
its members are committed to playing an appropriate role using our 
resources and access via the audiences we serve.
    Thank you.

Appendix A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

APPENDIX B

                  PBS TEACHERLINE STATION PARTNERSHIPS

Arizona--ASSET-Eight/KAET, Tempe

         Arizona Teachers Excellence Program

         School Readiness Council, Maricopa County

         CCS Presentation Systems (statewide mobile training labs)

         Qwest Foundation in Education

Arkansas Educational Television Network, Conway

         Arkansas Department of Education

         College Credit Partners:

         University of Central Arkansas

Colorado--Rocky Mountain PBS, Denver

         Colorado Department of Education, Office of Standards and 
        Achievement Support

         Colorado Department of Education, English Language Acquisition 
        Unit

         Centennial BOCES, Learning Services

         Northwest Consortium for Professional Development

         Colorado Association of Science Teachers

         Pueblo City Schools

         Denver Public Schools, ProComp Office

         Public Television Stations:

         KTSC, Pueblo/Colorado Springs

         KRMJ, Grand Junction

         College Credit Partners:

         University of Colorado at Colorado Springs

District of Columbia--WHUT

         Howard University, School of Education

         WHUR-FM

Florida--WLRN, Miami

         Miami-Dade School District

         Academica, Inc.

         Public Television Station Partners:

         WXEL, West Palm Beach, FL

         WMTJ, San Juan, Puerto Rico

         College Credit Partners:

         Nova Southeastern University

Illinois--WSIU, Carbondale

         Southern Illinois University, College of Education

Indiana Public Broadcasting Stations/WFYI, Indianapolis

         Indianapolis Public Schools

         Indiana College Network

         Indiana Department of Education

         Indiana Humanities Council's Smart Desktop

         ISTEM

         Indiana Computer Educators

         Public Television & Radio Station Partners:

         WTIU-TV and WFIU radio, Bloomington

         WNIN-TV and WNIN radio, Evansville

         WFWA-TV, Fort Wayne

         WFYI radio, Indianapolis

         WYIN-TV, Merrillville

         WIPB-TV, Muncie

         WNIT-TV, South Bend/Elkhart

         WVUT-TV, Vincennes

         WBAA radio, West Lafayette

         College Credit Partners:

         Marian College

Iowa Public Television, Johnston

         College Credit Partners:

         Drake University

Louisiana Public Broadcasting, Baton Rouge

         Associated Professional Educators of Louisiana

         Louisiana Federation of Teachers

Maryland Public Television, Owings Mills

         Anne Arundel County Public Schools

         St. Mary's County Public Schools

         Washington County Public Schools

         Baltimore City County Public Schools

         Archdiocese of Baltimore Private Schools

         Worcester County Department of Professional Development

         Allegany County Public School

Massachusetts--WGBY, Springfield

         Hampshire Regional School District

         Easthampton Public Schools

         Massachusetts Department of Education, Office of Instructional 
        Technology

         Public Television Station Partners:

         Vermont Public Television

         Connecticut Public Television

         College Credit Partners:

         Merrimack College

         Westfield State College

Michigan--WKAR, East Lansing

         Michigan Department of Education, Office of Early Childhood 
        Education and Family Services

         Michigan 4-C Association

         Ingham County Health Department, Office for Young Children

         Ingham Intermediate School District

         Capitol Area Community Services Head Start

Mississippi Public Broadcasting, Jackson

         Canton Public School District

         Leake County School District

         South Delta School District

         Yazoo County School District

         College Credit Partners:

         Mississippi College

Nevada--Vegas PBS

         Clark County School District, Licensed Personnel Department

Nevada--KNPB, Reno

         Washoe County School District

         Elko County School District

         Western Nevada Regional Training Program

         Northwest Regional Professional Development Program

         Northern Nevada Mathematics Council

         College Credit Partners:

         University of Nevada-Reno, College of Education

New Hampshire Public Television, Durham

         New Hampshire Department of Education

         New Hampshire Local Education Support Center Network

         New Hampshire Regional Professional Development Centers

         College Credit Partners:

         Plymouth State University

New Jersey Network, Trenton

         New Jersey Department of Education

New Mexico--KNME, Albuquerque

         New Mexico Public Education Department Rural Education Bureau

         New Mexico Division of Higher Education

         College Credit Partners:

         University of New Mexico

North Dakota--Prairie Public Broadcasting, Fargo

         North Central Council for School Television

         North Dakota Department of Public Instruction, State Title I 
        Office

         Lakes and Prairies Child Care Resource and Referral

         Children and Family Services Division of the North Dakota 
        Department of Human Services

         College Credit Partners:

         North Dakota State University

         Minnesota State University, Moorhead

New York--WNED, Buffalo

         Science Teachers Association of New York (STANYS)

         Reading/Language Arts Association

         New York State Mathematics Association

         ECLIPSE Science Coordinators

         BOCES Model School Coordinators

         New York State Teacher Centers

         New York State Department of Education

         Public Television Station Partners:

         WMHT, Albany/Schenectady

         WSKG, Binghamton

         WLIW, Long Island

         WNET, New York

         WCFE, Plattsburgh

         WXXI, Rochester

         WCNY, Syracuse

         WPBS, Watertown

Ohio--WVIZ, Cleveland

         Tri-County Educational Service Center

         Logan County Educational Service Center

         Cuyahoga County Educational Service Center

         Cuyahoga Special Education Service Center

         Greater Cleveland Educational Development Center

         Public Television Station Partners:

         Think TV, Dayton

         WOUB and ETSEO, Athens

         WCET, Cincinnati

         WGBU, Bowling Green

         WOSU/WPBO, Columbus/Portsmouth

         WGTE, Toledo

         College Credit Partners:

         Ashland University

         Cleveland State University

         The University of Akron

Pennsylvania--WQLN, Erie

         Northwest Tri-County Intermediate Unit

         Northwest Regional Key (supports PA Early Learning Keys to 
        Quality)

Pennsylvania--WITF, Harrisburg

         Capital Area Intermediate Unit

South Carolina ETV, Columbia

         South Carolina Department of Education

         Public Television Station Partners:

         Georgia Public Broadcasting, Atlanta

         UNC-TV, Research Triangle Park, NC

Tennessee--Nashville Public Television

         Tennessee Department of Education, Office of Early Learning

         Metro Nashville Public Schools

         Public Television Station Partner:

         WLJT, West Tennessee State University

         College Credit Partner:

         Tennessee State University

Texas--KLRU, Austin & KLRN, San Antonio

         Texas Computer Education Association

         Texas Education Agency, Division of Advanced Academics/Gifted 
        and Talented

         Public Television Station Partners:

         KACV, Amarillo

         KEDT, Corpus Christi

         KERA, Dallas

         KMBH, Harlingen

         KUHT, Houston

         KNOT, Killeen

         KTXT, Lubbock

         KOCV, Odessa

         KWBU, Waco

Virginia--WHRO, Norfolk

         Virginia Society for Technology in Education

         Virginia Department of Education

         Public Television Station Partners:

         MHz Networks, Falls Church

         WVPT, Harrisonburg

         WCVE, Richmond

         WBRA, Roanoke

         College Credit Providers:

         James Madison University

Wisconsin Educational Communications Board, Madison

         College Credit Partners:

         Viterbo University

                   Biography for Robert M. Lippincott

    As PBS Senior Vice President for Education, Mr. Lippincott is 
responsible for the development and delivery of public media 
educational programming and services to teachers, students and their 
parents from PBS through local public television stations. He directs 
the PBS Teachers websites and a system-wide digital media repository. 
And he oversees national projects and partnerships including federal 
grants for PBS TeacherLine, offering online teacher professional 
development, and PBS Kids Raising Readers, offering programs on-air, 
online and in the classroom to help early learners read.
    Before Joining PBS, Rob has served in a wide variety of leadership 
positions in schools and businesses building and applying media and 
communications technology to education. He has been a classroom 
teacher, a member of the faculty of Harvard University, Graduate School 
of Education and a pioneer in multi-media and Internet design for K-12 
audiences.
    Most recently, Mr. Lippincott served as Senior Vice President of 
product development for Discovery Education, the newest division of 
Discovery Communications, Inc., responsible for the digital video 
streaming, online and hard copy products developed for the home and 
school markets. He was President and CEO of the early-childhood 
assessment company, Children's Progress, Inc. He also served as Senior 
Vice President and General Manager for the Pearson Education Company, 
Family Education Network. And he was Director of interactive 
technologies at WGBH Educational Foundation. Boston's public 
broadcasting station.
    Rob holds a Bachelor's degree from Swarthmore College in Literature 
and a Master's degree in Educational Technology from Harvard 
University.

    Chair Lipinski. Mr. Lippincott, I assure you, it is not 
just children who enjoy the multi-modal learning there. Dr. 
Grajal.

 STATEMENT OF DR. ALEJANDRO GRAJAL, SENIOR VICE PRESIDENT FOR 
 CONSERVATION, EDUCATION, AND TRAINING, THE CHICAGO ZOOLOGICAL 
                            SOCIETY

    Dr. Grajal. Mr. Chairman, Members of the Subcommittee, on 
behalf of the Chicago Zoological Society, I thank you for the 
opportunity to appear before you today.
    The mission of the Society is to inspire conservation 
leadership by connecting people with wildlife and nature. The 
Chicago Zoological Society operates Brookfield Zoo, one of the 
top zoological institutions in North America. In addition to 
being recognized as one of the global leaders in conservation 
biodiversity, we are a major cultural attraction with 2.1 
million visitors a year and over 90,000-member households.
    Just as the witnesses in this hearing, our institution is 
deeply concerned about the failure of our nation's science 
education system to stem the declining performance of American 
students. Just in our case, for example, 20 percent of the high 
school students in Illinois are below grade level in science. 
There are multiple root causes for this underachievement in 
science.
    I will focus on four major fronts that we are tackling. One 
of them is providing science exploration for families and 
children as they come and visit our facility. The second one is 
a possibility of very strong science education for teaching by 
partnering with large school districts, in our case, with the 
Chicago Public School System. The third one is developing 
science careers for minorities and under-served communities, 
and the fourth is the exploration of possibilities to measure 
and provide metrics for informal learning.
    I will briefly mention that zoos provide unique 
opportunities for everybody to explore the natural world 
outside the home and outside the classroom. Over two million 
people visit our zoos a year. We are providing special inquiry 
comparative level for environmental issues such as climate 
change and species extinctions.
    I also want to mention our education partnerships to build 
teacher scientists. One of the main problems is the national 
shortage of fully qualified science teachers. In our area, less 
than four percent of science teachers actually hold 
endorsements in science, and I don't think our area is any 
different than nationwide. But surveys have shown that teachers 
that have little scientific expertise actually transmit, in 
direct or indirect means, that lack of confidence to the 
students, making science seem difficult or unexciting. That 
problem stems at the very early stages of the classroom life.
    We train teachers, and in this case, we tackled a very 
creative partnership with the Chicago Public School System 
which is one of the largest and most complex school systems in 
the country. We have developed extensive teacher training 
program that starts with developing the basics of scientific 
inquiry from one-credit hour courses to summer institutes, all 
the way to science graduate school with several colleges in the 
mid-west region. This is a major institutional initiative that 
has included thousands of teachers in Illinois and nearby 
states in the Great Lakes Region over the last three years, and 
it is a source of personal institutional pride that these 
teachers are actually inspiring under-served segments, in 
particular, school-age Hispanic girls and African American boys 
when they are finding that science can be a life call and a 
career destination.
    I also want to mention how we are developing a Career 
Ladder for engagement of minorities and under-served 
communities. Our society, as many other in the industry, 
requires a highly trained technical workforce. We have 
zoologists, engineers, researchers, statisticians, and 
geneticists with a very strong background. We as an institution 
have identified diversity as one of the institutional strategic 
goals, and we decided we cannot take a passive approach in 
this. We are developing a science-based, lifelong learning 
starting with thousands of families of prominently African 
American and Hispanic neighborhoods with a very dedicated 
outreach program and developing opportunities for these inner 
city families to develop nature and science. A camping trip in 
the Indiana Dunes by inner city families is a lifetime 
experience that opens new frontiers in developing and 
understanding the natural world and inspiring new careers in 
science.
    Once these children move to high school, we are developing 
a youth science conservation leadership program that develops 
professional preparation schools that includes a dress code, 
engaging the public speaking skills, team building, in addition 
to carrying independent science projects. So they actually 
carry these projects at the very early age in high school.
    We are developing also metrics for measuring informal 
science education. As a major provider of informal science 
education, we have helped to create the emerging field of 
conservation psychology, the scientific study between the 
reciprocal relationship between humans and nature. Our research 
questions are addressing how humans care about nature and how 
do they engage, and psychological factors that affect the 
engagement of humans in science.
    Perhaps also one of the most pervasive obstacles are the 
lack of common standards and benchmarks for measuring informal 
science learning and education. Just as other panel members, we 
really are really needing these psychological metrics for 
developing personal comfort and confidence in applying this 
education. We call actively for this partnership to develop 
these benchmarks and indicators.
    Mr. Chair, thank you again for the opportunity to appear 
before this Committee, and I would be happy to answer some 
questions. Thank you.
    [The prepared statement of Dr. Grajal follows:]

                 Prepared Statement of Alejandro Grajal

Executive Summary

    The Chicago Zoological Society is a global conservation 
organization committed to expanding the role of informal environments 
in educating students and the public about Science, Technology, 
Engineering and Mathematics. Declines in participation in science 
education by students and the public have multiple root causes. To stem 
this decline, the Chicago Zoological Society is focusing on three major 
fronts:

        <bullet>  Providing fun and exciting opportunities for science 
        exploration by families and children;

        <bullet>  Developing strong science training opportunities for 
        teachers through creative partnerships with formal education 
        systems, such as the Chicago Public School System; and

        <bullet>  Developing a science career ladder for youth and 
        young professionals for traditional under-served communities 
        and minorities.

    As a result of these efforts, the Chicago Zoological Society has:

        <bullet>  Helped raise the competency and confidence of 
        Chicago-area teachers in the field of science education;

        <bullet>  Worked to combat low minority representation in 
        highly-technical workplaces and the lack of scientific role 
        models for students in highly-urbanized, economically 
        distressed areas;

        <bullet>  Engaged youth from early childhood through college to 
        position them for academic and professional growth in science, 
        mathematics, engineering and technology; and

        <bullet>  Developed a new field of study; conservation 
        psychology.

    The need is large and the stakes could not be higher: investing in 
informal science education is crucial to maintain the world leadership 
position of the United States in science education. Federal funding, 
such as the American Recovery and Reinvestment Act, correctly included 
some funds to continue innovation for science education. Unfortunately 
for the Chicago Zoological Society, the bill also included a provision 
prohibiting zoos from accessing or even competing for economic stimulus 
funding. As Congress continues its deliberations, please consider the 
consequences that zoos across our nation will face if they are unable 
to improve and modernize their aging infrastructures. At Brookfield 
Zoo, we stand ready with a number of worthy, well-planned and much-
needed infrastructure projects that will create jobs, help local small 
business owners and contribute to the economic recovery of our nation.

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
Chicago Zoological Society, I thank you for the opportunity to appear 
before you today. My name is Alejandro Grajal, and I am Senior Vice 
President for Conservation, Education and Training at the Chicago 
Zoological Society, based in Brookfield, Illinois.
    The mission of the Chicago Zoological Society is to inspire 
conservation leadership by connecting people with wildlife and nature. 
We define ``conservation leaders'' as any person who acts on behalf of 
the environment and influences others to do so. Our goal is to create 
conservation leaders among our guests, our community members, and 
people around the world.
    The Chicago Zoological Society operates Brookfield Zoo, one of the 
top zoological institutions in North America. In addition to being 
recognized as a global leader in the practice of animal care and well-
being, Brookfield Zoo is our state's most popular outdoor cultural 
attraction, with 2.1 million annual visitors and 90,000 member 
households.
    Brookfield Zoo is also an economic engine that pumps more than $150 
million a year into the Illinois economy while supporting 2,000 jobs.
    While we are certainly proud of our roles as a global conservation 
leader, economic engine and top tourism attraction, we are particularly 
pleased with the impact that our award-winning conservation programs 
have had in the lives of children throughout Chicagoland.
    As a leading provider of informal science learning for families, 
school districts, and universities in the region, the Chicago 
Zoological Society is working with teachers, students, parents and 
school administrators to usher in a new era of informal education.
    Just as the other witnesses at this hearing, my institution is 
deeply concerned about the failure of our nation's science education 
system to stem the declining performance of American students. Middle 
school and high school students are consistently out-performed by their 
peers in other developing nations.\1\ The long-term impact on 
individual and national success in the 21st century is imminent: a mere 
15 percent of United States undergraduates are majoring in science or 
engineering compared to 47 percent in France, 50 percent in China, and 
67 percent in Singapore.\2\
---------------------------------------------------------------------------
    \1\ Toward a Systematic Evidence-Base for Science in Out-of-School 
Time: The Role of Assessment, Hussar, Karen, Ed.D, Schwartz, Sarah, 
M.Ed., Boiselle, Ellen, Ph.D., Noam, Gil G. Ed. D., Ph.D.
    \2\ Augustine, N.R. (Chair). (2005). Rising above the Gathering 
Storm: Energizing and Employing America for a Brighter Economic Future. 
National Academy of Science, National Academy of Engineering, Institute 
of Medicine. Washington DC: National Academy Press.
---------------------------------------------------------------------------
    Science literacy is also a significant challenge in Chicago and 
Illinois. Although the percent of students participating in public 
schools in Illinois has shown gains in performance in science based on 
standardized test scores in recent years,\3\ slightly more than 20 
percent of public-school students statewide are below grade level in 
science as measured in 4th and 7th grades. Furthermore, the percent of 
students not reaching grade level far exceeds this percent at many 
individual Chicago Public Schools in Illinois.
---------------------------------------------------------------------------
    \3\ Illinois State Achievement Test results 2007.
---------------------------------------------------------------------------
    While student's underachievement in science has multiple root 
causes, we at the Chicago Zoological Society are focusing on three 
major fronts:

        <bullet>  SCIENCE EXPLORATION FOR FAMILIES AND CHILDREN: Zoo 
        visits provide an inquiry-driven experience every day, through 
        a fun and personal exploration of science by families and 
        children

        <bullet>  TEACHERS' SCIENCE CAPACITY AND CONFIDENCE: Developing 
        creative partnerships with formal education systems, such as 
        the Chicago Public School System, allows us to focus in 
        providing science training opportunities for teachers

        <bullet>  CAREER BUILDING OPPORTUNITIES FOR UNDER-SERVED 
        COMMUNITIES AND MINORITIES: Developing a science-based career 
        ladder for youth and young professionals for traditional under-
        served communities and minorities with the specific objective 
        of increasing the diversity of views about science and the 
        natural world.

Engaging Zoo Visitors in Scientific Discoveries

    Zoos provide unique opportunities for everyone to explore the 
natural world, develop inquiries about animals and habitats, and 
experience science outside the home or the school. A day at the zoo is 
a fun, family experience in a friendly environment. Recent 
psychological research has demonstrated that a walk in natural open 
settings significantly `resets' higher skills in math and reading 
skills.

                         A family day at the zoo is a personal tour for 
                        active science exploration of major 
                        environmental issues such as climate change and 
                        species extinctions.

    Our immersive exhibits with live animals in naturalistic settings 
incite exploration and self-paced learning. For example, we provide 
more than 300 zoo chats a week by keepers, scientists and interpretive 
staff. Applying the latest developments in active inquiry and 
comparative science, we are transforming our zoo to become a personal 
tour for active science exploration of major environmental issues such 
as climate change and species extinctions. However, the science 
experience does not end beyond our fence: we continue to communicate 
science information to the general public and our members through our 
magazine, website, electronic newsletters, and public events.

Innovative Education Partnerships to Build Teacher Scientific 
                    Capacities

    A second strong institutional direction is our active partnerships 
with formal education systems. One of our partners is the Chicago 
Public Schools. Initially a daunting challenge for our institution, our 
relationship with the Chicago Public School System has developed into 
an exemplary effort because it operates one of our country's largest 
and most complex school systems. Chicago mirrors a national shortage of 
fully-qualified science teachers: only one percent of Chicago Public 
Schools K-12 teachers hold an endorsement in biology and only two 
percent hold endorsements in environmental science. Overall, only four 
percent of the system's science teachers hold endorsements in 
science.\4\ This problem also includes secondary and post-secondary 
education.\5\
---------------------------------------------------------------------------
    \4\ www.learn.niu.edu/ISBE2005
    \5\ Raizen, S., & Michelsohn, A.M. (1994). The future of science in 
elementary schools: Educating prospective teachers. San Francisco: 
Jossey-Bass.

                         Illinois teachers ranked ``knowledge and 
                        application of scientific inquiry'' and better 
                        application of ``how living things interact 
                        with each other and the environment'' as their 
                        highest priorities for professional development 
---------------------------------------------------------------------------
                        in science.

    Limited teacher skills in science go beyond actual content 
knowledge: Illinois teachers ranked ``knowledge and application of 
scientific inquiry'' and better understanding and application of ``how 
living things interact with each other and with their environment'' as 
their highest priorities for professional development in science. 
Working with Chicago area school districts, we have developed an 
extensive teacher-training program in which we provide sequential 
levels of engagement in science for these teachers, from one credit-
hour courses, to summer learning institutes, all the way to graduate 
school in Advanced Inquiry skills. Our program Levels of Engagement is 
an inclusive learning process that emphasizes raising the competency 
and confidence of teachers in science education.
    One of the great advantages of informal learning institutions is 
that we are not bound by rigid assessments of content milestones. 
Therefore, we emphasize the measurement of inquiry skills, comparative 
scientific method, critical thinking, and competence and confidence in 
teaching science. This is major institutional initiative that has 
included thousands of teachers in Illinois and nearby states during the 
last three years.
    The potential impacts in working with a large urban system like 
Chicago can be significant. For example, although 78 percent of the 
participants were certified by the Illinois Board of Education, less 
than eight percent had an endorsement in science. Nearly half of our 
participating teachers work at schools with 90 percent or more low-
income students. Furthermore, nearly half of the schools that we work 
with were on the 2007-08 State Improvement Status list with at-risk 
potential.

                         These young adults overcame their reluctance 
                        toward science and asked ``What does it take to 
                        work at Brookfield Zoo?'' They realized that a 
                        science-based career can be part of their 
                        future, an important attitude turning point for 
                        this highly diverse group of students.

    Beyond the numbers, it is a source of personal and institutional 
pride to see traditionally under-served segments, such as high school-
age Hispanic girls or African American boys discovering how science can 
be a life call and a career destination. Last Spring 25 students from 
Chicago High School for Agricultural Sciences, one of our partner 
Chicago Public Schools, spent a day at Brookfield Zoo shadowing staff 
in 11 areas of the zoo, including the genetics, physiology and 
nutrition labs, and animal hospital. Several of these young adults 
overcame their reluctance toward science and actively engaged in 
spirited questions, such as ``What does it take to work at Brookfield 
Zoo?'' and ``How do I become one of your professional staff?'' They 
realized that a science-based career can be part of their future, a 
professional turning point for this highly diverse group of students.
    Beyond our engagement with school districts, we also see a fertile 
ground for partnerships with colleges and universities. Our university-
level partnerships include programs with Aurora University, Benedictine 
University, National Lewis University, Loyola School of Medicine, 
University of Illinois, Miami University in Ohio, Chicago State 
University, and Morton College.

Chicago Zoological Society's Career Ladder Opportunities for Under-
                    served Communities and Minorities

    A third and pervasive problem in science education is the low 
minority representation in the workplace, and lack of scientific role 
models for under-served students. The Chicago Zoological Society 
requires a highly trained, technical workforce that includes 
zoologists, engineers, researchers, statisticians, geneticists, and 
other positions requiring strong science backgrounds. The lack of 
science-trained professionals in the zoo industry is similar to that 
experienced by research labs and science-driven corporations 
nationwide. But several years ago we realized that we cannot take the 
passive approach of waiting for these professionals to show up in the 
marketplace. So we have started a systemic approach at nurturing a 
diverse cadre of future science, technology and engineering 
professionals, starting at an early age and providing career--building 
opportunities at critical life junctions.
    We believe that as a cultural institution we should be an active 
participant and an agent for change in providing these opportunities. 
Our proactive approach is the Career Ladder for Youth program, which 
was awarded the prestigious Institute for Museum and Library Services 
Medal in 2008. This program starts by developing after school programs 
at Chicago Metropolitan Libraries. We engage thousands of families with 
young children in predominantly African American and Hispanic 
neighborhoods. Families and children experience nature, discover 
science skills at the library and we support trips to the zoo, nearby 
forest preserves, and the shores of Lake Michigan.

                         For most of these inner city families, a 
                        camping trip to the Indiana Dunes National Park 
                        is a once in a lifetime experience that opens 
                        new frontiers in understanding the natural 
                        world, and inspiring new careers in science.

    Once these children move to high-school age, they are eligible to 
participate in our Youth Volunteer program, one of the largest and most 
competitive science-driven youth volunteers programs in the state. Our 
selection process does not take into consideration school grades alone, 
but also weights the value of cultural diverse backgrounds, abilities 
in other languages, overcoming social and cultural obstacles, 
enthusiasm for science and personal drive. The end result is an 
economically and culturally diverse group of over 150 youth every year 
that give the zoo over 100 hours of volunteering service.
    Career Ladder for Youth participants learn crucial professional 
preparation skills that are not taught frequently at school, including 
dress code, engaging the public, speaking skills, team building and how 
to carry an independent science project. Working with mentors at the 
Chicago Zoological Society, youth volunteer science projects include 
public perceptions, genetics, animal behaviors and a wide range of 
ideas. We also coordinate a meeting with many other cultural 
institutions in the greater Chicago region that have active youth 
volunteer programs, and this is rapidly becoming the preeminent youth 
scientific fair in the region.

                         Real-life internships and work-study 
                        opportunities, as well as relations with 
                        professional mentors and scientific role 
                        models, are essential stepping stones in the 
                        development of science career paths for 
                        minorities.

    Our Career Ladder effort does not stay just at high school. Once a 
young person decides to pursue a university education in science, it is 
necessary to provide internship opportunities, professional 
developments and clear career paths beyond the university system. For 
one, it is essential to provide paid internships to continue to attract 
minorities that otherwise are shifted away to other careers with 
perceived higher financial rewards. We have strengthened our alliances 
with over six universities in the region, and particularly with 
historically black colleges, such as Chicago State University, and with 
colleges with strong Hispanic populations, such as Morton College.
    This economic recession has increased the need for these 
professional internships, as many young professionals want to remain 
engaged in science carriers. Career Ladder internships not only provide 
opportunities but also attract role models in the highly technical and 
science positions that are needed in our institution.

MEASURING THE EFFECTIVENESS OF INFORMAL SCIENCE EDUCATION

    As a major provider of informal science education we are taking 
deliberate steps in developing good metrics to evaluate informal 
environments. The Chicago Zoological Society helped to create the 
emerging field of Conservation Psychology, the scientific study of the 
reciprocal relationships between humans and the rest of nature. Using 
an exciting blend of social and natural sciences, conservation 
psychology has a strong mission focus related to biodiversity 
conservation and environmental sustainability. Our research questions 
address how humans care about nature. We also study how humans behave 
towards nature, with the goal of creating durable individual and 
collective behavior change. Such approach has allowed us to develop 
important metrics that go beyond the traditional measures of scientific 
content knowledge. We are currently exploring further into the realm of 
personal competence, confidence in science, and how professional skills 
lead to behavior changes toward the environment.

                         Informal science education metrics should go 
                        beyond the traditional measures of scientific 
                        content knowledge and explore measurements of 
                        comparative inquiry skills, problem-solving 
                        abilities, and psychological metrics in 
                        applying science skills to real-life decisions.

    But as exciting as this research can be, we are also finding major 
barriers to developing metrics for informal learning. Perhaps one 
obstacle has been the over-reliance on technology as a metaphor for 
scientific progress. We find that informal science instruction tends to 
overemphasize the use of complex technical tools, assuming that 
advanced apparatus give us better results. But such approaches tend to 
overlook that one of the basic components of effective science is the 
development of strong inquiring questions that translate into clear 
hypothesis and comparative studies. We advocate for a balance in 
measuring scientific skills within the realm of comparative inquiry and 
problem-solving.
    But perhaps one of the most pervasive obstacles is the lack of 
common standards or benchmarks in measuring comparative inquiry skills, 
problem solving abilities, or psychological metrics to measure level of 
comfort and confidence in applying science skills to real-life 
decisions. We actively call for partnerships with other institutions of 
higher learning and informal science peer institutions to develop case 
studies and common benchmarking indicators toward effective science 
education.

CONCLUSIONS

          Institutions such as the Chicago Zoological Society can play 
        an important role in STEM because they engage families and 
        children at an early age. Each day at Brookfield Zoo we help 
        break early barriers to science education: We make science 
        exploration and inquiry as a fun, self-learning experience that 
        can stay for life.

          Institutions such as the Chicago Zoological Society can 
        engage the formal education system through partnerships and 
        provide crucial inquiry skills for math and science teachers. 
        The teachers who participate in our programs become science 
        leaders that are capable of providing innovative and high-
        quality lessons to their students.

          Institutions such as the Chicago Zoological Society can 
        actively promote and support science career paths for students 
        from under-served urban and rural communities by engaging them 
        early and providing them clear opportunities. We are currently 
        providing these students with career options and training 
        through high school, college and professional skills such as 
        internships and work study opportunities at crucial life 
        junctures.

    The need is large and the stakes could not be higher: Investing in 
informal science education is crucial to maintain the world leadership 
position of the United States in science education. Federal funding 
opportunities through legislation such as the American Recovery and 
Reinvestment Act correctly included some funds to continue innovation 
for, among other things, science education. Unfortunately for the 
Chicago Zoological Society, the bill also included a provision 
prohibiting zoos from being eligible to even compete for funding. As 
Congress continues its deliberations, it should not prohibit or 
otherwise restrict any qualified provider from eligibility for federal 
funds because the ultimate impact is that such restrictions prevent our 
institutions from being part of the solution.
    Mr. Chairman, thank you again for the opportunity to appear before 
the Subcommittee and I am happy to answer any questions.

                     Biography for Alejandro Grajal
    Dr. Alejandro Grajal is Senior Vice President for Conservation, 
Education and Training at the Chicago Zoological Society. In this 
position, he oversees a unit that combines the Society's major 
conservation programs with education and interpretation initiatives and 
develops the capacity of conservation leaders in Chicago and around the 
world. He oversees field programs, conservation grants in more than 20 
countries, including the development of develops training programs for 
Latin-American conservation professionals. He also oversees all aspects 
of the Brookfield Zoo education and interpretation programs, which 
impact two millions visitors yearly and serve more than 250,000 school 
children annually. The unit organizes education programs for families 
and children, summer zoo camp, and access programs for people with 
disabilities; create exhibit interpretation and messaging throughout 
the zoo; manage community outreach ventures, and develop benchmarks as 
part of our audience research program, including the innovative field 
of Conservation Psychology. In addition, he guides several initiatives 
to widen the Society's leadership in programs that build conservation 
capacity, such as the Youth Conservation & Science Leadership program. 
Prior to joining the Chicago Zoological Society in 2005, he was the 
founder and Executive Director of the Latin America and Caribbean 
program of the National Audubon Society. While there, he worked with 
more than 50 partner organizations in 15 countries around the world. 
Prior to that appointment, he was Director of the Latin American 
Program at the Wildlife Conservation Society in New York from 1991 to 
1998. He was born in Madrid, Spain, and moved as a child to Venezuela. 
He received his undergraduate degree in Ecology at Simon Bolfvar 
University in Caracas and his Ph.D. in Zoology with a minor in Tropical 
Conservation and Development at the University of Florida. He has 
participated in protected area planning and conservation programs with 
the United States Agency for International Development, the Global 
Environmental Fund, the World Bank, and the European Union. His 
publications include over 30 peer-reviewed books, chapters, popular 
articles, and scientific publications. His scientific interests include 
ornithology, biological conservation, environmental education, training 
of conservation professionals, and the sustainable use of natural 
resources. Dr. Grajal has explored public perceptions, social 
psychology, and marketing techniques. He is an accomplished wildlife 
artist with over 30 published illustrations in books, calendars, 
stamps, posters and limited edition prints. His art has been exhibited 
in galleries in Caracas, Miami, Chicago, and New York. He is married to 
Dr. Helena Puche and has two children.

                               Discussion

    Chair Lipinski. Thank you. I would like to thank all of you 
for your testimony. I am going to open up for the first round 
of questions, and it is the Chair's prerogative to go first, 
but I am going to recognize Mr. Griffith for five minutes.
    Mr. Griffith. Mr. Chair, thank you very much. We appreciate 
each and every one of you coming. I would like to make just a 
comment. I am a retired oncologist but a tadpole changed my 
life, and the transformation, watching the tadpole become a 
frog and have my little brother ask me how did it know to do 
that, stimulated me into a career of being interested in 
science.
    One of the things that I think that we sometimes maybe 
overlook and probably not overlook but in all fairness to what 
we are trying to accomplish here, my great question for America 
is that why aren't our children learning to read? Why aren't 
they reading at grade level by the third grade? Because they 
learn to read and then after the third grade, they read to 
learn. And you may be seeing children that your teachers can 
teach, but you are not seeing a great many who we have lost 
along the wayside. So I commend you. I think that the great 
question in America, because we only represent six percent of 
the world's population, yet we are number one in space travel, 
we are number one in military, we are number one in the 
development of drugs, and entrepreneurialship, means that you 
have your work cut out for you because the statistics that we 
don't think that we are the leaders anymore in some of those 
areas are wrong, but we are getting that feeling at times. But 
I applaud you and thank you for being here and our Chair for 
bringing this subject up. Thank you.
    Chair Lipinski. Thank you, Doctor, and we look forward to 
your contributions to this subcommittee. I will now recognize 
Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you, Mr. Chair. I really appreciate your 
testimony. It is very interesting. I grew up in a farming 
community, and it was amazing how much of the science that 
students learn was learned on the farm. Obviously they learned 
about pulleys and levers in the farm work, trying to get the 
hay in the mound, et cetera. They learned a lot about the life 
sciences and the reproductive cycle and genetics in their work 
on the farm by watching the animals. And that is missing today.
    I am just wondering what--first of all, Dr. Bell, in the 
work that you did in the report, did you go back and look at 
prior years and see what the difference was today between 
informal education and what it was 30 years ago, 70 years ago, 
et cetera?
    Dr. Bell. Thank you for the question. We went back in the 
literature as far as we could. One of the challenges with doing 
the consensus studies, informal science education is such a 
broad variety of different endeavors as we have been hearing 
across the panel, and you can think of community programming 
for youth and kind of layer on even more than we have been able 
to talk about thus far. We had discussion about generational 
shifts from kind of over the last 50 years, and one feature 
that is really unique of informal learning environments is that 
you get mixed generational groups together engaged in 
discussions of science. And so in that sense, people that did 
grow up on the farm but now reside in the city can engage in 
conversations with their children and grandchildren, and 
perhaps they are a docent at a museum and they can engage with 
the public more broadly around related aspects of the expertise 
they have been developing.
    That said, we also were orienting to a number of efforts 
that are organized across the country where farming and 
subsistence agriculture is still, you know, a focus of 
community life and activity. And so we are looking at 
evaluation reports of 4-H programs and those sorts of 
endeavors.
    And so to some degree, we did try to capture that in the 
report. What I would say is that we wanted to articulate, as we 
looked across the literatures, this shared image of science 
learning across six strands that we identify, and two of them 
are particularly important to informal learning environments 
around the prior interest that get cultivated. And I think we 
have already started to hear a number of those stories. The 
tadpole story is exactly of that kind. And then over time how 
that learning gets sustained by a range of others in your life 
and accessed experiences that sustain it and keep it deepening. 
And then you come to identify with science and see that you can 
learn from it and contribute to it, and those two particular 
dimensions are very strong within the work, within the informal 
world. So that is a bit of a response.
    Mr. Ehlers. Thank you. Dr. Ferrini-Mundy, can you just give 
some insight into how informal science education supported 
research at the NSF differs from other education and human 
services research or human resources research?
    Dr. Ferrini-Mundy. Yes, certainly. Thank you very much for 
the question. In many ways the research questions that have to 
do with informal science learning overlap substantially with 
research questions that have to do with learning in a general 
sense. Your last question actually caused me to think about a 
whole line of research in my own field, in mathematics 
education, that looks at everyday uses of mathematics, everyday 
mathematics. And sometimes in other countries, children who are 
street vendors or candy-sellers, there have been really 
interesting studies that have looked at how mathematics gets 
used in a day-to-day way in similar studies in science. And so 
that's an example of a line of research that bears upon 
informal science education, but that doesn't necessarily come 
up through the informal science education program. So we have 
several programs within EHR and elsewhere in the Foundation 
that fund basic research about learning, that fund programs to 
look at motivation and engagement which are some of the 
fundamental questions here, and then the relationships of 
motivation and engagement to learning, to long-term impact and 
so forth.
    So it is fair to say that both the informal science 
education program itself, which includes opportunities for 
research on learning, but also the formal learning kinds of 
programs like Research and Evaluation on Education in Science 
and Engineering, the REESE program, also is a place where there 
are a number of studies that bear upon these general cognitive 
and affective issues that are of great interest for moving 
forward in informal science education, along with the 
development of instruments which is, as we have heard from 
everyone, a crucial place, and that occurs across programs.
    Mr. Ehlers. Yes, well, I admire the work you are doing and 
I deeply appreciate it. That is true for all of you, but it 
seems to me it is very hard to get a handle on these things. 
Part of the problem is the rapid changes in society. You know, 
what you are doing, Mr. Lippincott, is a good example of taking 
a new technology and using it very well. At the same time, kids 
miss out on some other things. I recall in my childhood I 
really enjoyed working on the cars, and they were simple enough 
that you could work on the car and fix it yourself. I did a 
valve job on my car myself. Today, you don't even dare to touch 
anything on a car. It will take $1,500 to repair the damage you 
did. And similarly, the computers are marvelous things, 
wonderful things for kids to use, but they can't take them 
apart and see how they work. And so I think we face some real 
challenges in trying to address those issues. I see my time is 
expired.
    Chair Lipinski. Yes, interesting ideas there, and I know 
that especially, my background is mechanical engineering, so I 
have a much better understanding and I guess more of a love of 
mechanics. So I do understand Mr. Ehlers' concerns there about 
what we can do now.
    I am going to now recognize Mr. Carnahan for five minutes.
    Mr. Carnahan. Thank you, Mr. Chair, and Ranking Member. I 
come from St. Louis, Missouri, and we are blessed with the 
wealth of science and engineering institutions there which we 
are always looking for great opportunities to plug kids into 
and get them excited at an early age because of the practical 
benefit to those kids but also they are the next generation of 
people who are going to be those scientists and engineers to 
fill in those great public and private institutions that we 
have around the St. Louis region. But my question is to the 
panel, what are the key factors in really forging a successful 
partnership between the informal organizations and formal 
educational institutions, and is it hard to quantify those 
measurements? Are there metrics out there that exist? Are there 
barriers to measure that in terms of how we assess what works 
well? And really, to any and all the panel.
    Ms. Ingram. May I answer? Thank you for the question. Let 
me address at least part of that which is that, and I think 
this relates back to the prior discussion, which is how do we 
overcome kind of the distance that technology might have 
imposed between, you know, the inspiration and inquiry that was 
generated in prior generations to propel the interest in 
science, and that is the opportunity that we have from that 
technology, however, is to better coordinate and align the 
external resources that do exist and coordinated efforts like 
we have undertaken in Chicago through Science Chicago and 
hopefully some additional work to really partner, identify the 
resources that exist, identify how those resources align with 
the learning standards and the curriculum that our schools are 
trying to instill in our youth, and to make those resources 
transparent and accessible to the families, communities and 
teachers who can access them for the benefit of our youth.
    So to the extent that there is a lot of great programs out 
there, we have this additional significant barrier of making 
sure that people know what those programs are and how to access 
those programs. That takes significant coordination and 
partnership in and of itself. How you measure that, if you 
coordinate that through a website, there are ways of doing 
that. You can build in management tools to make sure that it is 
being used, that the conversations are happening, that the 
connections are being made. But you have to partner, you have 
to work closely with your local school districts, you have to 
make sure you understand what they are trying to accomplish in 
the classroom and that resources are reflective. The one thing 
that you can't do is assume that external resources are just 
going to immediately adopt the strategic vision of your local 
school district. It has to be a shared objective and shared 
strategic visions, and we have to build our programs to support 
that outcome of science achievement or we won't be able to have 
that impact. Thank you.
    Mr. Carnahan. Thank you.
    Dr. Bell. Within the bounds of the report, we were looking 
at a range of different kinds of articulations between schools 
and science-rich institutions in the informal sector. The first 
point to be made, there was a time and place where the idea 
that informal learning was something different than formal 
learning, that might have been a conversation. The Committee 
didn't end up there. The Committee ended up actually saying 
there is a shared set of goals related to science learning that 
we can think about what the unique contributions are to be made 
in schools versus other places where, you know, within the 
informal education sectors. That is kind of more the 
centerpiece. We looked at field trip studies because school 
groups do make extensive use of museums and botanical gardens 
and zoos and aquaria, and you know, the research points to the 
important articulation between the goal of those, you know, 
experiences outside of school in relation to what is being 
learned in school, both before the visit and after the visit. 
At the same time, it can be active involvement of the teacher 
in planning those efforts. The teacher isn't backing away from 
the activity once they show up at the museum.
    What was interesting is there is a widespread thing that 
museums and informal learning institutions also engage in. 
teacher training, but there isn't an empirical peer-reviewed 
research literature on how that plays out actually. So we 
couldn't speak to the details of the quality of those 
experiences, and it is an established gap in the literature.
    Mr. Carnahan. Thank you.
    Mr. Lippincott. I wanted just to address it if I might. I 
think in terms of public television, for instance, I have 
talked a little bit about how we kind of are perfectly aligned 
with what might be called strand one of Dr. Bell's research 
around gathering interest and motivating interest in science. 
When we have tried to work much more deeply with teachers and 
schools, because of course, the real gold standard is that if 
kids are truly interested in it, we can show their achievement 
so that for instance our TeacherLine courses required us to 
partner because we have to be really relentlessly humble about 
really what impact our television or media might have in the 
actual classroom. So we partner. We have 23 institutions that 
grant credit because of course that is their role, and it is 
aligning with their interest that allows us to be effective and 
also with hundreds of local organizations in every city in St. 
Louis, in Chicago, and across the country who are the point of 
service, meaning, really the 4-H Clubs and the Boys and Girls 
Clubs as well as in the city schools. The degree to which we 
can conform our goals for the program to the goals of learning 
achievement that have been set by local standards, that is the 
degree to which we are successful. Trying to get that entire 
sort of life cycle of an idea understood and measured is the 
really tricky part. What we have been trying to do is trying to 
talk about how each piece of what we are creating has a set of 
research around it and we can prove that it is well-crafted, it 
is based on scientific research, and that it will work. We also 
want to prove that the way we are using teacher professional 
development, the process that we are using, will result in 
increased confidence and competence of teachers using media. 
And of course, the ultimate test I think of a partnership is 
that it continues.
    Mr. Carnahan. Thank you.
    Dr. Grajal. Just if I may add, we receive almost 250,000 
school children in our zoo. I mean, at the season it is a flood 
of yellow buses in our facility. We have decided we really need 
to focus on teacher training. It is an issue that we can get as 
many children in our facility, but truly teachers are one of 
the key roles.
    And seconding Dr. Bell's testimony is the issue of 
competency and confidence in teachers, that it really 
percolates through the classroom. A teacher that is unsure 
about his or her credentials in science or even exploring 
science, it doesn't matter if she is accredited to it, it 
transmits that insecurity to the classroom. So one of the 
issues that we are measuring with our six partner degree 
granting institutions, six colleges and universities that we 
are working, is actually developing indicators for that 
confidence and that competency in teachers. We believe that 
that is one of the stem roles of our facility. And developing 
that very basic inquiry, comparative inquiry skills in 
teachers. There is grave emphasis now on technology and issues 
about advanced science, but we have lost what Mr. Ehlers 
presented is that inquiry that happens in the farm, that 
comparative issues that happen when you are in the field, and 
we believe that that is somewhat lost. We really want to 
instill those very early stages of the comparative inquiry in 
teachers. And that is the root of many of the training that may 
happen for teachers. Thank you.
    Mr. Carnahan. Thank you to the panel, and thank you, Mr. 
Chair.
    Chair Lipinski. Thank you. It certainly is a critical part 
of this, is the putting together the informal in the formal 
education.
    I am now going to recognize myself for five minutes. Plenty 
of questions here, but I want to start out, we were just 
talking about--a lot of this was relationships, partnerships 
with schools. I want to ask about partnerships with institutes 
of higher education, partnerships with industry, partnerships 
with National labs. Last Congress I introduced a bill, and I am 
working again on doing that in this Congress, to authorize 
funding for partnerships between science museums and energy 
labs so that we can better utilize the resources, the 
knowledge, what we are doing putting into energy labs to help 
teach STEM education which also will help educate people, not 
just educate in STEM education but also educate them about what 
is going on and the investments we are making in our DOE labs. 
I just wanted to throw that question out there. What other 
partnerships do you have or that you know of between these 
informal education institutions and some of these other 
institutions? Doctor?
    Dr. Ferrini-Mundy. Thank you for the question. In many of 
our funded projects, there are partnerships with institutions 
of higher education, particularly around these research issues 
because the involvement of cognitive scientists, STEM 
disciplinary education researchers, sometimes sociologists, 
anthropologists and so forth, those become a part of this as 
well as of course the scientific expertise that is crucial in 
these kinds of co-funded efforts. So we have a number of 
examples, and I can get back to you with some specific 
examples.
    We also have examples of some collaborations that are 
coming through the National labs and other kinds of settings. I 
was just looking at a project today about helping to improve 
students' understanding of the scientific experiments at 
Fermilab. And so we have examples in many cases where these 
partnerships are crucial because this field is so broad in its 
span that it requires lots of kinds of experts to move it 
forward well.
    Chair Lipinski. Dr. Bell.
    Dr. Bell. I can give one personal example, so I am kind of 
taking off the Committee hat in terms of the consensus report, 
but we have funding from the National Science Foundation 
through the COSEE program, the Centers for Ocean Sciences 
Education Excellence, that has brought together, at the 
University of Washington's Seattle area, scientists in ocean 
sciences together with folks like myself that are learning 
scientists together with informal education experts at the 
aquarium to engage the broader citizenry in citizen science 
activities related to issues that are kind of local but 
scientifically rich questions about land-water interaction, and 
kind of our individual behaviors that we make choices in daily 
life and how that impacts the environment. Through a sustained, 
multi-year effort, these different groups have been able to 
productively collaborate, and how do you engage a broad network 
of citizens in helping better understand this issue by 
collecting data and samples from across a broader variety of 
places that then come to the University of Washington to be 
analyzed more directly. So there is a ripple effect there as 
well where I have learned a lot more about science through that 
endeavor. Our collaborators in ocean sciences have changed the 
way that they do their teaching on the campus in relation to 
knowing more about how people learn as well, and I think that 
is kind of a concrete instance of what can be done in those 
sorts of partnerships.
    Ms. Ingram. In addition to the generalized type of 
partnership and coordination that I mentioned earlier as being 
imperative, let me share with you a couple of specific examples 
where the museum and the youth that we serve have benefited 
from coordinating with higher learning and our National 
laboratories. One is in our Institute for Quality Science 
Teaching. It is important to our school district that their 
science teachers become credentialed, and it is important to us 
and to our youth and to the teachers that they become 
credentialed in a quality manner so that their performance 
actually has an impact on the student achievement. So in 
helping the Chicago Public Schools reach their goal of having 
every teacher subject matter credentialed in science in the 
middle grades within the next two years, we have had the 
advantage of having partnered for the last two years with a 
couple different universities to try out what programs might 
work to support teacher professional development.
    So we have worked with National-Louis University, Loyola 
University Chicago, as well as the Illinois Institute of 
Technology. IIT, by way of example, we are building a jointly 
credentialed program. Our programs target teachers who are not 
comfortable teaching science but find themselves in science 
classrooms. You can't learn or inspire youth if you yourself 
have no confidence in the subject matter. So we focus on 
building that confidence and the competency and the content as 
well as the teaching strategies. So we have a pool of teachers, 
128 annually, who are with us in a program that can earn them 
three credit hours, and these are teachers that would not sign 
up with IIT for a science credentialing program because frankly 
they never had it in their professional future to be science 
teachers. But because we have built the access, we have 
partnered with IIT to offer low-cost credit hours, they find 
themselves moving from not touching it with a 10-foot pole to 
having three hours toward an 18-hour credential by the end of 
the year. And then they get to sign up for another workshop 
with us the next year, and all of a sudden they have six. So 
what we are trying to do is to build access to that pool of 
teachers that don't even dream of themselves as being science 
but find themselves teaching it anyway and to build that pool 
toward being the competent subject matter science teachers.
    The other quick example in partnership is with Argonne 
National Laboratories. In our Fab Lab which is a really great, 
hands on where the kids can come in and design and fabricate 
all sorts of different things from furniture to electronics to 
key chains, and in doing that, we don't necessarily have the 
technical competency around the software and the evolution that 
our MIT partners would require but Argonne does, and they have 
been a partner from the beginning with us. So we get to have 
youth from our youth development program, the science 
achievers, participate every Saturday morning with the support 
from volunteers from Argonne National Laboratories who now have 
taken ownership of that vision, the work, that can be done, to 
extend access to that technological and engineering learning in 
the museum. So there are a lot of opportunities, but it takes 
working together to find where your common interests are so 
that we can access the scientific competencies of Argonne 
scientists but then help bridge it to the youth that want to be 
inspired by it.
    Chair Lipinski. I would like to come there and use the Fab 
Lab. Sounds like a lot of fun.
    Ms. Ingram. You are more than welcome, and it really is.
    Chair Lipinski. Mr. Lippincott.
    Mr. Lippincott. Just as a quick example, I showed you a 
little bit, just a smidgen, of STEM science resources that we 
are trying to gather as part of EDCAR. We started on that 
project by trying to figure out where we could contribute the 
most, and we asked that question of a broad variety of students 
and teachers and school systems and universities. And most 
people said STEM, and in fact, most people said within the 
STEM, they wanted Earth science which is such a pivotal part of 
the sequence of learning science in school and a bump in the 
road for a lot of kids. Within Earth science, climate science. 
And we asked why, and it is because kids are so excited, they 
are so interested in climate science. They all know about 
weather, and they all hear about things on the news and they 
are all interested but also puzzled. The more we looked at 
this, the more we needed partners. And so we went certainly to 
the NSF who have been a great partner for us in many ways. The 
STEM digital library is an outstanding collection of materials 
that now we think we can help present. But we needed the 
curriculum, so we went to NOAA which has produced a very 
carefully mapped strands of the science curriculum for climate 
science, and of course, we went to school systems where in fact 
school systems in every state have standards and have exact 
standards about which part of the science curriculum they need 
to learn. We have been actually working with the CCSSO, the 
Council of Chief States School Officers, who are after what 
they call fewer, higher, clearer, maybe perhaps national 
standards at some point about this.
    But clearly, in order to get to kids in the area that they 
said they are most interested, we have to help teachers because 
they told us even if they have advanced degrees in science, let 
alone are challenged by not thinking of themselves as 
scientists, they don't know how to teach this science. They 
don't really know what this science--and they don't have the 
resources. They look in their textbooks and there is not very 
much in that chapter. And so we felt like that was a place to 
start. So by working through partners like this, we can go to 
where the science is best, we can really help science teachers 
where they really need it the most and where we think actually 
media has a really appropriate role to play, not substituting 
for field experience but really amplifying what teachers need.
    Chair Lipinski. Thank you.
    Dr. Grajal. Just one, simple example is that we are now 
launching our second graduate degree, Master's degree, for 
science teachers actually. Many of the graduate programs for 
teachers have been in education. We are trying to develop these 
science degrees for teachers, and there is quite a market for 
that. Teachers are truly interested in this.
    Our first experiment was a consortium between Fermilab, 
Morton Arboretum, Brookfield Zoo, and Benedictine University, 
and now we are launching a national program with Miami 
University in Ohio that is bringing five zoos in the country. 
It is an advanced inquiry program that develops basic 
scientific inquiry skills for teachers that really want to jump 
into that level of scientific training. And it is about 
teaching science but also pedagogical tools for teaching 
science. Thank you.
    Chair Lipinski. Thank you. Thank you for your extensive 
answers. I think the partnerships are really critical in 
forming those, and all of you head over a lot of different 
areas and a lot of different partners, and I think that is 
something we need to work on also on the federal level and see 
what we can do to encourage more of that.
    We are joined by another new Member on the Subcommittee, 
and I will recognize Ms. Fudge for five minutes.
    Ms. Fudge. Thank you, Mr. Chair. I would like to thank all 
of you for being here today, and I do have just a couple of 
questions after I make a brief comment. I want to first share 
with you that on Friday of last week I had the opportunity to 
attend the grand opening of our first STEM school in the city 
of Cleveland. It is called MC2 STEM. The thing that is exciting 
about it is that it is actually housed in General Electric's 
lighting division, Nela Park Campus. Obviously, the setting of 
the school creates some of just what we are talking about 
today, I mean, because the young people will have an 
opportunity to, on a weekly basis, have lunch with engineers, 
with scientists, they will have hands-on experience. So we are 
talking about the same kinds of things that you are talking 
about today. But I guess my question really becomes that, in 
the City of Cleveland if you are not familiar with our area, it 
has been deemed the number one or two poorest city in America 
for the last three years. What happens to the young people who 
don't have the resources to attend the zoo or to go to the 
science center or to go to museums if their schools do not take 
them? And most of the schools don't have the resources either. 
So I am really looking at how we address the issue of under-
served youth. MC2 STEM is wonderful, but it is a very small 
group of children. How do we get to the rest of them? That is 
my first question, and that is for anyone on the panel.
    Ms. Ingram. If I may briefly answer that question, I think 
part of what the Museum of Science and Industry in Chicago has 
done is reflect on how to leverage what we do in the 
inspiration that we have built in our exhibitions as well as 
our expertise and inquiry based science teaching and thought 
about how to extend that into our communities and to build 
partnerships with our communities. So we have designed a set of 
community initiatives that is intended to build an ecosystem 
where the ultimate outcome in my mind is that youth and 
community organizations are getting their first taste of 
science from the coolest, hippest communicators of science, 
their brother's best friend who is in one of our other 
programs. So we start that with the science club approach where 
we don't have to replicate after-school programs. There are 
hundreds of community organizations throughout our urban areas 
that are with kids every day after school. What they need is 
help in developing sound subject matter, curriculum that is fun 
and engaging and that the kids can relate to in their 
organizations after school. So we develop the curriculum, we 
provide the materials, we train them on the delivery of it, but 
we do more than that. We do this as an entry to a relationship, 
not just with the community organizations but also with the 
children and their families.
    So we bring them on buses that we provide back to the 
museum. On family days, the kids deliver their activities on 
the floor of the museum to our guests to help develop in them a 
sense of ownership over our institution and invite their 
parents in, many of whom have never been to any museum. And we 
want them to not only--sometimes you have to do more than just 
invite. You have to take the hand and show them through the 
door and say, this is your place, we are here to support you. 
This is the intention of this set of programs. Then we have 
from that extended service learning, youth development that is 
all grounded in the science content, building the public 
speaking skills and the confidence of the youth from these 
organizations, and then bridging them into universities.
    Last year of the approximately 100 kids that participated 
in the highest level of this series of programs, the science 
achievers, 26 of them were seniors in high school. These are 
regular kids who were not screened from the Chicago Public 
Schools. Of those kids, every one of them ended up graduating 
from high school, every one of them ended getting into a four-
year college, and 60 percent of them ended up getting 
scholarships that we had advocated for them for and supported 
them in applying for. These kids need access, opportunity and a 
bridge to engage in science to the full extent. And unless we 
build these well-structured commitments to our communities, it 
is not going to be enough. We have to help, invite them in, and 
hold their hand and have conversations about what is going to 
work where they are.
    Ms. Fudge. Thank you.
    Mr. Lippincott. I would like to add just a little bit to 
that. We have actually some very important experiences in what 
we have been calling a 360-degree because it is exactly what 
you suggest, that you need to go well outside, in our case, of 
any sort of television or media approach actually into the 
community and really understand how that works. Where we have 
had the most success is where we have had the most funding from 
the Department of Education. That has to do with early literacy 
because there are kids coming to school with 800 words where 
they should have 10,000. And so starting that kind of problem 
set, how do you help parents in their homes and around their 
homes, in every part of their lives, use the grocery store as 
the way to understand language. Show them billboards that 
invite them to try new kinds of language learning, and you do 
that through all kinds of pieces of the community as it stands 
now. Obviously, your best friend's older brother would be a 
great ambassador for science or for literacy. But we have had 
to go and we targeted twenty specifically low socioeconomic 
stratus markets in the United States over the last two years to 
really experiment. We got the San Diego Chargers to go on the 
radio and television and endorse and really help kids get 
invited. We have put billboards, we have done all kinds of 
alternative activities. We have wrapped the resource and 
referral vans in southern Illinois in Carbondale with our logos 
and driven around, giving free DVDs targeted to parents. We 
have tried things that public television has never done before 
but really need to be done in order to get inside the 
community. And by proving that we can make a difference in a 
few communities, we get other communities to pay attention. And 
therefore, we play this kind of beginning role. But it really 
is a 360 approach.
    Dr. Bell. Thank you for the question, and I have kind of 
two----
    Chair Lipinski. I just wanted to say, we are going to be 
having a vote probably in 10 minutes or less but we never know 
if it is more or less. So I just want to keep this going but if 
we can--I know there are some more questions, so I just want to 
make you aware of that. I want to hear the rest of the response 
to the question, but just be aware of that.
    Dr. Bell. Very quickly. So there is a line of research 
within my field of science education that tries to orient to 
the expertise that children develop in their life around their 
interest. So you can think of some of the examples we have been 
hearing about, these pockets of expertise that kids orient to. 
And it is something that teachers can orient to as well but 
often they don't, kind of stopped to do that. So we have a lot 
of efforts in the curriculum to build on prior knowledge but 
not to build on prior interests or developing identities of 
children. And so within the culturally responsive instruction 
approach, there are efforts to try to take the interests and 
particular circumstances of everyday life as something to be 
brought kind of into a science-related learning experience. So 
that is kind of one response.
    Within the Committee report that we did for the NRC, there 
are a range of partnerships that we have been hearing about 
between science-rich institutions and communities to try to 
figure out how to kind of be bringing access to phenomena and 
engaging experiences to a broader set of populations who tend 
to be marginalized in school settings just from the research 
point of view. And those partnerships require active engagement 
from both sides, between the science-rich institution and the 
community representation to try to figure out how to broker the 
experience in relation to the local interest and needs of the 
communities, the way they talk, the way they engage in 
particular ways of sense-making to try to negotiate the design 
of those programs. And when that is done, learning outcomes do 
represent kind of growth in science knowledge and deeper 
participation engagement in science-related activity.
    Chair Lipinski. Dr. Grajal.
    Dr. Grajal. It is essential to engage, and in our case in 
Chicago has been with community councils. We actually work with 
almost 11 community councils, and we have programs in the 
libraries very similar to one other panelist. It really 
requires a lot of dedication from the councils and from us. We 
have to actually pay for the buses for the kids to come to the 
zoo, we actually have to engage those community councils. We 
have breakfast with the local churches, with the local 
minister's association. We really need to engage them to get 
that kind of involvement. We believe that for example we have a 
library pass system. Every family can go to any library in the 
metropolitan area and check out four free passes to the zoo, 
and those are very, very heavily used, particularly in these 
communities. Every culture institution has a variation of that, 
and it really requires that very, very active engagement.
    Chair Lipinski. Dr. Ferrini-Mundy.
    Dr. Ferrini-Mundy. Yes, just very, very briefly, in 
addition to these wonderful and exciting ways of engaging the 
parts of the informal science education community directly with 
community organizations, youth-serving organizations, I would 
underscore also the importance of the connections to the formal 
education community, to leverage the enormous knowledge base 
within the informal science education community and to find 
ways to replicate at least pieces of what the school in 
Cleveland is able to deliver. So lunch with scientists, there 
are other ways that the informal science education community 
connects wonderfully with schools. And I think emphasis on 
playing those out more fully is another way to be sure that we 
are reaching broadly.
    Chair Lipinski. I thank Ms. Fudge for her excellent 
question. I look forward to your contributions to our 
subcommittee.
    Ms. Fudge. Thank you, Mr. Chair.
    Chair Lipinski. I would like to recognize Dr. Ehlers for 
five minutes.
    Mr. Ehlers. Thank you, Mr. Chair, and thank you very much. 
You have thrown out a lot of good ideas, and I am very excited 
about this and the progress that you have made, in particular 
the point about educating the teachers, professional 
development, and that is why I played quite a role in setting 
of the Math-Science Partnership Program in the Department of Ed 
and similar program in NSF. And it is crucial that we do this. 
Personally, when I was still a professor I did a couple of 
summer institutes trying to develop new science programs in the 
local schools, and it became clear to me immediately the 
problem is not the teachers in the sense that they are 
incompetent. The problem is that we have competent teachers who 
desperately want to teach science and math well and who never 
learned it themselves because they have never been taught it 
properly and have not been taught how to teach properly. So 
thank for you what you are doing on that.
    I just have something sort of off the wall about this type 
of education, informal education. We have done some work in 
nanotechnology legislation, and there are some concerns about 
the social implications of nanotechnology, in particular, the 
products. And we heard from many groups that the general public 
has to be better informed on this issue. Well, I could write a 
long list of things like that, you know, high-powered power 
lines for distribution of the grid. There is a longstanding 
belief that somehow living near one of those can cause cancer 
in your children. Similarly, vaccinations. There are a number 
of parents, a growing number of parents, who are refusing to 
have their children vaccinated because there is a belief out 
there that somehow vaccinations cause autism. And yet, there 
are other areas where things that should happen but aren't 
because the public really doesn't understand it. A good example 
is weight and obesity. I just cringe at some people I see 
walking down the sidewalk, and I can just lay out for them 
their life path, what it is going to be in terms of diabetes 
and other diseases as a result of their weight. I think we need 
a lot more informal education for adults as well as for 
children. Obviously PBS could play a major role there. But 
there are a lot of other things that could happen, too. 
Involving parents on field trips for example, saying we would 
like your kids to go on this field trip. It is very, very 
important, but we would really like to have you come along so 
that you can discuss it at home afterward or you can even mask 
it and say we just need you to control this bus full of kids. 
You know, we need 15 parents to go along with these 20 kids.
    So I hope you will put that in your thinking and try to 
figure out some way to really educate the general public about 
science as well. I would appreciate any comments you would care 
to make on that.
    Dr. Bell. One thing it makes me think of, in the report 
there is a chapter on media and its kind of growing prevalence 
in different forms, and Mr. Lippincott was already kind of 
giving us a sense of that. In terms of the research base on 
what people learn from engaging media, so kind of the broader 
communication of science, the research is pretty clear around 
educational television and the science learning that goes on 
around that in ways that you can measure directly. Although, 
you know, access to other digital media blogs, virtual spaces, 
and Wiki's and serious games and all these new emergent 
technologies, people are engaging with scientific information 
in radically new ways. And we don't necessarily understand the 
details of what science they are learning in those moments 
because we don't have those research literatures to really 
guide us. So that is kind of the one kind of insight that the 
Committee developed related to your question which is really a 
foundational, important question related to science literacy in 
the broadest sense.
    Mr. Ehlers. Now, if we can just get people to watch public 
television, it might help. Dr. Ferrini-Mundy.
    Dr. Ferrini-Mundy. Yes, thank you for the question and of 
course, our programs do invite proposals that span the range 
and are concerned with public understanding at all levels. One 
quick example, the Nanoscale Informal Science Education Network 
is a model for how it is possible with partnerships of museums, 
laboratories, universities, and so on to bring attention to a 
particular topic for all age ranges, including a number of 
public forums based on European models for communicating and 
engaging the public in science. We have several examples, and I 
agree it is a very important area.
    Mr. Ehlers. Yes, I thought I saw one other hand. Yes?
    Mr. Lippincott. I would like to say, we think we are onto 
something with the media that I tried to show you a little bit 
about. The fact that kids--not only can we put it in the 
television programs, but you pointed out what my daughter has 
said to me which is Dad, if you wanted me to watch it, why did 
you put it on public television? I guess she doesn't watch 
public television. But in fact, she is 17 so that is a 
difficult audience to reach. But our programs do attract broad 
audiences, and in fact, these online services, just as Dr. Bell 
has said, we know we are doing something right, but in many 
cases we don't even know yet what we are doing right. The first 
week that the service that I showed you last September was made 
available, we didn't even publicize it and we had a million 
streams a week, and ever since then we have had a million 
streams a week. Kids who are 6 to 8 years old are coming to get 
information. They are exploring it actively in a way that they 
can't do on television. There is something wonderful happening, 
but the foundational questions of what is really going on, just 
as with television, we know they are learning. The question is, 
what are they learning? And we really need to really understand 
that as media professionals so that we can do a better job of 
what you are saying.
    Mr. Ehlers. I totally agree, and I think you should tell 
your daughter that you can't give her an allowance because not 
enough people watch public television so you don't get paid 
enough.
    Dr. Bell. I will try that.
    Mr. Ehlers. Dr. Grajal.
    Dr. Grajal. The one thing we are finding is that the 
competition is for leisure time and how people can become 
active practitioners. One of the things, to consume science 
information is different than practicing science. One of the 
issues that we are facing is not enough time outside, the 
initiative No Child Left Inside, the issue of not--this is the 
most sedentary generation and we are finding linkages between 
overweight, Attention Deficit Disorder, and enough time being 
outside and exploring nature. The fact that you as a farm boy 
were doing with your animals and so on is an experience that 
almost no children have these days.
    So we believe that one of the main issues for scientific 
discoveries by scientific discovery by itself and actually 
promoting more time exploring science as active actors. It can 
be in the classroom, but informal settings are unique to 
provide that experience. So that partnership between being 
active players of science instead of passive consumers is a 
really relevant issue here for formal and informal education.
    Mr. Ehlers. Ms. Ingram, you get a chance to close it out.
    Ms. Ingram. Just briefly, we recognize that families are 
critical to whether or not children are going to excel and 
continue on in their sense of wonder and inspiration in 
science.
    We talk a lot about youth and how to engage because it is a 
particular problem that exists in advancing science education 
for our students in K through 8, but families need to be 
integrated. When we build our exhibitions, we make sure they 
are accessible for our youth, but they are really designed for 
the whole family so that they can talk together. It inspires 
conversation amongst them. It is not a singular experience, it 
is a shared communal experience. And all the community 
initiatives we talked about earlier, family days programs need 
to be embedded in all of that. We truly have to have this be 
something that the family understands is an opportunity for 
their youth and an opportunity for them to participate in.
    Mr. Ehlers. Thank you very much.
    Chair Lipinski. Thank you, and we are about seven minutes 
left in the vote, although we might have a little more time 
because not many Members have gotten down there. But I just 
wanted to--one thing I was going to ask, I was just going to 
throw out there quickly, Dr. Ferrini-Mundy had talked about the 
Nanoscale Informal Science Education Network Initiative. I am 
not going to ask you to do it here for lack of time, but I 
would certainly like to hear more about that and how it was 
developed and the ongoing work with that because I really am a 
strong supporter. I really believe, I have said many times that 
I have drunk the Kool-Aid and believe nanotechnology is the 
next Industrial Revolution. I truly believe that, and I think 
it is something that people ought to be educated more about.
    But I want to thank all the witnesses for their testimony 
today. I had mentioned how I had always been excited by science 
engineering, going to the Museum of Science and Industry. I 
certainly watched PBS an awful lot. I probably would have been 
better off if I would have watched more, maybe, and I was a 
member of the Brookfield Zoo when I was a kid and spent a lot 
of time there at the zoo and learned a lot there.
    So I appreciate very much the importance of informal 
science education. I think we need to continue to do more. It 
is good to hear your testimony, but to anything further down 
the line that you can recommend to us that we can do here on 
the federal level to help with this, we certainly do want to 
hear from you. And I just want to say the record will remain 
open for additional statements from the Members and for answers 
to any follow-up questions the Committee may ask of the 
witnesses, and with that, the witnesses are excused and the 
hearing is now adjourned.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions
Responses by Joan Ferrini-Mundy, Director, Division of Research on 
        Learning in Formal and Informal Settings, Directorate for 
        Education and Human Resources, National Science Foundation

Questions submitted by Chair Daniel Lipinski

Q1.  In your testimony you discussed the challenge of appropriately 
assessing arid evaluating learning in informal environments, Please 
elaborate on the standards and benchmarks currently used to evaluate 
the impact of informal STEM education programs funded by the NSF. What 
is NSF doing to continue to develop anti improve metrics for 
evaluation?

A1. The NSF has assumed a lead role--drawing on the expertise ire its 
Informal Science Education (ISE) program--in creating a framework of 
broad categories of potential project impact. In 2008, NSF published an 
online guidebook, Framework for Evaluating Impacts of Informal Science 
Education Projects (http://www.informalscience.org/research/show/3643). 
The guidebook helps Principal Investigators (PIs) develop appropriate 
research designs for the evaluation of their projects.
    Five impact categories for the assessment of informal education and 
outreach are discussed in the guidebook (pp. 22-23):

        <bullet>  Awareness, knowledge, or understanding of STEM 
        concepts, processes, or careers

        <bullet>  Engagement or interest in STEM concepts, processes, 
        or careers

        <bullet>  Attitude towards STEM-related topics or capabilities

        <bullet>  Behavior resulting from experience

        <bullet>  Skills based on experience.

    These categories represent the types of impacts that are desirable 
as a result of informal science education activities, and provide a 
possible framework for standards and benchmarks in the field. The 
guidebook provides detail about the elements of each of these types of 
impacts; for example, ``engagement or interest'' is elaborated for 
public audiences as ``measurable demonstration of assessment of, change 
in, or exercise of engagement/interest in a particular scientific 
topic, concept, phenomena, theory, or careers central to the project.'' 
(p. 21). An impact relative to engagement ``could be supported by 
evidence that a project deliverable has evoked short-term interest, or 
has strengthened prior longer-term interest, in a topic or area of 
STEM.'' (p. 22).
    The guidebook also includes recommendations on study designs, 
assessment strategies, examples, and resources to help potential 
awardees who may be unfamiliar with evaluation of learning in informal 
settings. The NSF solicitation for the ISE program points directly to 
this document. Also, project-level evaluation was a primary focus of 
the 2009 conference for all PIs supported under the ISE program. As 
projects reach completion, information about their outcomes is captured 
in an online project monitoring system for future analysis and 
synthesis. Some projects provide self-generated quantitative benchmarks 
for the analysis of their outcomes, though this has not been mandatory 
because the idiosyncratic nature of impacts and audiences makes for 
large, inherent variability in expected outcomes.
    The NSF-funded National Research Council report, Learning Science 
in Informal Environments (2009) includes a ``strands of science 
learning'' framework that proposes the types of science-specific 
outcomes that might be sought through informal learning environments. 
According to this framework, learners in informal environments:

        1.  Experience excitement, interest, and motivation to learn 
        about phenomena in the natural and physical world.

        2.  Come to generate, understand, remember, and use concepts, 
        explanations, arguments, models, and facts related to science.

        3.  Manipulate, test, explore, predict, question, observe, and 
        make sense of the natural and physical world.

        4.  Reflect on science as a way of knowing; on processes, 
        concepts, and institutions of science, and on their own process 
        of learning about phenomena.

        5.  Participate in scientific activities and learning practices 
        with others, using scientific language and tools.

        6.  Think about themselves as science learners and develop an 
        identity as someone who knows about; uses, and sometimes 
        contributes to science. (p. ES-3, Prepublication Copy).

    Together, the framework and the strands provide the basis for the 
development of more specific standards and benchmarks.
    The NRC report also includes a chapter on contemporary evaluation 
issues, approaches, and methods to help move the field forward. 
Synthesis documents such as this provide us with the information we 
need in order to advance the field of evaluation of informal science 
education/outreach.
    The Foundation also utilizes online resources to improve evaluation 
of informal science education activities. For example, the NSF 
Innovative Technology Experiences for Students and Teachers (ITEST) 
program sponsors a Learning Resource Center web site where ITEST 
project staff can share information and explore evaluation and 
assessment practices. It is hoped this type of online community will 
encourage evaluators to collaborate in the development of standard 
instruments. Several DRL program solicitations include invitations for 
proposals to explore assessment methods.

Q2.  In your testimony, you used the Nanoscale Informal Science 
Education (NISE) Net initiative as an example of a collaborative effort 
at the Foundation to broaden participation through informal STEM 
education. Could you elaborate on the development and ongoing work of 
NISE Net? Has the NISE Net program been evaluated yet? If so, what are 
tire findings?

A2. The Nanoscale Informal Science Education Network (NISE Net) was 
funded by NSF in FY 2005 through a five-year cooperative agreement with 
the Museum of Science in Boston, Massachusetts in partnership with the 
San Francisco-based Exploratorium and the Science Museum of Minnesota, 
along with many other organizations. Its purpose is to increase public 
awareness and understanding of, and engagement with, nanoscale science 
and technology through formation of a national network consisting of 
science museums linked with nanoresearch centers. Through its growing 
number of partners, NISE Net has been developing a ``catalog'' of 
exhibit units, demonstrations, programs, forums, media, and other 
resources, as well as a community of practice around their development 
and use (see www.nisenet.org). For example, NanoDays was established 
last year as a rational week-long series of educational activities 
supported by the NISE Network. This year, during the period March 28 
through April 5, more than 200 sites in 48 states, the Commonwealth of 
Puerto Rico, and the District of Columbia are expected to take part.
    Evaluation is integral to NISE Network activities. To guide 
educational efforts, front-end studies were developed in order to 
gather initial data on public awareness and understanding. Resources in 
the ``catalog'' mentioned above were developed and are being improved 
through ongoing collaborative, formative evaluation. Since the project 
is not yet in its final year, summative evaluations have not been 
completed; however, some initial findings are available. For example, 
based on a sample of museum visitors exposed to nano-topic programs, 
exhibits, forums and activities, significantly more of the treatment 
group than the control group reported an awareness of benefits and 
risks of nanotechnology [Multi-media Research (Bellport, New York, 
September 2008) Summative Evaluation of Awareness of Nanotechnology by 
the Museum Public]. Participants in another study who were engaged in a 
public forum on the potential societal impacts of nanotechnology showed 
gains in knowledge and awareness of viewpoints other than their own 
[Multi-media Research (Bellport, New York, September 2008) Summative 
Evaluation of NISE Network's Public Forum: Nanotechnology in Health 
Care]. This study also demonstrated the multiplier effort of inspiring 
significant portions of attendees to discuss with others what is 
nanotechnology and its associated benefits and risks. Additional 
studies are being carried out, including an evaluation of the 
effectiveness of the Network itself.

Questions submitted by Representative Vernon J. Ehlers

Q1.  What are the biggest research questions in need of answers in the 
field of informal science education?

A1. Little formal research has been conducted on the relationship 
between largely voluntary activities and their consequent impacts on 
STEM learning and continued engagement with science. There are 
questions and issues in several areas that deserve study and research.
    The most pressing questions have to do with the effectiveness of 
learning in the intersection of formal and informal learning 
environments:

         What is the optimal relationship between institutions of 
        informal learning and institutions of formal learning, 
        particularly in anticipation of dynamic shifts due to cyber-
        learning? What are better models of formal-informal 
        collaboration than just good field trips or teacher 
        professional development, and what do we know about their 
        effectiveness? What are the key elements of effective models 
        for coupling the strengths of the formal environments (emphasis 
        on abstractions, symbolic learning, and reflection aided by a 
        knowledgeable guide) with the strengths of the informal 
        learning environments (direct access to phenomena, self-
        directed learning, affective components)? How can the informal 
        education community's strong understanding of motivation and 
        audience needs be more accessible and useful in the formal 
        education environment?

         In addition, questions about outcome measures and the nature 
        of learning in informal settings also need to be addressed:

         As noted in the NRC study (Learning Science in Informal 
        Environments), learning can comprise multiple strands. How are 
        they woven together in informal settings? For example, how does 
        affective learning (learning that is emotion-based and often 
        driven by curiosity) relate to cognitive understanding or 
        building a science-related identity?

         Finally, ongoing work is needed to address learning over the 
        lifespan, the role of technology, and the creation of a 
        theoretical base:

         How do people maintain and gain new knowledge of modem and 
        emerging science throughout their lives? Do informal science 
        institutions play a major role in increasing the science 
        knowledge of learners as they age and participate in the 
        activities and requirements of democracy? What other 
        information sources and settings provide lifelong learning 
        opportunities in science, and what features are most effective? 
        How do learners currently transition across settings/media/
        communities as they learn science throughout their lives? What 
        are the barriers to creating a sustainable, custom-designed 
        trajectory of life-long learning of science?

         How can new technologies and participatory models (like Web 
        2.0, simulations and virtual activities) be harnessed to create 
        a K-to-gray environment where all people play the roles of 
        teachers and learners in their lives? What are the essential 
        design principles of this kind of cyber-enhanced learning 
        infrastructure?

         What kinds of intellectual infrastructures will be effective 
        for building knowledge in the field of informal learning? What 
        kind of structure will support accumulation of results of 
        research and evaluation, building on the wisdom of practice, 
        and involving both researchers and practitioners in a common 
        endeavor? How do we effectively utilize cyber-learning 
        technologies so that the field creates, maintains its own truly 
        useful knowledge base?

Q2.  How is the existing research made available to the diverse group 
of informal science practitioners?

A2. The NSF sponsors and supports a major online resource 
[InformalScience.org] to promote and advance the field of informal 
learning in science and other domains. This site is a place to share 
knowledge and support a community of learners to inform informal 
science learning theory, evaluation, standards and practices. The web 
site was redesigned in September 2008 and, subsequent to the site 
renovation, log server data is now collected. Based on Google Analytics 
reports for September 2008-March 2009 (seven months), the site received 
16,294 unique visits (avg. 2327/month). It served 84,328 individual 
page views (avg. 12,046/per month) with an average of 5.18 pages viewed 
per visit. The site sustained a healthy 00:04:18 average time-on-site 
and over 70 percent were new site visits with a unique IP address. The 
most heavily used sections of the site ordered by content type were 
Member Pages, Research, Projects, Evaluation and Events. As of 30 March 
2009, the site has 218 members, a searchable/downloadable repository of 
168 evaluation reports (summative, formative, and front-end) that are 
largely NSF/ISE funded. The research literature database contains 7,628 
references relevant to the field of informal learning and science 
education and the site maintains a calendar of important events, 
conferences, seminars, and funding deadlines.
    The NSF-funded Center for Advancement of Informal Science Education 
(CAISE) provides online tools and resources that connect the informal 
science education community by stimulating conversation and 
collaboration across the entire field--including broadcast media, 
science centers and museums, zoos, and aquariums; botanical gardens and 
nature centers, digital media and gaming, science journalism, youth, 
community and after-school programs. CAISE is a partnership among NSF, 
the Association of Science-Technology Centers, Oregon State University, 
the University of Pittsburgh Center for Learning in Out-of-School 
Environments, and the Visitor Studies Association. Inverness Research 
Associates serves as evaluator.
    NSF-funded reports (i.e., the NRC Learning Science in Informal 
Environments and the Frameworks for Evaluating informal Science 
Education Projects) contribute to the dissemination of new knowledge, 
as well as scholarly contributions to professional journals such as the 
Journal of Museum Education, Curator, Science Education, and the 
Journal of Research in Science Teaching. NSF program staff lead and 
participate in regional and national conferences such as the American 
Educational Research Association, the Association of Science and 
Technology Centers, the Visitors Studies Association, National Science 
Teachers Association, and the National Association of Research in 
Science Teaching.
                   Answers to Post-Hearing Questions
Responses by Philip Bell, The Geda and Phil Condit Professor of Science 
        and Math Education, Associate Professor of the Learning 
        Sciences; Director, Institute for Science and Mathematics 
        Education, University of Washington, Seattle; Co-Chair, 
        Committee on Learning Science in Informal Environments, Board 
        on Science Education, National Academy of Sciences, The 
        National Academies

Questions submitted by Representative Vernon J. Ehlers

Q1.  What are the reasonable outcomes/goals for informal science 
learning environments on which evaluations should be based? How can the 
controversy over defining such outcomes be removed? Are the ``six 
strands'' formatted in a user-friendly way for informal science 
programs to utilize?

A1. The NRC Learning Science in Informal Environments report advances 
the six strands of science learning (introduced in Chapter 2) as the 
set of comprehensive outcomes that relate to the educational 
opportunities associated with informal environments and experiences. 
The summaries and findings of research and evaluation studies included 
in the report are largely framed in terms of the six strands in a way 
that we hope allows informal science researchers, evaluators, 
developers and informal staff to see how the six theoretically-grounded 
strands relate to their activities. The follow-on NRC volume that is 
currently in development called Surrounded by Science is intended for 
the practitioner audiences. It is designed to make the six strands--and 
the findings of the research report, more generally--accessible to a 
broader audience by documenting in a more practical way how they relate 
to a set of case studies from informal science education.
    One of the main challenges at present in the informal science 
education field is the development of means for assessing participants' 
learning across the range of experiences. Currently, studies that 
measure similar constructs often include unique measures, scales, or 
observation protocols. The NRC committee believed more attention should 
be given to the development of systematic, shared measures and methods 
for understanding and assessing learning in evaluation and research 
studies, especially if researchers and evaluators are to attempt 
assessment of cumulative learning across different episodes and in 
different settings. Evaluations do need to attend to unique program 
elements and local contextual features, but the committee was convinced 
that there were many benefits to be gained from evaluation activities 
being more explicit about their theoretical foundations. We proposed 
the six strands as the core dimensions of learning to attend to in 
those efforts.
    It should also be said that the committee was convinced that 
researchers and evaluators should use assessment methods that do not 
violate participants' expectations about learning in informal settings. 
Learners in informal environments are often motivated by a range of 
factors, including entertainment, family care, tourism, etc. and so 
engage in these settings with related expectations (e.g., enjoyment, 
family bonding, etc.). The educational measures and methods associated 
with formal academic learning experiences are frequently problematic in 
this regard. Methods should address the science strands, provide valid 
evidence across topics and venues, and be designed in ways that allow 
educators and learners alike to reflect on the learning taking place in 
these environments. Chapter 3 of the NRC report provides significant 
detail on state-of-the-art assessment methods related to the six 
science learning strands.

Q2.  Where do you go to find research when developing ISE programs? 
Have you used NSF-funded or other federal agency-funded research? Are 
you aware of the 2008 Framework for Evaluating Impacts of Informal 
Science Education Projects mentioned by Dr. Ferrini-Mundy? And can you 
provide examples of how federally-sponsored educational research has 
been applied to existing programs?

A2. The NRC committee found that the literature on learning science in 
informal environments is vast, but the quality of the research is 
uneven, at least in part due to limited publication outlets (i.e., 
dedicated journals and special editions) and a lack of incentives to 
publish for many researchers and evaluators in non-academic positions. 
We recommended that researchers, evaluators, and other leaders in 
informal education should broaden opportunities for publication of 
peer-reviewed research and evaluation, and provide incentives for 
investigators in nonacademic positions to publish their work in these 
outlets.
    The committee concluded that further development of common 
frameworks, standards of evidence, language and values will require new 
ways to share knowledge and expertise. Several leading thinkers have 
recognized this need. Journal special issues, the new Center for 
Advancement of Informal Science Education (CAISE), and 2008 framework 
from the National Science Foundation on evaluating the impact of 
informal science education have initiated and furthered this work, with 
the goal of contributing to better knowledge integration. We are not 
aware of a systematic comparison of our NRC Learning Science in 
Informal Environments consensus volume and the 2008 Framework for 
Evaluating Impacts of Informal Science Education Projects (mentioned by 
Dr. Ferrini-Mundy during the hearing). However, two of the NRC 
committee members also served on the committee that authored the 
Framework report. They have stated to me that the two reports are 
intellectually compatible and mutually informative. It seems to me that 
the NRC report provides a theoretical framing for how to conceptualize 
and approach evaluation work for different purposes and points to 
state-of-the-art assessment methods while the Framework report provides 
more extended treatment of the specific measures and methods that could 
used for different venues and configurations for informal science 
activities.
    When the NSF funded the NRC Learning Science in Informal 
Environments consensus volume, one of its goals was to compile the 
high-quality research from informal science education together into one 
volume so that it could serve as a guiding resource for that quickly 
developing field. The committee hopes that this research report and the 
follow-on practitioner volume, Surrounded by Science, serve that 
function to a useful degree. Much of the initial reaction from 
practitioners to the NRC report has been in this direction; they say 
that it captures in words much of the wisdom of practice as they 
understand it. Researchers have reported that the volume will help 
frame productive discussions within the field that will help guide its 
development.
    Beyond the NRC volume, the NSF has been developing resources that 
allow the work of the informal science education field to be 
increasingly cumulative and impactful. The online portals, 
InformalScience.org and the ExhibitFiles.org, as well as the more 
recently funded Center for Advancement of Informal Science Education 
(CAISE), a coordinating effort for the field, are leading examples in 
this regard. My personal sense as a learning scientist is that 
InformalScience.org is heavily used by researchers, program and exhibit 
developers, and evaluators looking to build upon prior projects, much 
of which is federally funded work. In fact, recently funded projects 
under NSF's informal science program are required to post project 
evaluations to InformalScience.org. Clearly, the results of prior 
federal investment are being used in significant ways to inform new 
developments in the field. Program officers within the NSF's Informal 
Science Education program would have a detailed sense of these 
historical lineages in the work.
                   Answers to Post-Hearing Questions
Responses by Andrea J. Ingram, Vice President, Education and Guest 
        Services, Museum of Science and Industry, Chicago

Questions submitted by Representative Ralph M. Hall

Q1.  Your teacher professional development workshops sound very 
successful. I am impressed that you offer these workshops, lesson plans 
and follow-up materials to these teachers at no cost AND fund their 
substitute teacher while they attend AND provide a class field trip 
afterwards. How long have you been doing these? How many teachers have 
participated? How are they selected? And, how is this program funded?

A1. The Museum's Institute for Quality Science Teaching has offered a 
year-long teacher professional development workshop series since the 
2006-07 school year, making this the third year of the program. Since 
the program began, 320 teachers have participated in the year-long 
series. We also work with an additional 700 teachers annually in other 
workshops ranging from half-day sessions to three-day programs. Our 
entire scope of professional development programs cost $565,000 
annually and are supported with funds raised by the Museum from 
individuals, corporations, and foundations.
    The workshop series uses an application-based process to select 
participants. We consider how many years an applicant has taught 
science, his comfort with teaching science, grades taught (we target 
4th through 8th grade), and previous professional development 
experience in science. Our goal is to enable teachers who most need our 
help. We aim to work with teachers who are new to the profession as 
well as those who are more seasoned but are new to teaching science. We 
consider an applicant's school to help ensure that we work with high-
need schools largely in the Chicago Public Schools system but also from 
high-need suburban and parochial schools. Teachers are required to 
apply in pairs from schools--to ensure shared resources and continuity 
within a school--and principals are required to indicate their support 
of their teachers participating in this program.

Q2.  Could you expand a bit on your Community Initiative programs, 
specifically the Science Minors youth development program and Science 
Achievers program. I am especially interested to know if you are 
following these students after they finish high school to see if they 
continue their education and, if so, choose to pursue a STEM major? If 
not, I would certainly encourage you to do so, as I believe this would 
be a real measure of the programs' success. As the program matures, it 
would be interesting to see if they continue with a career in a STEM 
field.

A2. The focus of the Science Minors series of programs is on children 
and teens in the community who are in need of new opportunities. The 
series includes three levels of engagement which reach over 5,000 
students each year. Teens in the Science Minors youth development 
program attend 10 weeks of science education and training by Museum 
staff and outside scientists and volunteer to demonstrate science 
experiments for Museum guests. Throughout their work, Science Minors 
gain a better understanding of science, a first-hand look at science 
career opportunities, and public speaking skills. Since the program's 
debut in 2003, about 400 teens have participated.
    In the most engaging level, Science Achievers pursue more rigorous 
science topics and prepare for college and careers. These teens 
participate in internships, mentor new classes of Science Minors and 
even facilitate Science Minors Clubs. They have access to more advanced 
science experiences and receive additional college and career 
readiness. This program is based on research that indicates programs 
that incorporate role models, internships, and college-preparation 
activities have been shown to increase self-confidence and interest in 
STEM courses and careers, as well as improving science knowledge and 
skills and graduation rates. About 100 students participate each year.
    We have built a network to provide ongoing support to and 
communications with our students who have gone on to college. Through 
social networking sites like Facebook, Museum staff members maintain 
relationships with grads and invite them back for programs held 
throughout the year. Last year, 20 of the 24 participants who were 
seniors received full or partial scholarships. We know at least half of 
last year's graduates are currently interested in STEM majors.
    To fully understand the impact of our programs, we are working with 
the Chapin Hall Center for Children at the University of Chicago on a 
project to collect longitudinal data on our students. Chapin Hall has 
submitted a grant to the National Science Foundation to help fund this 
effort.

Q3.  The House recently reauthorized the National Nanotechnology 
Initiative. During consideration of this measure in the last Congress, 
we heard from many groups that the general public needs to be better 
informed on the pros and cons of the use of nanotechnology. What role 
do, or could, your organizations play in public awareness campaigns 
such as this?

A3. The Museum has several initiatives related to this issue. We are 
connected with NISE-NET and are participating in their NanoDays 
program--a week-long series of hands-on activities for the public about 
nanoscience and technology. Museum staff members as well as 
Northwestern University graduate students are conducting these 
activities for Museum guests March 28-April 4, 2009. We will continue 
this program in subsequent years.
    The Museum also is in the process of developing a permanent 
exhibition on nanotechnology that will feature basic information as 
well as new developments in nanoresearch and applications.
    The Museum produced a symposium on ``Innovations in 
Nanotechnology'' on Jan. 26, 2008. This event was supported by the 
American Academy for the Advancement of Science as a sub-award from an 
NSF grant. The audience was middle- and high school students, their 
parents, teachers, and Museum of Science and Industry members. The 
symposium was done in collaboration with the University of Chicago and 
Northwestern University. We produced a DVD with education 
demonstrations which will be posted on the Museum's website.
    The Museum also was the location for an episode of PBS's 
``Dragonfly TV'' science show that featured nanoscience. The episode, 
``Small is Different,'' was filmed in summer 2008 and aired in fall 
2008 on PBS stations across the country. In the episode, the young 
stars, Chicagoans Alettie and Yvonne, learn that nanoparticles are 
responsible for the colors in some medieval stained glass and see that 
nanogold makes glass red.

Questions submitted by Representative Vernon J. Ehlers

Q1.  Where do you go to find research when developing ISE programs? 
Have you used NSF-funded or other federal agency-funded research? Are 
you aware of the 2008 Framework for Evaluating Impacts of Informal 
Science Education Projects mentioned by Dr. Ferrini-Mundy? And can you 
provide examples of how federally-sponsored educational research has 
been applied to existing programs?

A1. When developing ISE programs, we utilize publications and resources 
from a variety of resources including the National Research Council, 
U.S. Department of Education, Illinois State Board of Education, 
American Association for the Advancement of Science (AAAS) Project 
2061, National Science Teachers Association (NSTA), 
Informalscience.org, the Association of Science and Technology Centers 
(ASTC), the Education Development Center (EDC) and the Coalition for 
Science After School to inform our practices. The 2008 Framework for 
Evaluating Impacts of Informal Science Education Projects has been 
reviewed and we have started integrating the framework into our 
planning and development efforts.
    Staff with our Center for the Advancement of Science Education use 
federally funded research to develop programs for teachers and school 
groups. This includes our year-long professional development workshops 
series and our hands-on Learning Lab programs for school groups 
visiting the Museum. We use a range of materials from AAAS Project 
2061, including the Atlas for Science Literacy, Benchmarks for Science 
Literacy, and Science for All Americans, to match program content to 
what students need to learn as they move from kindergarten through 12th 
grade. By identifying key ideas, the connections between those ideas, 
and the ages at which students are most ready to learn them, these 
tools provide a framework for effective science instruction. For 
example, in our Get Energized! teacher professional development 
workshop series, we use the Atlas to select which energy topic to cover 
at what time. Our curriculum introduces mechanical energy before moving 
on to electrical energy, thermal and sound energy, and light energy.
    Our efforts have been recognized by AAAS Project 2061, which 
enlisted our help to develop and host a recent workshop for science 
museum staff called ``Using Atlas of Science Literacy in Informal 
Science Learning Settings.'' This workshop was the first time the 
materials were presented specifically for an informal science 
institution audience.
                   Answers to Post-Hearing Questions
Responses by Robert M. Lippincott, Senior Vice President for Education, 
        The Public Broadcasting Service (PBS)

Questions submitted by Representative Ralph M. Hall

Q1.  Who developed the content for the lesson plans, interactive 
resources and classroom activities for PBS Teachers, your web service 
for pre-K-12 educators, and for PBS TeacherLine, your professional 
development of teachers service? How are these products reviewed and 
assessed and how are they correlated to state standards, given the 
broadness of these standards?

A1. PBS Teachers and the associated websites on PBS.org, including PBS 
TeacherLine, have been designed and developed by educators, educational 
consultants and public media producers working with PBS and local PBS 
stations. Each has its own advisory group (see attachment).
    The kinds of resources sought, and the topics needed for PBS 
Teachers are specified by the Teacher Advisory Group, a select team of 
educators who meet monthly by phone and annually in Washington, DC, to 
review and guide the development of the PBS Teachers sites.
    PBS TeacherLine has a national advisory group of educational 
leaders who oversee the professional development services offered and 
how these services are correlated to state needs. The group meets via 
webinar four times per year to review iterative formative product 
research and to provide guidance on development. The research and 
evaluation of the services that are most needed and that prove most 
effective begin with formative research and include longitudinal 
studies. The evaluation components of our services are critical to 
maintaining their educational quality and are supported by 
approximately one-quarter of the total budget.
    Each resource submitted is carefully reviewed for accuracy and 
utility by PBS education content managers. It is then assigned a grade 
level and tagged with the metadata that will allow it to be more 
precisely searched by users. The fields of metadata include standard 
descriptors, including the title and type of resources. We are 
currently working with teachers to ensure that the resources are 
aligned to the state standards from each of the 50 states.
    PBS will use the services of a nationally recognized vendor 
competitively selected for quality of service and utility of alignment 
to encode the state educational standards alignment. Each of these 
alignments are reviewed by PBS editors, and the materials are 
commissioned by PBS or contributed by stations and producers. As I 
mentioned in my testimony, with the launch of our new project we call 
EDCAR, the Educational Digital Content Asset Repository, these 
standards-based lesson plans will be available to educators nationwide 
later this year.

Q2.  You testified that less than 20 percent of PBS funding is federal 
dollars. Approximately what percentage of that federal money is spent 
on STEM education activities, and which federal entities are the 
sources of the funds? In what other ways are PBS STEM education 
activities supported? How closely do you work with industry, and please 
describe some of those partnerships?

A2. Technically, PBS itself does not receive any federal dollars 
specifically dedicated to STEM activities. However, PBS' online and on-
air content constitutes a wide array of informal learning resources, 
many of which focus on the areas of science, technology, engineering 
and mathematics. All sources of funding are invested by PBS for the 
public media production community, according to the programming 
interest and educational needs of our member stations and the American 
public.
    The money that we receive from CPB and other federal sources, such 
as the Department of Education, are invested in content that spans many 
genres and individual projects such as our interconnection system--the 
infrastructure that allows PBS to distribute programming to local 
public television stations--as well as Ready To Learn and TeacherLine.
    Our system-wide Science, Technology, Engineering and Mathematics 
(STEM) Collaborative is creating digital education resources that will 
ensure that students and educators have access to high-quality, 
standards-based digital education content--in each of the STEM areas. 
Within the first stage of the EDCAR launch, we are primed to have a 
significant pool of digital content focused on topics such as climate 
science and other STEM-related areas. We understand that television and 
on-air programs are a just one part of the entire informal learning 
environment approach. Online broadband access and digital media are 
dramatically changing the opportunities and challenges the Nation's 
educators have to improve STEM education. As one educator noted to us 
when describing her classroom:

         ``I have found both video and lessons very helpful. The 
        website is also fun for students. I use the videos as focuses 
        in some of the classes and the lessons are pretty awesome. 
        Other than videos students completed an interactive activity 
        called Building Big, which helped them understand many concepts 
        that go into the construction of buildings. They used this 
        knowledge to construct their own earthquake proof building 
        which was later tested.'' --Sally from Texas, PBS Teacher

    Several of our stations are partnering with education organizations 
to determine the key needs of STEM awareness and how to engage people 
in the subject. Currently, 74 percent of our stations offer education 
services that address STEM content. There are plans to create half-hour 
and hour-long programs; feature STEM related content on existing 
magazine programs; and run interstitial programming--30-to-60 second 
programs that air between our longer shows--with enough frequency to 
impact the viewer.
    We continue to work very closely with higher education 
institutions. Nearly 70 percent of our stations have established 
partnerships with universities. For example, for the past three years, 
WFSU in Tallahassee has partnered with Florida State University's 
laboratory to develop a two-week, hands-on science camp for 80 seventh 
and eighth grade girls with support from local engineering firms. The 
camp had tremendous success and has become a signature event for WFSU.
    PBS TeacherLine partners with 23 colleges and universities in all 
50 states (see attachment) to provide professional development on STEM-
related topics. PBS develops its TeacherLine online professional 
development courses through collaborations with organizations such as 
the International Society for Technology in Education (ISTE), the 
National Council of Teachers of Mathematics (NCTM) and the Concord 
Consortium. PBS Teachers also provides free STEM-based webinars to 
educators, hosted by educational experts, authors and program 
producers.
    As previously noted, many of our award-winning science and math 
television programs--NOVA, CYBERCHASE, DRAGONFLYTV and DESIGN SQUAD--
are leaders and models, and many of these programs are funded by 
industry partners, such as the National Science Foundation (NSF):

        <bullet>  NOVA, which receives funding from several 
        organizations, including ExxonMobil, has consistently been the 
        #1 most-used video resource in all U.S. high school classrooms, 
        including all public, cable and network programs, according to 
        studies conducted by Grunwald Associates over the past several 
        years.

        <bullet>  CYBERCHASE--the only math series for children on 
        American TV--reaches five million viewers weekly and receives 
        major funding from NSF, Northrop Grumman and Ernst & Young. The 
        program's companion website, CYBERCHASE Online, has had more 
        than 1.7 billion page views. According to a study conducted by 
        MediaKidz Research & Consulting, students who watched 
        CYBERCHASE found solutions to math problems that were 
        mathematically more sophisticated than students who did not 
        watch the series.

        <bullet>  DRAGONFLYTV--the only all-science television show for 
        elementary and middle-school kids--receives major funding from 
        NSF and Best Buy Children Foundation. Because the show 
        encourages students to pursue careers in science, each episode, 
        along with its website, features a ``Real Scientist'' segment, 
        which highlights scientists discussing their chosen career. 
        This is noteworthy, considering that ``75 percent of Nobel 
        Prize winners in the sciences report that their passion for 
        science was first sparked in an out-of-school environment.''

        <bullet>  DESIGN SQUAD is a show in which kids compete in a 
        series of engineering challenges for a chance at a college 
        scholarship. The show receives major funding from the Intel 
        Foundation and additional funding from the National Council of 
        Examiners for Engineering and Surveying, United Engineering 
        Foundation (which comprises ASCE, ASME, AIChE, IEEE, AIME), 
        Noyce Foundation, Northrop Grumman, the IEEE and the Intel 
        Corporation. The show has worked to address a critical need in 
        engineering education and children's television. Since 2007, 
        DESIGN SQUAD and its partners have held 75 trainings for 2,900 
        engineers and educators and involved 94,805 kids and families 
        in engineering activities.

    With additional investment, PBS could do even more to advance STEM 
education in informal learning environments.

Q3.  The House recently reauthorized the National Nanotechnology 
Initiative. During consideration of this measure in the last Congress, 
we heard from many groups that the general public needs to be better 
informed on the pros and cons of the use of nanotechnology. What role 
does, or could, your organization play in public awareness such as 
this?

A3. Nanotechnology, as you might recall, was the subject seen during 
the audio-visual part of my testimony highlighting our website 
pbskidsgo.org, which is aimed at elementary school-aged children. The 
site allows a user to find video clips that focus on a particular 
subject--in this case, nanotechnology--send the clip to a friend, play 
the full episode of the program that contained that clip and even play 
a game that relates to the video. This video was just one of the many 
multi-media interactive features of DRAGONFLYTV's website. DRAGONFLYTV 
is the only all-science show for elementary and middle-school kids on 
television today.
    In November 2008, DRAGONFLYTV focused its entire seventh season on 
nanotechnology, with the premiere of DRAGONFLYTV as part of a special 
grant-initiative funded by NSF. The series was among the first 
television science series to explore this subject area and informed a 
mass audience about the revolutionary advances taking place in 
nanoscience and nanotechnology. The series is seen by more than one 
million people each week and airs on nearly 200 public television 
stations nationwide. And because 14 million children compose our 
audience, our award-winning programs such as DRAGONFLYTV and NOVA have 
educated children, adults and educators on this emerging field.
    Nanotechnology is a topic covered by PBS for nearly a decade, 
currently reaching more than 65 million people weekly, our news and 
public affair programs, such as NIGHTLY BUSINESS REPORT, NEWSHOUR WITH 
JIM LEHRER and CHARLIE ROSE, have all highlighted the benefits and 
issues of concern raised by nanotechnology.
    With adequate funding, our vast reach, strong partnerships, 
innovative producers and high-quality programs leave us well-positioned 
to successfully address a range of timely and relevant topics from 
science to literacy. PBS continues to bring a 360-degree approach to 
address topics that affect all Americans.

Questions submitted by Representative Vernon J. Ehlers

Q1.  Could you elaborate on your discussion of the need for national 
academic standards so that broadcasters, too, have a clearer target 
upon which to focus?

A1. As I noted in my testimony, PBS is in full agreement with the 
Council of Chief State School Officers, that it would be more useful 
and powerful to have a single set of national statements (in the words 
of a Gates Foundation report) that are ``fewer, higher, and clearer'' 
standards shared by all 50 states. This would allow public media and 
other educational producers to focus more efficiently their creativity 
and innovation on the shared goals of the Nation's educators. Not 
incidentally, it would also serve the Nation's educators and students, 
allowing a stronger, fairer basis for each learner, teacher, school and 
state to chart and track progress and achievement.
    PBS and its production community pride themselves on creativity and 
effectiveness as educational media producers. We have traditionally 
been focused on the appeal and the ability of media to attract and to 
hold the attention of the learning audience. In service to school 
populations, it is critical that we have aligned ourselves to the tasks 
teachers need to accomplish. There is no more powerful statement of 
those tasks than the state standards that every state has articulated. 
However, the detailed nature of these standards, the sheer number of 
different--similar, but not the same--statements of goals, benchmarks 
and milestones reflects the individuality of every state (indeed, 
Kentucky has three sets of such standards). This makes for a burdensome 
task, absorbing financial resources well beyond the costs of design and 
production, of aligning media and teaching resources to such a database 
and further, for maintaining that alignment as standards are revised.

Q2.  Where do you go to find research when developing ISE programs? 
Have you used NSF-funded or other federal agency-funded research? Are 
you aware of the 2008 Framework for Evaluating Impacts of Informal 
Science Education Projects mentioned by Dr. Ferrini-Mundy? And can you 
provide examples of how federally sponsored educational research has 
been applied to existing programs?

A2. The producers of PBS informal science television program and online 
content are well-versed in NSF research and use this knowledge when 
developing programs. In some cases, we have benefited from having 
leading experts host our shows for example, Neil deGrasse Tyson, host 
of NOVA scienceNOW. He is a renowned astrophysicist who has served on 
several presidential science-based commissions and often provides his 
insight and knowledge to the program.
    The PBS staff includes former teachers in both our education and 
programming departments. PBS KIDS content begins with curriculum, and 
series are created to build knowledge, critical thinking, imagination 
and curiosity. For example, SID THE SCIENCE KID, which debuted in 
September 2008, is based in national science learning standards, 
cognitive learning theory and on the preschool science curriculum, 
Preschool Pathways to Science.
    I am aware of the 2008 Framework for Evaluating Impacts of Informal 
Science Education Projects; many of our producers apply it when 
creating programs. NSF continues to be a major funder of many of our 
award winning science and math television programs, including 
CYBERCHASE, the only math series for children on American TV, and 
DRAGONFLYTV, the only all-science show for elementary and middle-school 
kids on television today.
    In late 2007, DRAGONFLYTV started an interesting experiment in 
informal science education. This experiment involved the collaboration 
between DRAGONFLYTV and a total of 30 science museums. This 
collaboration resulted in putting science museums on television for the 
first time in an ongoing childrens series. Each episode was based on 
students visits to science museums, carrying out science inquiry and 
then continuing that inquiry outside the institution, as well as 
learning about careers in STEM. As required by NSF-affiliated ISE 
programs, the summative evaluations of this experiment and other NSF-
funded programs such as CYBERCHASE are all posted on the website 
informalscience.org.
    In the case of DRAGONFLYTV's evaluations, students were generally 
positive about replicating the science investigations they saw modeled 
on television. As a result, DRAGONFLYTV continued its collaboration 
with science museums for the next season.
    We have also received feedback from educators on informal science 
education such as:

         ``We enjoy programs that combine math and science skills to 
        promote learning. One of our favorite ways of learning is 
        through TV science and animal programs and Internet sites. The 
        kids love to watch educational programs on TV and then play 
        related online games and search for more related information on 
        what they have learned.'' --Terri from South Carolina, PBS 
        Teacher

    As I mentioned in my testimony, we continue to engage academic and 
research partners in universities and key government agencies, 
including NSF, the National Institutes for Health, NASA and NOAA.

Appendix A

                     PBS TEACHERLINE ADVISORY GROUP

    Our Advisory Board includes leaders from educational institutions 
and professional organizations.

Chris Dede is the Timothy E. Wirth Professor of Learning Technologies 
at Harvard Graduate School of Education.

Barry Fishman is an Associate Professor of Learning Technologies in the 
University of Michigan School of Education.

Rob Ramsdell founded FreshPond Education in 1996 and has spent the past 
10 years leading the development of professional development programs 
for K-12 educators.

Margaret Riel is a Senior Researcher at SRI, International, and 
Visiting Professor at Pepperdine University's online Master in 
Educational Technology program.

Dr. Mark Schlager is Associate Director of Learning Communities in SRI 
International's Center for Technology in Learning (http://ctl.sri.com).

Claudette Rasmussen is a Senior Professional Development Associate with 
the Professional Services Group of Learning Point Associates.

JoEllen Killion is the National Staff Development Council's Director of 
Special Projects.

Raymond M. Rose is the President of Rose & Smith Associates.

PBS TEACHERS ADVISORY GROUP, 2008-2009

Anthony J. Augustin

    Now in his 25th year of teaching, Anthony Augustin has spent more 
than half of his life serving the students of his rural Tennessee 
school system. During his tenure with the Lawrence County school 
system, Anthony has taught students in grades 7-12. He holds a Master 
of Arts in Education degree from the University of North Alabama and is 
currently working toward an Educational Specialist degree in 
Educational Leadership. Throughout his career as an educator, Anthony 
has focused on putting technology into the hands of his students. He 
has been recognized at local, State, and national levels for his 
excellence in teaching, and in 2006, he was named a Joseph B. Whitehead 
Educator of Distinction by the Coca-Cola Scholars Foundation and 
honored with the Foundation for Rural Education and Development's Rural 
Teacher of the Year Award. He currently teaches physical, Earth and 
environmental sciences at Loretto High School in Loretto, Tennessee.

Babs L. Bengtson, Ph.D.

    Babs L. Bengtson, Ph.D., is the Director of Educational Services at 
Penn State Public Broadcasting (PSPB). Bengtson comes to PSPB with 20 
years experience in education, winning national awards in instructional 
design and one national award for her research. She has worked for a 
variety of companies, including U.S. Airways and Ford Motor Company, 
where she gained international instructional design experience. 
Bengtson created and managed her own company, Bridge Builders, for 
several years before joining Penn State University full time. After 
joining Penn State in 1998, Bengtson developed professional development 
programs for K-12 teachers, and has taught several courses for pre-
service teachers, helping them learn how to incorporate multimedia in 
the classroom. Bengtson earned her Ph.D. in Workforce Education/
Training and Development from Penn State in 1994 and a Master's of 
Education in Adult Education, also from Penn State. Her Bachelor of 
Arts degree in History and English is from Geneva College, a small, 
liberal arts college in Beaver Falls, PA.

Kevin Clark

    Dr. Kevin Clark is an Associate Professor and Instructional 
Technology Program Coordinator at George Mason University in Virginia. 
He received his Bachelor's and Master's degree in computer science from 
North Carolina State University, and a Ph.D. in instructional systems 
from Pennsylvania State University. Prior to George Mason University, 
Dr. Clark worked for an educational software company and was a faculty 
member at San Jose State University. Dr. Clark's corporate experience 
included positions as a software tester, consultant, content designer, 
program manager, and founder/director of a non-profit youth program. 
Dr. Clark's research interests include the application of instructional 
design principles and learning theories to the design and development 
of online learning environments. Dr. Clark is also interested in the 
integration of technology into non-formal learning environments as well 
as issues related to digital equity. For more information, please visit 
his homepage.

Traci Feldhousen

    Traci Feldhousen is beginning her fourth year home-schooling her 
two children, currently a third grader and a kindergartener. She 
graduated from James Madison University in Harrisonburg, Virginia with 
a double degree in history and Russian language. Over the past few 
years, she has been a participant in several educational cooperatives 
and is currently one of the leaders of her local home-school support 
group.

Jane Ching Fung

    Jane Ching Fung has over 24 years of experience in the field of 
teaching and learning. She is in her 21st year of teaching for the Los 
Angeles Unified School District and currently teaches full-day 
kindergarten at the Alexander Science Center School in Exposition Park. 
She has facilitated professional development in Early Literacy at the 
school, district, and State level. Jane is an active member of the 
Center for the Future of Teaching and Learning (www.cftl.org), serves 
on the board of the National Commission on Teaching and America's 
Future (www.nctaf.org) and The Larchmont Charter School in Los Angeles 
(www.Iarchmontcharter.org). She is a 2002 Milken Educator, National 
Board Certified, and holds a Master's degree in Curriculum and 
Instruction (Reading and Language Arts). In 2001, Jane served on 
Governor Guinn's Education Commission of the States' Early Literacy 
Council and was a member of the Independent Citizens for California's 
Children Committee. Her research with Teachers Network Leadership 
Institute (www.teachersnetwork.org/tnli/index.htm) on new teacher 
collaboration is included in TNLI's book: Taking Action with Teacher 
Research.

Mary Henton

    Since joining National Middle School Association in 1999, Mary 
Henton has had several positions with the Association, from Director of 
Professional Development to Director of Integrated Media Initiatives 
(current). Mary is responsible for providing direction about leveraging 
technology and media to benefit the Association and its stakeholders. 
Mary's entire career has been in education. She has been an English 
teacher, outdoor education teacher, adventure and experiential 
education trainer and curriculum developer, and consultant in team 
development and learning. She has a B.A. in English (Gordon College) 
and an Ed.M. (Harvard University, Graduate School of Education).

Eric Hoefler

    Eric Hoefler taught English and creative writing at Woodbridge 
Senior High School's Center for the Fine and Performing Arts (CFPA) in 
Woodbridge, Virginia for the past nine years. While there, he helped to 
design and implement the CFPA program and the Center's four-year 
creative writing program. In 1999, he created a community-based website 
for teachers of English and creative writing at the school, which 
originally connected students through forum discussions but grew to 
include profiles, blogs, and file sharing. During that time, Eric also 
helped to develop and teach an online creative writing course as part 
of the county's Virtual High School initiative. In 2001, Eric became 
the Technology Liaison for the Northern Virginia Writing Project 
(NVWP), housed at George Mason University. Through that service, he has 
helped to integrate online technologies into the Project's work and has 
led numerous workshops that help teachers to understand how emerging 
online technologies can further improve the teaching of writing. 
Currently, Eric is working with a contracting agency for the Children's 
Bureau to help bring online solutions to the Child Welfare Reform 
Project, and he continues to work with teachers through his role with 
NVWP.

Don Jepsen-Minyard

    Don Jepsen-Minyard has taught at Crescent Valley High School in 
Corvallis, Oregon since 1990. Currently, he designs and teaches courses 
relating to images: Graphic Design, Interactive Design, Photography and 
a new, team taught English course, Story and Film. Throughout his 
career, He has maintained an interest both in designing instruction and 
in personal development. He created a video class for high school 
students in conjunction with the Journalism department at Oregon State 
University and the Northwest Film Center. He completed the Film 
Center's Media Arts for Teachers program. For two academic years, he 
collaborated with Bob Madar, winner of the Christine McAuliffe grant, 
to design and implement project-based curriculum. Two of his students 
produced ``People of the Walamala,'' a video about the ethnobotany of 
the Kalapuya Indians, which has been added to many University library 
collections in the Pacific Northwest. He worked briefly as a consultant 
for JD Hoye, formerly the National Director of the Federal School to 
Work program, to design video-based training materials.

Gregg Legutki

    Gregg Legutki is currently a Lead Project Specialist for California 
Technology Assistance Project (CTAP) in Southern California, covering 
Riverside, Inyo, Mono, and San Bernardino Counties. Prior to working 
for CTAP, Gregg was a classroom teacher for over 25 years, mostly in 
special education. Gregg started out using technology in the classroom 
with the original Apple for the Teacher Program in the early '80s. He 
was a technology mentor both at the district and school site level. 
Gregg has been involved with technology integration for classroom use 
for well over 20 years. In his current position, Gregg works with 
schools and districts developing workshops for teachers and site 
administrators on effective classroom technology integration. He also 
teaches a teacher prep class for Chapman University on technology 
integration.

Marnie Lewis

    Mamie Lewis received a B.S. in elementary education from 
Northeastern University in 1994 and in 2002 completed graduate work in 
instructional technology through George Mason University. She has 
taught in third, fifth and eighth grade classrooms over the past 10 
years. She is currently entering her third year as an Instructional 
Technology Coordinator for Arlington Public Schools in Virginia. Her 
role affords her the opportunity to review and evaluate educational 
sites and software to enhance instruction. She works directly with 
staff on a daily basis designing and teaching technology infused 
lessons.

Dan McDowell

    Dan McDowell has spent the last eleven years teaching social 
studies at West Hills. During that time, he has actively been involved 
in technology integration at the local, State, and national levels, 
giving numerous workshops and presentations on variety of topics 
including WebQuests, blogs, wikis, and digital video. Most recently 
McDowell presented at the National Education Computing Conference in 
San Diego. In 2002 he was named Classroom Connect's Internet Educator 
for the Year for the Western United States. In Spring 2006, he 
completed his MA in Educational Technology at San Diego State 
University and was award the privilege of representing the graduating 
class as the honor graduate for the department. This fall he was hired 
by SDSU to teach a graduate level seminar on digital video. At http://
www.ahistoryteacher.com/wordpress, McDowell blogs about issues related 
to his day-to-day experiences as a classroom teacher and educational 
technologist. His online portfolio may be accessed at http://
ahistoryteacher.com/.

Susim Munshi

    Susim Munshi is a Senior Analyst, Technology Planning and 
Integration, Office of Technology Services-eLearning, Chicago Public 
Schools. Susim has over 20 years of experience working with students, 
teachers and administrators. In his current position Susim assists 
schools with professional development, curriculum design, technology 
planning, and grant writing. Susim has presented at numerous State and 
national conferences on cutting edge technology integration solutions 
in classrooms.

Alicia Narvaez

    Alicia Narvaez is Creator/Director of the ``Virtual Pre-K & K'' 
program, a national multi-media parent involvement initiative based out 
of the Chicago Public Schools Office of Early Childhood Education. She 
is responsible for overall program development and implementation in 
Chicago and with school districts in Illinois, Texas, California, 
Colorado and Nevada. In May 2006, the Virtual K program was awarded the 
Codie Award for ``Best Instructional Solution: Students at Home.'' 
Prior to her current work in public education, Alicia spent a decade in 
educational television and media production. Her credits include work 
for the Discovery Channel, National Geographic Television, CBS News, 
NOVA, and the BBC.

Sara Reibman

    Sara Reibman is a librarian at Biblioteca Las Americas where she 
works with the staff and students of the Science Academy and the South 
Texas High School for Health Professions, both magnet schools in the 
Rio Grande Valley. Sara works on the BLA web site (http://
bla.stisd.net), the VIVA! Peer Tutor Program (http://bla.stisd.net/
viva.htm), online services, and photo classes. In 2006, her library won 
the National School Library Media Program of the Year award from the 
American Association of School Librarians and she received the 
Information Technology Pathfinder of the Year award from the same 
institution. Sara received her B.A. from the University of Maryland in 
1975 and her M.L.I.S. from Texas Woman's University in 2000.

Annie Schleicher

    Annie Schleicher is an Associate Editor for NewsHour Extra, the 
teen site for the Online NewsHour with Jim Lehrer. Prior to joining the 
NewsHour she was a high school English teacher and Peace Corps 
volunteer in Mongolia. She lives in Washington, DC.

Bob Sprankle

    Bob Sprankle is a graduate of the University of Southern Maine. He 
has been a 3/4 Multi-age teacher in Wells, ME for ten years and now 
serves as the school's Technology Integrator. He was involved with the 
SEED group in Maine as a Technology Learning Leader and helped train 
the first wave of teachers using laptops for the seventh and eighth 
grader MLTI project. Bob was awarded Maine's Technology Teacher of the 
Year in 2006 from ACTEM. His students have received world-wide 
recognition for their ``Room 208 Podcast,'' and have appeared in 
numerous articles, including The New York Times and Apple's Education 
Site. Bob has his own podcast (``Bit by Bit'') to help teachers 
incorporate technology into their classrooms. Both podcasts can be 
found at http://www.bobsprankle.com/

Sandy St. Louis

    Sandy St. Louis is educational outreach manager for FRONTLINE where 
she develops content for the FRONTLINE Teacher Center, an online 
destination that offers lesson plans and activities to teachers. Prior 
to joining FRONTLINE, she worked for nearly a decade in documentary 
film and video distribution to the educational marketplace.

Ceit Zweil

    Ceit Zweil is a producer of kids' Web sites at WGBH in Boston. 
After five years at the helm of the highly-acclaimed ARTHUR web site, 
she is currently producing the companion site for the new kids 
engineering series DESIGN SQUAD. She has worked with PBS to pilot new 
Parents & Teachers editorial guidelines on ARTHUR (and continued 
efforts to deliver rich supporting online content for grown-ups as 
producer of the CURIOUS GEORGE Parents & Teachers area. Ceit has served 
as Project Manager and Content Producer for several other WGBH-produced 
sites, including ZOOM, TIME WARP TRIO, AMERICAN EXPERIENCE's WAYBACK, 
and the ARTHUR/Children's Hospital Boston portal for kids. She has a BA 
in European History from Smith College, and a MA in Theatre Education 
(with a focus on interdisciplinary education through the arts) from 
Emerson College. Prior to WGBH, Ceit developed an interdisciplinary 
arts/science curriculum for a local education company. She is a 
performer and dance teacher in the Boston area.

APPENDIX B

                  PBS TEACHERLINE STATION PARTNERSHIPS

Arizona--ASSET-Eight/KAET, Tempe

         Arizona Teachers Excellence Program

         School Readiness Council, Maricopa County

         CCS Presentation Systems (statewide mobile training labs)

         Qwest Foundation in Education

Arkansas Educational Television Network, Conway

         Arkansas Department of Education

         College Credit Partners:

         University of Central Arkansas

Colorado--Rocky Mountain PBS, Denver

         Colorado Department of Education, Office of Standards and 
        Achievement Support

         Colorado Department of Education, English Language Acquisition 
        Unit

         Centennial BOCES, Learning Services

         Northwest Consortium for Professional Development

         Colorado Association of Science Teachers

         Pueblo City Schools

         Denver Public Schools, ProComp Office

         Public Television Stations:

         KTSC, Pueblo/Colorado Springs

         KRMJ, Grand Junction

         College Credit Partners:

         University of Colorado at Colorado Springs

District of Columbia--WHUT

         Howard University, School of Education

         WHUR-FM

Florida--WLRN, Miami

         Miami-Dade School District

         Academica, Inc.

         Public Television Station Partners:

         WXEL, West Palm Beach, FL

         WMTJ, San Juan, Puerto Rico

         College Credit Partners:

         Nova Southeastern University

Illinois--WSIU, Carbondale

         Southern Illinois University, College of Education

Indiana Public Broadcasting Stations/WFYI, Indianapolis

         Indianapolis Public Schools

         Indiana College Network

         Indiana Department of Education

         Indiana Humanities Council's Smart Desktop

         ISTEM

         Indiana Computer Educators

         Public Television & Radio Station Partners:

         WTIU-TV and WFIU radio, Bloomington

         WNIN-TV and WNIN radio, Evansville

         WFWA-TV, Fort Wayne

         WFYI radio, Indianapolis

         WYIN-TV, Merrillville

         WIPB-TV, Muncie

         WNIT-TV, South Bend/Elkhart

         WVUT-TV, Vincennes

         WBAA radio, West Lafayette

         College Credit Partners:

         Marian College

Iowa Public Television, Johnston

         College Credit Partners:

         Drake University

Louisiana Public Broadcasting, Baton Rouge

         Associated Professional Educators of Louisiana

         Louisiana Federation of Teachers

Maryland Public Television, Owings Mills

         Anne Arundel County Public Schools

         St. Mary's County Public Schools

         Washington County Public Schools

         Baltimore City County Public Schools

         Archdiocese of Baltimore Private Schools

         Worcester County Department of Professional Development

         Allegany County Public School

Massachusetts--WGBY, Springfield

         Hampshire Regional School District

         Easthampton Public Schools

         Massachusetts Department of Education, Office of Instructional 
        Technology

         Public Television Station Partners:

         Vermont Public Television

         Connecticut Public Television

         College Credit Partners:

         Merrimack College

         Westfield State College

Michigan--WKAR, East Lansing

         Michigan Department of Education, Office of Early Childhood 
        Education and Family Services

         Michigan 4-C Association

         Ingham County Health Department, Office for Young Children

         Ingham Intermediate School District

         Capitol Area Community Services Head Start

Mississippi Public Broadcasting, Jackson

         Canton Public School District

         Leake County School District

         South Delta School District

         Yazoo County School District

         College Credit Partners:

         Mississippi College

Nevada--Vegas PBS

         Clark County School District, Licensed Personnel Department

Nevada--KNPB, Reno

         Washoe County School District

         Elko County School District

         Western Nevada Regional Training Program

         Northwest Regional Professional Development Program

         Northern Nevada Mathematics Council

         College Credit Partners:

         University of Nevada-Reno, College of Education

New Hampshire Public Television, Durham

         New Hampshire Department of Education

         New Hampshire Local Education Support Center Network

         New Hampshire Regional Professional Development Centers

         College Credit Partners:

         Plymouth State University

New Jersey Network, Trenton

         New Jersey Department of Education

New Mexico--KNME, Albuquerque

         New Mexico Public Education Department Rural Education Bureau

         New Mexico Division of Higher Education

         College Credit Partners:

         University of New Mexico

North Dakota--Prairie Public Broadcasting, Fargo

         North Central Council for School Television

         North Dakota Department of Public Instruction, State Title I 
        Office

         Lakes and Prairies Child Care Resource and Referral

         Children and Family Services Division of the North Dakota 
        Department of Human Services

         College Credit Partners:

         North Dakota State University

         Minnesota State University, Moorhead

New York--WNED, Buffalo

         Science Teachers Association of New York (STANYS)

         Reading/Language Arts Association

         New York State Mathematics Association

         ECLIPSE Science Coordinators

         BOCES Model School Coordinators

         New York State Teacher Centers

         New York State Department of Education

         Public Television Station Partners:

         WMHT, Albany/Schenectady

         WSKG, Binghamton

         WLIW, Long Island

         WNET, New York

         WCFE, Plattsburgh

         WXXI, Rochester

         WCNY, Syracuse

         WPBS, Watertown

Ohio--WVIZ, Cleveland

         Tri-County Educational Service Center

         Logan County Educational Service Center

         Cuyahoga County Educational Service Center

         Cuyahoga Special Education Service Center

         Greater Cleveland Educational Development Center

         Public Television Station Partners:

         Think TV, Dayton

         WOUB and ETSEO, Athens

         WCET, Cincinnati

         WGBU, Bowling Green

         WOSU/WPBO, Columbus/Portsmouth

         WGTE, Toledo

         College Credit Partners:

         Ashland University

         Cleveland State University

         The University of Akron

Pennsylvania--WQLN, Erie

         Northwest Tri-County Intermediate Unit

         Northwest Regional Key (supports PA Early Learning Keys to 
        Quality)

Pennsylvania--WITF, Harrisburg

         Capital Area Intermediate Unit

South Carolina ETV, Columbia

         South Carolina Department of Education

         Public Television Station Partners:

         Georgia Public Broadcasting, Atlanta

         UNC-TV, Research Triangle Park, NC

Tennessee--Nashville Public Television

         Tennessee Department of Education, Office of Early Learning

         Metro Nashville Public Schools

         Public Television Station Partner:

         WLJT, West Tennessee State University

         College Credit Partner:

         Tennessee State University

Texas--KLRU, Austin & KLRN, San Antonio

         Texas Computer Education Association

         Texas Education Agency, Division of Advanced Academics/Gifted 
        and Talented

         Public Television Station Partners:

         KACV, Amarillo

         KEDT, Corpus Christi

         KERA, Dallas

         KMBH, Harlingen

         KUHT, Houston

         KNOT, Killeen

         KTXT, Lubbock

         KOCV, Odessa

         KWBU, Waco

Virginia--WHRO, Norfolk

         Virginia Society for Technology in Education

         Virginia Department of Education

         Public Television Station Partners:

         MHz Networks, Falls Church

         WVPT, Harrisonburg

         WCVE, Richmond

         WBRA, Roanoke

         College Credit Providers:

         James Madison University

Wisconsin Educational Communications Board, Madison

         College Credit Partners:

         Viterbo University
                   Answers to Post-Hearing Questions
Responses by Alejandro Grajal, Senior Vice President for Conservation, 
        Education, and Training, The Chicago Zoological Society

Questions submitted by Representative Vernon J. Ehlers

Q1.  Where do you go to find research when developing ISE programs? 
Have you used NSF-funded or other federal agency funded research? Are 
you aware of the 2008 Framework for Evaluating Impacts on Informal 
Science Education Projects mentioned by Dr. Ferrini-Mundy? And can you 
provide example of how federal sponsored educational research has been 
applied to existing programs?

A1. To develop informal science education programs, we seek research 
papers in various publications, both scientific and non-scientific. 
Some of our top sources are Science Magazine (by AAAS) and Nature 
Magazine. Science Magazine prints a regular science education feature 
that provides good and timely reporting on major trends in ISE. Another 
good source is the NTSA magazine (published by the National Science 
Teacher Association). Although this is a popular-type publication, it 
brings research results in an accessible way.
    We have used some NSF-funded research for Informal Science 
Education, but I would not consider that our main source of 
information. We have found that a significant portion on that most of 
the ISE research is focused on methods to provide scientific content 
with less emphasis on the process of how the scientific method is 
acquired and applied by students.
    In that regard, the 2008 Framework for Evaluating Impacts on 
Informal Science Education Projects mentioned by Dr. Ferrini-Mundy is 
an important part of establishing standards for evaluating impacts in 
ISE, particularly by providing the ``Six Strands of Science Learning,'' 
which we believe will become the reference standards for all future ISE 
evaluation efforts.
    In the case of the Chicago Zoological Society, our main source of 
federal sponsored educational research has been the IMLS (Institute for 
Museum and Library Services), which has funded some of our programs, 
including research and evaluation. Our evaluation research is now 
focused on several important ISE objectives. One of our most recent 
interests addresses how learners view themselves with respect to 
science. In particular how minorities and women develop personal images 
of how they can use science to solve real-life problems.
    As we mentioned in our testimony, we find that some research has 
been hampered by the over-reliance on technology or scientific facts as 
a metaphor for scientific progress. Those approaches with heavy 
emphasis on technology or science results tend to overlook that one of 
the basic components of effective science is the development of 
personal confidence and strong scientific skills.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                     Statement of loannis Miaoulis
                         President and Director
                       Museum of Science, Boston
                         and Founding Director
               National Center for Technological Literacy
    On behalf of the Museum of Science, Boston and our National Center 
for Technological Literacy, I applaud Chairman Lipinski and the Members 
of the Subcommittee for holding this hearing on the importance of 
informal science, technology, engineering and mathematics (STEM) 
education and the opportunity to contribute to it.

ENGINEERING CHANGE: Achieving STEM Literacy and Innovation

    With an economy in crisis and a workforce at risk, educating the 
Nation's future scientists and engineers and advancing technological 
literacy are more important than ever. And, while there are no easy 
``fixes,'' informal education centers can help ensure that future 
Americans are prepared to make the informed decisions life in a complex 
technological world requires and to create the products and services 
that will enable our economy to thrive.

Informal Environments Play a Vital Role in Public and K-12 STEM 
                    Education.

    According to the January 2009 National Research Council (NRC) 
report, Learning Science in Informal Environments: Places, People, and 
Pursuits, ``tens of millions of Americans, young and old, choose to 
learn about science in informal ways--by visiting museums and 
aquariums, attending after-school programs, pursuing personal hobbies, 
and watching TV documentaries, for example.'' The report also notes 
that informal teaming experiences can significantly improve outcomes 
for individuals from groups historically under-represented in science.
    Science centers and museums in particular can spark life-long 
interest in and understanding of science, engineering, mathematics, and 
technology. Non-threatening, friendly environments where adults and 
children can explore without fear of being wrong, museums have 
resources that many schools do not and offer informal, often 
interactive, activities that complement the school curriculum. By 
helping the public investigate the natural world and why and how the 
human-made world works, science museums help equip young people to live 
and work in the 21st century, while also increasing the public's 
ability to make educated decisions. Many of the complex issues that 
shape our lives require an understanding of basic science, technology, 
engineering, and math.
    The Museum of Science, Boston is one of the world's largest science 
centers an New England's most attended cultural institution. We work to 
bring science, technology, engineering, and mathematics alive for about 
1.5 million visitors a year through our interactive exhibits and 
programs, serving 100,000 more in traveling and overnight programs. Our 
landmark, long-range exhibits plan ``Science Is an Activity'' 
encourages visitors to practice scientific thinking skills. ``Science 
Is an Activity'' has been awarded many National Science Foundation 
grants and influenced exhibit development at other science centers. The 
Museum of Science also partners with school districts to bring the 
excitement of the Museum to the classroom, while providing support and 
resources for teachers through field trip workshops, pre- and post-
visit activities, teacher professional development, outreach, and 
linking resources to state and national learning standards.
    For example, the Museum's Eye Opener Program has served 80,000 
children from disadvantaged city neighborhoods in the last 40 years. 
Supported by the Germeshausen Family Foundation and others, 2,500 to 
3,000 second graders a year from 45 to 60 Boston public schools explore 
science and engineering for free and share their experiences with 
dedicated Museum volunteers. An Eye Opener visit is not just a field 
trip, but an all-in-one learning experience that begins the week before 
with a visit by Museum staff. When the children pour out of the buses, 
they are primed to marvel at a live alligator, climb on a seesaw to 
learn balance, and more. Meanwhile, as the youngsters tour the Museum, 
their teachers learn how to use the Museum's resources in their 
classrooms. The Eye Opener program is also a career and academic 
learning opportunity for urban high school youth. Duci Goncalves, 28, 
reported that when she was an Eye Opener teen volunteer, the Museum 
``opened my eyes and expanded my world. Now, I feel I can do 
anything.'' A 2002 graduate of Boston University with a Northeastern 
University law degree, she works as an attorney with the Youth Advocacy 
Project in Roxbury.
    Each year, the Museum hosts 20,000 youngsters in grades 1-6 and 
their adult chaperones in a unique overnight field trip for a very 
different kind of learning experience. Since 1985, years before the 
popular movie, ``Night at the Museum,'' the Museum of Science has 
hosted about 435,000 overnighters who can sleep beneath a life-sized 
model of Tyrannosaurus Rex, after engaging in hands-on activities 
focusing on science, technology, engineering and math.
    Museums can also be a valuable community resource. In addition to 
on-site visitors, the Museum of Science serves others through outreach 
programs, K-12 engineering curricula, partnerships, traveling exhibits, 
and web-based media. Since 1995, the Museum has welcomed under-
represented cultural, ethnic, and disabled communities via partnerships 
with over 3,500 organizations in Greater Boston and surrounding areas. 
In the last 10 years, over 207,000 under-represented visitors have 
enjoyed free and/or discounted admission to the Museum and/or 
participated in Museum or neighborhood-based community events.
    When, with the support of the Hearst Endowment, the Museum of 
Science traveling program was able to bring free presentations 
featuring live animals to 400 public school fifth graders in Holyoke, 
Massachusetts to spark their interest in biology, Dr. Helen Gibson, 
Holyoke's K-8 science academic coordinator, said, ``A lot of our 
children are from homes where poverty is an issue. Having high-quality, 
hands-on programs from the Museum's inspiring educators, is 
wonderful.''
    Each year, in over 100 learning environments across the globe, 
modeled on the Museum's flagship Computer Clubhouse, 25,000 under-
served youths worldwide are changing their lives through the creative 
use of technology and support of adult mentors via the Intel Computer 
Clubhouse Network. Its ``Girls Day'' program builds confidence and life 
skills of girls, using technology to create projects related to their 
interests.

Connecting Math and Science to Innovation via Technology and 
                    Engineering in Formal and Informal Education 
                    Settings.

    We greatly appreciate that K-12 Science, Technology, Engineering 
and Mathematics (STEM) education in the United States has received 
significant attention, in response to international competition, 
national security, and the need for a well-informed citizenry, however, 
we are concerned that K-12 technology and engineering education has 
been largely overlooked. We hope for different results, while following 
an age-old model of instruction.
    Much of our science curricula was established in the nineteenth 
century, when our society was largely agrarian, and focused on the 
natural world. There were no cell phones, automobiles, video games, 
nuclear power plants or space stations. Obviously, our world has 
dramatically changed but most curricula have not, leaving a huge gap in 
learning. Teachers and students learn little of the human-made world 
(i.e., technologies) or of the process in which technologies are 
created--engineering. While most people spend 95 percent of their time 
interacting with the technologies of the engineered world, few know 
that these products, systems and services are created via the 
engineering design process. Despite the exponential growth and 
influence of technology in our lives, much of our core curricula remain 
largely unchanged and only address the human-made world in elective 
courses or vocational programs. Only in rare instances is engineering 
discussed or taught.
    We need to add technology and engineering as standard content in 
U.S. public schools and modernize our teaching to reflect our 
technological world--our widely diverse and technologically rich world. 
We are not simply referring to computers in the classroom. We advocate 
and educate for a broader understanding and appreciation of the wide 
array of technologies, that we often take for granted, like clean water 
and air technologies, simple and complex transportation technologies, 
energy technologies, production and distribution technologies, waste 
disposal technologies, and other engineered solutions that respond to 
our human needs and sustain our planet.
    The key to educating students to thrive in today's competitive 
global economy is introducing them to the engineering design skills and 
concepts that will engage them in applying their math and science 
knowledge to solve real problems. This is the way to harness the 
creativity of young minds. This is also the process that fuels 
innovation of new technologies.
    Engaging students in engineering skills--identifying a problem, 
designing a solution, testing, and improving the design--can offer a 
platform for applied and integrated learning in math, science, English 
language arts, and history and social studies. Allowing for failure and 
hands-on activities, engineering can also open doors for different 
kinds of learners.
    Introducing engineering in K-12 learning opens career opportunities 
for children of all backgrounds. More than 70 percent of U.S.-born 
engineers are influenced by a relative to become an engineer. Children 
from ethnic groups under-represented in technology and engineering most 
often do not have the relatives or counselors to guide them to pursue 
these fields. As minority groups become majority groups, we may see a 
parallel decrease in U.S.-born engineers. To maintain our country's 
vitality and security and diversify our workforce, we must expand 
teacher and student understanding of technology and engineering.
    We need to make the ``technology'' and ``engineering'' in STEM 
education as important as the ``science'' and ``math'' in all policy-
making, funding, K-12 standards and curricula, teacher professional 
development and certification, and student programs and assessments.
    Understanding the importance of scientific and technological 
literacy and the need for trained scientists and engineers, the Museum 
of Science launched the National Center for Technological Literacy 
(NCTL) in 2004 to enhance knowledge of engineering and technology for 
people of all ages and to inspire the next generation of engineers and 
scientists. Through the NCTL, the Museum is working to integrate 
engineering as a new discipline in schools nationwide via standards 
revisions, assessment items, research and standards-based K-12 
curricula development, pre-service and in-service teacher professional 
development, and new technology and engineering museum exhibits and 
programs. The Museum strives to introduce engineering and technology to 
schools and at least one science center or informal education 
organization in every state by 2015. The Museum of Science is the only 
science museum in the country with a comprehensive strategy and 
infrastructure to foster technological literacy in both science museums 
and schools nationwide.
    An early initiative of the NCTL was to examine and enhance K-12 
engineering curricula. The Museum's online Technology and Engineering 
Curriculum Review includes instructional materials in a searchable 
database (www.mos.orc/TEC). The Museum offers educators and students 
nationwide 2,600 science, technology, math, and engineering curriculum 
resources and links the Museum's exhibits and programs to state and 
national standards.
    The NCTL is now helping states modify their educational standards 
and assessments to include engineering, developing standards- and 
research-based K-12 engineering curricula, and offering educators 
support and professional development. Involving students in 
engineering, before stereotyping about math and science discourages 
them, the our curricula projects are geared to both genders and people 
of all colors, backgrounds, and cultures. Our Engineering is Elementary 
(EiE) curriculum, for example, integrates engineering and technology 
with science, language arts, social studies, and mathematics via 
storybooks and hands-on design activities for 1st-5th graders. Each 
unit includes an illustrated storybook with a child from a different 
country and culture who uses the engineering design process to solve a 
community-based problem. The curriculum has reached over 13,300 
teachers and 935,800 students in 50 states and Washington, DC.
    This program incorporates research, evaluation, and assessment into 
its design. On more than 75 percent of questions, students performed 
significantly better on the post-assessment than on the pre-assessment. 
In most cases, EKE students performed significantly better than the 
control. This was true for both genders and all racial/ethnic groups. 
Students demonstrated, among other things: a better understanding that 
engineering involves design and teamwork; a better understanding of the 
engineering design process; and, an increased likelihood of 
understanding science content related to the unit. Teachers reported 
gains in their knowledge and understanding of the range of engineering 
disciplines, what engineers do, and the pervasiveness of engineering.
    Engineering is Elementary also shows promising preliminary results 
in narrowing the achievement gap in a national controlled study of 
thousands of students who participated in an BE unit and related 
science instruction, and who participated as the control group in only 
the related science instruction. In two of the three units studied, the 
performance gap between low and high socioeconomic students was 
significantly smaller after participation in an EiE unit.
    The Museum of Science's informal education efforts involve 
prototyping museum exhibits and programs that will inspire people to 
become technologically literate by exploring: 1) what technology is; 2) 
how it is created and used; and 3) how to make informed decisions about 
its development, use, and impact. Among the Museum's educational 
approaches are: 1) a ``showcase'' presenting new technologies and the 
latest research, 2) a ``creativity workshop'' for hands-on problem-
solving with technology and invention, and 3) a ``forum'' focusing on 
developing critical thinking skills about science and technology 
issues. The goal is to help the public understand the innovation 
process--the skills of designing, building, and using technology-and 
the impact of science and technology. Since 2003, for example, Museum 
of Science educators have engaged 76,000 young visitors (47 percent 
boys) and (53 percent girls) in Design Challenges involving the 
engineering design cycle and intended to appeal to girls and boys.

Well-Managed Partnerships Create Opportunities.

    Science centers, particularly those with a focus on technology and 
innovation, are well positioned to form partnerships with the private 
sector. It's critical to manage them well. Perhaps most important is 
setting expectations up front and ensuring that the plan of action will 
meet both organizations' goals. These partnerships can provide science 
centers with financial, intellectual, and marketing support. Financial 
support is the traditional model; firms view this support as part of 
their marketing, community relations or long-term workforce 
development, and/or philanthropy. Intellectual support ranges from 
employee participation in museum programs as presenters, advisors, and 
conveners of other potential partners to lending or donating artifacts, 
images, and video.
    In addressing STEM advances, the Museum of Science often features 
the work and knowledge of the world-class science and technology 
companies, laboratories, hospitals, and universities that surround it. 
In addition in 1984, the Museum of Science created the Science Museum 
Exhibit Collaborative to develop and share exhibits with other museums 
across the country. In one case, the Museum collaborated with Lucasfilm 
Ltd. to create Star Wars: Where Science Meets Imagination, a national 
touring exhibit which has promoted technological literacy since 2005.
    For the Museum of Science, intellectual partnerships are critical 
to supporting a program that reflects current research and advances. 
Firms offer marketing support, too, as advisors, through co-promotion 
and communication with employees about the Museum's events. 
Partnerships can revolve around specific programs or the Museum as a 
whole. Firms value partnerships. Associating with a science center 
provide benefits for their employees from free Museum admission and a 
sense of pride to opportunities for volunteerism, and helping 
development of well-informed consumers or voters and a science-and-
technology-literate workforce. The Museum of Science has developed 
corporate partnering guidelines to address important issues like 
content integrity, ethics, and conflict of interest.
    The Beyond the X-Ray exhibit involved extensive intellectual 
collaboration between Philips Medical Systems and the Museum, featuring 
their name and images and engaging their people in Museum activities, 
including compelling presentations of live 3-D cardiac ultrasound. In 
this challenging economy, sponsorship from companies also helps reach 
communities unable to afford a visit as with the Museum's partnering in 
2009 with the MathWorks to bring programs on physics, chemistry, 
astronomy, and animal sciences into the Natick, Massachusetts, public 
schools.
    The Cambridge, Massachusetts, biotechnology company Genzyme has 
donated hundreds of Museum passes enabling non-profits and schools to 
visit. A 2006 $2 million gift to the Museum to create the Genzyme 
Biotechnology Education Initiative supports programs to educate the 
public about the rapid discoveries in biotechnology and how these 
advances affect their lives. The programs will include interactive 
exhibits and educational forums, teacher professional development, 
presentations for school groups, lectures, Web-based resources, and K-
12 science and technology curricula. Genzyme also supports the Museum's 
model teacher sabbatical program enabling educators to step out of 
their classrooms and become students at the Museum for five days.
    For partnerships between informal science educators and formal 
education institutions, common mission, aligned approaches, funding, 
and synergistic strengths are key. Successful partnerships have a 
shared sense of accountability, preferably with written agreements, to 
deliver on projects and programs. Examples include:

        <bullet>  The Museum's Building Mathematics curriculum 
        development projects, created with Tufts University, provides 
        innovative practices for integrating engineering with math to 
        help middle school students develop algebraic thinking.

        <bullet>  To address the national shortage of technology 
        educators, Closing the Technology & Engineering Teaching Gap, a 
        new K-12 initiative, is integrating NCTL materials into the 
        fully accredited online technology education programs of Valley 
        City State University (VCSU), North Dakota. The goal is to 
        improve the technological literacy of K-12 teachers and prepare 
        qualified teachers. The NCTL will make its curriculum materials 
        and training available to VCSU via this innovative online 
        teacher certification program.

        <bullet>  The Museum is also working with three Massachusetts 
        community colleges to help educate future elementary teachers 
        via its three-year Advancing Technological Literacy and Skills 
        project (ATLAS). It involves the community colleges in 
        developing their understanding of technology and engineering 
        content and teaching tools. Faculty engage in engineering 
        design challenges, connect technology and engineering concepts 
        with science, mathematics, literacy, and other subjects, learn 
        about technical career options, and modify courses to include 
        technology and engineering. The project will also include 
        outreach to four-year colleges and high schools working with 
        the community colleges to ensure continuity and create a cadre 
        of faculty to introduce this model to colleagues across the 
        state.

        <bullet>  The Museum launched its first school textbook 
        publishing partnership in 2007 with Key Curriculum Press. The 
        standards-based Engineering the Future (EtF) curriculum 
        engages high school students in hands-on design and building 
        challenges reflecting real engineering problems and encourages 
        them to explore what engineering and technology are and how 
        they influence our society. Preliminary studies show that 
        students increase their understanding in all four Engineering 
        the Future units. The textbook is narrated by practicing 
        engineers--female and male--from various ethnic and cultural 
        backgrounds.

Research on Informal Learning is Invaluable

    Since 2004, the Museum of Science, Boston has conducted over 50 
research, evaluation and literature review studies on informal science 
education, addressing how the Museum engages the public in STEM 
learning. The Museum has focused on these four areas:

1)  Museum-led teacher professional development: The Museum is 
exploring ways to enhance the capacity of teachers to engage their 
students in STEM learning. Early evaluation findings suggest that, in 
addition to increased knowledge, teachers participating in the programs 
report feeling ``renewed enthusiasm'' and ``rejuvenation'' for teaching 
and learning about science. This suggests that the ability for informal 
science learning to enable learners to ``experience excitement, 
interest, and motivation to learn about phenomena in the natural and 
physical world'' may extend not only to children but also to the adults 
who play a critical role in educating their children. Future research 
could explore the longitudinal impacts of such programs for teacher 
interest and motivation for teaching and learning about science, as 
well as the impact on increased teacher retention.

2)  Universal design for museum learning: Recent Museum of Science 
studies have found that people with physical, sensory, and learning 
disabilities can engage in and learn from museum experiences that 
include multi-sensory interactions and multi-modal interpretations. 
Some studies also found that people with disabilities report feeling 
positively about themselves as learners when they can fully participate 
in and learn from the experience on their own, and report intense 
negative feelings when a design presents a barrier to learning. Further 
research could examine the relationship between independent learning 
and people with disabilities' identities as science learners.

3)  Adult forums: The Museum of Science has studied the implementation 
of over 50 events across the country that engage adults in discussing 
the relationship between science, technology, and society. The Museum 
has found that adults: attend Forum discussions based on their interest 
in the topic; highly value the opportunity to engage in these 
discussions; learn about science and technology content and about the 
relationship between science, technology and society through these 
programs. These studies also demonstrate that program participants 
continue learning about the topic afterwards. Examination of the 
potential causal relationship between program participation and 
continued learning is a potential area for further research.

4)  Engineering design challenges: Early studies by the Museum 
demonstrated that most children complete most steps in the engineering 
design process when engaged in existing activities, but that children 
need more help during certain phases of the design cycle than others. 
Recent research efforts have focused on how exhibit designs and adult 
involvement can increase children's engagement in the engineering 
design process by providing supports and scaffolds that structure the 
child's engagement and increase learning through multiple iterations.

Challenges of metrics: The Museum uses many tools cited in the recent 
NRC report: self-reported learning through surveys and interviews, 
conversational analysis of videotape data, and observations. The Museum 
triangulates findings across instruments to reduce reliance on any one 
instrument. When possible, the Museum uses existing validated 
instruments to collect data. The availability of validated instruments 
is limited, however, especially in the above described areas.
    Museums' self-directed, open-ended learning experiences which vary 
from participant-to-participant are hard to measure, using standardized 
tests that measure specific constructs, even for our self-contained 
programs, such as teacher professional development and adult forums. In 
these programs, adults direct their own learning process, a practice 
participants report as one of the most valued aspects of these 
programs. This makes it difficult, however, to study these programs as 
controlled ``treatments.'' A formalized test would also detract from 
the self-directed nature of the programs. This is why the Museum relies 
on self-reported learning to measure learning in adult programs, 
triangulated with additional instruments such as journals or videotaped 
conversations.
    Another challenge of conducting research and evaluation studies in 
museums is developing instruments that capture the learning of its 
diverse visitors, especially in research on universal design. The tools 
need to be flexible and allow for differences in how individuals 
receive and convey information. It is important to make sure that 
regardless of the delivery and collection method, similar constructs or 
ideas can be elicited from the users.

Major Challenges and Opportunities in Informal Science Learning

Exhibit development: For nearly all science-technology centers, the 
principal challenges are financial. Drawing support from corporate and 
individual donors, governmental agencies, and visitors who pay 
admission, science centers are in jeopardy when the economy is down. 
With the rising costs of utilities and basic functions, science centers 
turn to cutting educational programs and deferring maintenance of their 
facilities in order to stay open. They also turn to program activities 
that may have a record or expectation of drawing large numbers of 
visitors, even if those activities do not offer the high level of 
educational impact to which the NRC report aspires. Science museums can 
create exhibits that draw large numbers of visitors and address 
important learning goals, but not without the financial resources. The 
Museum of Science was fortunate to win an award from the National 
Science Foundation (NSF) for Star Wars: Where Science Meets 
Imagination, an exhibit that drew over a million and a half visitors in 
its first eight U.S. venues, with learning experiences focused on 
engineering design. Future opportunities exist and funding to support 
imaginative educational exhibit development would be beneficial.

Relevance: Science museums have been so successful at engaging family 
audiences in science learning experiences that they are under-developed 
in meeting other community needs, in particular those of adults faced 
with decisions about how to use science and technology in their lives. 
That's one reason the Museum launched its National Center for 
Technological Literacy.
    The 5th World Congress of Science Centers recently challenged 
science museums to pull people together ``to create a better future for 
all through global engagement with issues of local, national, and 
global relevance.'' The Museum of Science has also been fortunate to 
have an NSF grant to establish the Nanoscale Informal Science Education 
Network (www.NISENet.ora). The Network is building partnerships between 
university research centers and science museums to raise public 
awareness, understanding, and engagement with nanoscale science, 
engineering, and technology. This is an area of significant current 
research with future impact upon jobs and STEM careers, as well as 
possible societal benefits and risks. Over 100 science museums are 
working with university researchers to address the needs of youth and 
adults. Funding to support similar network-wide approaches to other 
topics would further raise the capacity of the public to engage with 
the larger enterprises of science and engineering that relate directly 
to their lives. Funding for activities that support public engagement 
and foster dialogue between experts and lay people also represent an 
opportunity to bridge important socio-scientific issues.

Two final challenges: First the challenge of inclusion--broadening the 
reach of informal science education to under-represented audiences, 
ethnic and racial minorities, people with disabilities, and those in 
rural communities. Existing programs could be strengthened and 
disseminated more broadly. The second challenge is professional 
development. Informal science education is a complex field with only a 
few opportunities for directly relevant formal education and so in-
service professional development is essential.

Recommendations

    Key federal agencies such as the Department of Education, National 
Science Foundation, and NASA can make the ``technology'' and 
``engineering'' in STEM education as important as the ``science'' and 
``math'' in all policy-making, funding, K-12 standards and curricula, 
teacher professional development and certification, and student 
programs and assessments. NASA is uniquely positioned to champion the 
technology and engineering components of STEM, inspiring children to 
pursue careers in these areas. NASA can focus more of its grant 
activity on the technology and engineering curriculum, teacher 
professional development, and support the development of informal 
science education programs, such as museum exhibits and television 
programs. NASA can again become the main driver for STEM education as 
it was after Sputnik.
    As you pursue education and innovation policies and legislation, 
please also consider the following:

        <bullet>  Remember science museums are excellent providers of 
        teacher professional development and make sure they can 
        participate in such programs;

        <bullet>  Expand and rename the Math/Science Partnerships to 
        STEM Partnerships to include technology and engineering 
        educators in teacher professional development opportunities;

        <bullet>  Support after-school programs that include technology 
        and engineering activities as well as math and science 
        activities;

        <bullet>  Encourage states to adopt technology and engineering 
        standards and assessments;

        <bullet>  Encourage states to include technology and 
        engineering in the definition of ``rigorous curricula'' for 
        high school graduation; and

        <bullet>  Expand the No Child Left Behind (NCLB) definition and 
        requirement for ``technology literacy'' to go beyond the use of 
        computers to include the engineering design process.

    Thank you for your efforts to highlight the role of informal 
science education in STEM learning. For more information on our museum 
programs and services, visit www.mos.org and the work of the NCTL, 
visit www.nctl.org. If we can provide any additional information, 
please let me know.
                Statement of the Girl Scouts of the USA

Introduction

    Girl Scouts of the USA (GSUSA) is the world's preeminent 
organization dedicated solely to girls, serving three million girl 
members in every corner of the United States, Puerto Rico, the Virgin 
Islands, and ninety-five countries worldwide. Girl Scouts has a long-
standing commitment to girls' education and continues to be an 
authority on their educational needs. Girl Scouts is committed to 
girls' exploration and pursuit of education and careers in Science, 
Technology, Engineering and Math (STEM) in order to increase the number 
of girls pursuing careers in STEM-related fields. We are deeply 
invested in supporting girls' involvement in STEM education and add a 
unique voice and proven solutions for Congress to consider while 
forming policy to assist informal education networks in developing STEM 
programming.
    Girl Scouts applauds the Science and Technology Committee's 
commitment to ensuring that we have an adequately trained STEM 
workforce, and submits the following testimony for its review. As the 
Committee continues to explore the role of informal education in 
preparing our next generation of engineers, scientists, and 
mathematicians, please know that Girl Scouts of the USA can provide 
resources, information, and guidance in shaping public policies that 
will promote these fields, especially among our nation's girls.

Scope of the Problem

    According to the U.S. Bureau of Labor Statistics, jobs requiring 
science, technology engineering, or math training will increase 24 
percent between 2004 and 2014 to 6.3 million. Unfortunately, students' 
interest in these subjects is decreasing. At the same time, instruction 
devoted to these subjects has declined due to an increased focus on 
reading and literacy. Time magazine's report card for No Child Left 
Behind found that national average class instruction time for math and 
science in grades 1 through 6 had decreased by 17 and 23 minutes per 
week, respectively.\1\
---------------------------------------------------------------------------
    \1\ TIME Magazine. 2007. How to fix No Child Left Behind. Time 
Magazine (May 24, 2007).
---------------------------------------------------------------------------
    Girls especially begin to lose interest in STEM early in their 
education; the percentage of girls who say they would not study math 
anymore given the choice increases in 4th, 8th, and 12th grade from 
nine percent to fifteen percent to 50 percent respectively.\2\ While 
girls consistently match or surpass boys' achievements in science and 
math in scholastic aptitude tests, achievement tests, and classroom 
grades, high school girls are less likely than boys to take AP physics 
or computer science exams.\3\
---------------------------------------------------------------------------
    \2\ Educational Equity of Girls and Women, National Center for 
Education Statistics, 2000.
    \3\ The College Board, Advanced Placement Report to the Nation: 
2006 (February 2006).
---------------------------------------------------------------------------
    This weak academic pipeline, along with other factors, is causing 
fewer women to pursue careers in STEM fields. According to the National 
Science Foundation, women represent 46 percent of the total workforce 
in America, but only 25 percent of the workforce in the fields of 
science and engineering.\4\ This gender gap holds serious consequences 
for the future of our country and its girls. A Bayer Corporation Survey 
of Fortune 1000 STEM executives found that roughly nine-in-ten (89 
percent) agree that bringing more women and minorities into STEM fields 
will help solve U.S. manpower shortages. If our nation is to maintain a 
competitive advantage in the global economy, we need to ensure that the 
entire population of young minds is encouraged to explore STEM fields.
---------------------------------------------------------------------------
    \4\ National Science Foundation, Division of Science Resources 
Statistics, Women, Minorities, and Persons with Disabilities in Science 
and Engineering: 2004, NSF 04-317 (updated May 2004). Available at 
http://www.nsf.gov/statistics/wmpd

History of Girl Scouts and STEM

    Girl Scouts is committed to girls' pursuit of education and careers 
in STEM to achieve parity for girls in STEM-related fields. With over 
70 badges and patches in STEM-related activities for Girl Scouts at all 
levels ages 5-17, girls are encouraged to explore the many ways in 
which STEM fields relate to their lives. GSUSA brings girls the highest 
level of STEM opportunities through research-based programming and 
collaboration with academic and industry leaders. By developing an 
early interest in STEM fields within a supportive network of caring 
adults and peers, Girl Scouts are poised to become future world 
scientists, engineers and scholars.
    Girl Scouts STEM programming is provided in a safe, fun, girl-
centered environment. Our STEM programming is designed to strategically 
engage girls in age-appropriate activities that make STEM approachable 
and fun. Our programs promote gender equality by encouraging girls to 
explore career and educational opportunities in fields where women are 
under-represented, while encouraging girls to undertake activities that 
are girl-led, collaborative, and hands-on. Our past and current efforts 
emphasize a number of different approaches, including public education 
campaigns, partnerships, mentorship programs, traditional badges and 
activities, and innovative new programming.
    For example, in order to highlight the need to encourage girls' 
interest in STEM, Girl Scouts partnered with the Ad Council in 2003 to 
produce a three-year public service announcement campaign. This 
campaign, aimed at girls, their parents and caregivers, and educators, 
was launched on television, radio, online, and in print media.
    Girl Scouts programming also encourages girls to reach for the 
stars--literally. Through our partnership with NASA, Girl Scouts can 
access some of NASA's cutting-edge robotics technology and one-of-a-
kind internships. Girl Scouts are able to attend solar science 
trainings and are given the opportunity to meet NASA scientists 
themselves.
    Our NASA partnership also highlights the importance of role models 
for girls, whether they are astronauts or engineers. Our Fair Play 
program is a proven, successful initiative run in partnership with the 
Department of Education and the Intel Corporation that teaches girls 
about the fields of science, technology, engineering and math through 
extracurricular experiences. This innovative program features day camp, 
resident camp, after-school time and university-based implementation 
models, and includes women who are currently experts in physics, math, 
design, technology and computer engineering. Hands-on learning and 
mentoring with adult role models appeals to girls already interested in 
STEM, as well as those for whom math and science were formerly daunting 
topics.
    Long before these innovative programs existed, however, Girl Scouts 
offered an array of badges and activities related to nature and other 
biological sciences. Beyond traditional badges such as ``Wildlife,'' 
Girl Scout programming includes badges in math, chemistry, computers, 
and engineering, with badges such as ``Build a Better Future,'' in 
which girls experiment with engineering design problems while 
connecting them to their desire to create positive change in their 
world.
    Against this strong history and experience, Girl Scouts is poised 
to vastly expand our STEM outreach through creation and launch of a new 
Girl Scout ``journey'' titled It's Your Planet, Love It! A ``journey'' 
represents a new way that girls experience Girl Scouting. Rather than 
pursuing discrete activities and earning individual badges, girls take 
part in a ``journey'' along a designated, multi-disciplinary theme. 
It's Your Planet, Love It! uses girls' concern for the environment as a 
way to bolster their interest in STEM fields. This program focuses on 
career exploration, hands-on activities, mentoring, and project-based 
learning in a girl-centric, supportive environment. By increasing STEM 
literacy among girls, Girl Scouts is preparing a new generation of 
leaders to tackle the environmental issues of tomorrow.

Policy Recommendations

    Girl Scouts strongly supports federal, State and local policies 
that improve our focus on both the formal and informal STEM education 
sectors. Informal education organizations especially have a crucial 
roll to play in the shaping of policy that will positively impact the 
next generation of the STEM workforce. As the Science and Technology 
Committee moves forward on this effort, we strongly encourage you to 
support the expansion of programs that help non-profit organizations--
such as Girl Scouts--to promote STEM education and complement formal 
education. Girl Scouts is looking for opportunities to assist Congress 
in improving how we as a country promote STEM education in our nation's 
youth, especially at those points where girls tend to lose interest in 
STEM: 4th, 8th, and 12th grade. In order to best meet the needs of 
girls and youth, we recommend the Committee consider and implement 
policies that encourage:

        <bullet>  Diverse Learning Environments: We will not be 
        successful in increasing the number of individuals engaging in 
        STEM fields if we rely solely on the traditional educational 
        setting. Congress must expand efforts to teach STEM fields 
        outside the classroom, in diverse settings. Specifically, 
        spaces must be created for girls where they can explore, 
        investigate, and experiment without fear. Efforts should be 
        made to pilot ``girl-only'' demonstration projects to engage 
        girls in STEM activities in safe, girl-only environments.

        <bullet>  Hands-on/Real World Learning: Limited instruction 
        time, competing priorities, and insufficient resources reduce 
        the availability of hands-on experimentation in the classroom. 
        Our research demonstrates, however, that girls interest in STEM 
        is increased when it is provided in a hands-on, experiential, 
        student-led environment. Furthermore, hands-on learning must be 
        tied to practical, real world applications. To ensure that we 
        are engaging students in ways that capture their imaginations 
        and interests, Congress should support efforts to expand hands-
        on, real world, collaborative learning in the informal 
        educational setting.

        <bullet>  Role Models: Access to strong and inspiring role 
        models and mentors is a critical way to engage more girls in 
        STEM fields. Congress should create a mentoring program to 
        encourage young women to become involved in STEM education and 
        careers. Such programs should promote the work of non-profit 
        organizations, collaborations with business and industry, 
        partnerships with institutions of higher learning, and other 
        activities that bring together the efforts of the public, 
        private and non-profit sectors. Special emphasis should be 
        placed on programs that serve women, minorities, and people 
        with disabilities.

        <bullet>  Stigma: Stigma and stereotypes about STEM fields 
        often keep girls from pursuing these educational opportunities. 
        The desire for social acceptance in school, along with the 
        perception that STEM activities are solitary and uninteresting, 
        discourages young women from pursuing their early interest in 
        STEM. Congress should promote efforts of federal agencies, 
        informal and formal educational partners, and private industry 
        to combat this stigma through public education campaigns. As a 
        leading authority on girls' interests and thinking, Girl Scouts 
        is well-positioned to assist the government in reframing girls' 
        perception of STEM to encourage more girls to engage in STEM 
        fields.

        <bullet>  Consistent standards: To ensure the quality of 
        education in the informal setting, Congress should develop 
        nationally consistent learning standards that allow the 
        country's informal sector to provide meaningful resources to 
        teachers around the country and map to national standards.

Conclusions

    It is imperative that our nation meet the challenge of educating 
the next generation of STEM leaders. While formal educational 
initiatives such as No Child Left Behind have renewed our country's 
focus on basics such as reading, writing, and math, other STEM-related 
fields have received less attention in order to accommodate these 
changes. Although gaps in formal education are increasing, the informal 
education sector is ideally suited to fill those gaps. Organizations 
that run after-school programming in conjunction with year-round 
initiatives, such as Girl Scouts, can help STEM resonate with girls who 
may have previously found STEM fields uninteresting or irrelevant. 
Listening to the voices of girls has informed Girl Scouts STEM 
programming and provides significant and important lessons for 
Congress' consideration.
    Girl Scouts would like to thank the Subcommittee on Research and 
Science Education for its willingness to investigate the importance of 
informal STEM education, and looks forward to working with the 
Committee on these important issues.

                                   

</pre></body></html>
